<html>
<title> - WORKER HEALTH AND SAFETY FROM THE OIL RIG TO THE SHORELINE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                     WORKER HEALTH AND SAFETY FROM
                      THE OIL RIG TO THE SHORELINE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JUNE 23, 2010

                               __________

                           Serial No. 111-68

                               __________

      Printed for the use of the Committee on Education and Labor





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html










                  U.S. GOVERNMENT PRINTING OFFICE
  56-925 PDF              WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       John Kline, Minnesota,
    Chairman                           Senior Republican Member
Donald M. Payne, New Jersey          Thomas E. Petri, Wisconsin
Robert E. Andrews, New Jersey        Howard P. ``Buck'' McKeon, 
Robert C. ``Bobby'' Scott, Virginia      California
Lynn C. Woolsey, California          Peter Hoekstra, Michigan
Ruben Hinojosa, Texas                Michael N. Castle, Delaware
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Joe Wilson, South Carolina
Rush D. Holt, New Jersey             Cathy McMorris Rodgers, Washington
Susan A. Davis, California           Tom Price, Georgia
Raul M. Grijalva, Arizona            Rob Bishop, Utah
Timothy H. Bishop, New York          Brett Guthrie, Kentucky
Joe Sestak, Pennsylvania             Bill Cassidy, Louisiana
David Loebsack, Iowa                 Tom McClintock, California
Mazie Hirono, Hawaii                 Duncan Hunter, California
Jason Altmire, Pennsylvania          David P. Roe, Tennessee
Phil Hare, Illinois                  Glenn Thompson, Pennsylvania
Yvette D. Clarke, New York           [Vacant]
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Kilili Camacho Sablan,
    Northern Mariana Islands
Dina Titus, Nevada
Judy Chu, California

                     Mark Zuckerman, Staff Director
                 Barrett Karr, Minority Staff Director












                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 23, 2010....................................     1

Statement of Members:
    Kline, Hon. John, Senior Republican Member, Committee on 
      Education and Labor........................................     5
        Prepared statement of....................................     6
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, questions for the record................    60
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     1
        Prepared statement of....................................     3
        Additional submissions:
            Letter, dated Oct. 1, 2010, from the Department of 
              the Interior.......................................    57
            Letter, dated June 25, 2010, to the Secretaries of 
              Labor and Interior, from Messrs. Miller and Rahall.    58
            OMB ``Statement of Administration Policy,'' dated 
              July 29, 2010......................................    59
            Questions submitted for the record...................    59
    Payne, Hon. Donald M., a Representative in Congress from the 
      State of New Jersey, prepared statement of.................    56
    Titus, Hon. Dina, a Representative in Congress from the State 
      of Nevada, questions for the record........................    61

Statement of Witnesses:
    Cook, Rear Admiral Kevin, Director of Prevention Policy, U.S. 
      Coast Guard................................................     8
        Prepared statement of....................................    10
        Responses to questions submitted.........................    63
    Howard, Hon. John, M.D., Director, National Institute for 
      Occupational Safety and Health, Centers for Disease Control 
      and Prevention, U.S. Department of Health and Human 
      Services...................................................    20
        Prepared statement of....................................    22
        Responses to questions submitted.........................    69
    Michaels, Hon. David, Ph.D., MPH, Assistant Secretary, 
      Occupational Safety and Health Administration, U.S. 
      Department of Labor........................................    16
        Prepared statement of....................................    17
        Responses to questions submitted.........................    71
    Slitor, Doug, Acting Chief, Office of Offshore Regulatory 
      Programs, Bureau of Ocean Energy Management, Regulation, 
      and Enforcement............................................    11
        Prepared statement of....................................    13
        Responses to questions submitted.........................    76

 
       WORKER HEALTH AND SAFETY FROM THE OIL RIG TO THE SHORELINE

                              ----------                              


                        Wednesday, June 23, 2010

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:00 a.m., in Room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Kildee, Payne, Andrews, 
Woolsey, Hinojosa, Tierney, Holt, Davis, Bishop of New York, 
Loebsack, Hirono, Altmire, Hare, Clarke, Courtney, Shea-Porter, 
Polis, Tonko, Sablan, Titus, Chu, Kline, Petri, Castle, 
Biggert, Guthrie, Cassidy, and Thompson.
    Staff present: Aaron Albright, Press Secretary; Andra 
Belknap, Press Assistant; Jody Calemine, General Counsel; Lynn 
Dondis, Labor Counsel, Subcommittee on Workforce Protections; 
Jose Garza, Deputy General Counsel; David Hartzler, Systems 
Administrator; Gordon Lafer, Senior Labor Policy Advisor; Livia 
Lam, Senior Labor Policy Advisor; Sadie Marshall, Chief Clerk; 
Jerrica Mathis, Legislative Fellow, Ed & Labor; Bryce McKibbon, 
Staff Assistant; Richard Miller, Senior Labor Policy Advisor; 
Revae Moran, Detailee, Labor; Alex Nock, Deputy Staff Director; 
Robert Presutti, Staff Assistant, Labor; Meredith Regine, 
Junior Legislative Associate, Labor; James Schroll, Junior 
Legislative Associate, Labor; Mark Zuckerman, Staff Director; 
Kirk Boyle, General Counsel; Ed Gilroy, Director of Workforce 
Policy; Angela Jones, Executive Assistant; Barrett Karr, Staff 
Director; Brian Newell, Press Secretary; Jim Paretti, Workforce 
Policy Counsel; Molly McLaughlin Salmi, Deputy Director of 
Workforce Policy; Ken Serafin, Professional Staff Member; Linda 
Stevens, Chief Clerk/Assistant to the General Counsel; and 
Loren Sweatt, Professional Staff Member.
    Chairman Miller [presiding]. A quorum being present, the 
committee will come to order to hold a hearing on worker health 
and safety from the--pertaining to the British Petroleum oil 
spill. We are trying to cover the area from the area around the 
rig to the shoreline, for those who are interested in what we 
are doing today.
    Today the Education and Labor Committee meets to examine 
critical issues surrounding the health and safety of workers on 
the oil rig to the shoreline. Sixty-five days ago, during the 
final stages of drilling an exploratory well 52 miles off the 
coast of Louisiana, a blowout and subsequent fire on the 
Deepwater Horizon rig killed 11 workers and injured 15 others.
    This devastating event set in motion the worst 
environmental disaster in our nation's history. Even more 
striking, it seems there is no--currently there is no end in 
sight. We are told that it will take months--even years--to 
fully calculate the human, economic, and environmental damage.
    As cleanup and response activities continue, we must not 
forget the men who lost their lives and were injured in the 
Deepwater. We must take every step available to protect against 
something like this happening again. For the 25,000 workers 
participating in the cleanup work in the Gulf, we must ensure 
that everything possible is done to protect the health and 
safety of the workers cleaning up this mess.
    At the core of the tragedy is a multinational corporation 
with a dismal safety record in this country. This same company 
cuts corners that resulted in 15 deaths at the Texas City 
refinery. This same company ignored warnings about corroded 
pipelines that resulted in 200,000 gallons of crude oil spilled 
on the Alaska North Slope.
    It appears that Deepwater is simply another example of 
British Petroleum prioritizing profits over the health and 
safety of workers. British Petroleum's Deepwater Horizon 
tragedy didn't happen by chance nor was it the result of a 
``perfect storm'' of events. It was predictable and could 
happen again.
    This is why the work of our nation's health and safety 
agencies is so important. They are tasked by Congress to 
protect workers when a company carelessly puts its workers in 
harm's way.
    The 130-member crew operation of the Deepwater Horizon was 
a complex one with a 20 story-high oil derrick at its center 
spanning the size of a city block. The oversight and regulation 
of the Deepwater and similar operations is a--appears to be a 
jurisdictional mishmash between three federal agencies and 
international shipping laws.
    The Occupational Health and Safety Act is our nation's 
premier law governing workplace health and safety. Since the 
agency's creation 40 years ago, workplace injuries and 
fatalities have dropped as workers have had access to on-the-
job protections.
    However, OSHA does not have any authority for enforcing 
safety rules beyond three miles of the coastline. Outside of 
the three miles the United States Coast Guard has the 
authority, by virtue of the law of this country, to issue 
worker safety regulations.
    The Mineral Management Service also gets into this by 
covering the safety for drilling equipment and industrial 
systems. Additionally, the Coast Guard has ceded responsibility 
for enforcing Coast Guard regulations to Mineral Management 
Service on fixed oil platforms. And the Deepwater Horizon is a 
sea-going vessel flagged under the Marshall Islands, not 
subject to rigorous U.S. licensing requirements.
    In light of the current tragedy in the Gulf, I hope we can 
answer whether or not there is a better way to oversee and 
protect the health and safety of oil rig workers. The Deepwater 
disaster clearly demonstrates that the status quo is not good 
enough and that we must do better.
    When something does go wrong it is just as important that 
there is clear guidance and swift and coordinated response. 
There are thousands of square miles of the Gulf of Mexico and 
hundreds of miles of shoreline currently impacted by this 
spill.
    The scale of the cleanup operation is massive and will 
likely continue to involve thousands of workers over a 
considerable period of time. It is vital that everything be 
done to prevent adding to the human toll of this disaster.
    The cleanup activity from the shoreline to the source of 
the spill presents many risks to workers, such as exposure to 
dangerous conditions and substances that have both short-and 
long-term health implications. That is why all agencies must 
coordinate effectively and provide the necessary equipment and 
expertise to protect cleanup--to protect the cleanup workers.
    We will hear testimony today on how cleanup operations are 
proceeding and whether the cleanup workers are being adequately 
protected. Starting today, our nation must assess whether or 
not there are sufficient safety protections on these operations 
to prevent companies from putting profits ahead of safety.
    Our task, beginning today, is to look more deeply into 
whether or not the current regulatory framework for worker 
safety is appropriate and effective. Has the responsibility for 
worker safety been diffused among various agencies with no 
minimum standard for ensuring worker safety protection?
    If agencies other than OSHA regulate safety, should their 
rules be at least as effective as OSHA's where they overlap? 
Does the OCS worker covered by MMS and the Coast Guard 
regulations have adequate whistleblower protections?
    Is there need for independent safety regulators so that an 
agency that is responsible for leasing and revenue collection 
is not responsible for worker safety and environmental 
protection? Is there a better structure to ensure worker safety 
protections from process safety hazards? Are the agencies in 
charge of the spill response sufficiently coordinating their 
efforts?
    Our witnesses today will provide valuable insights into 
these questions. I thank the witnesses for joining us and look 
forward to their testimony.
    And with that, I would like now to recognize Congressman 
Kline, the Senior Republican of the Committee.
    [The statement of Mr. Miller follows:]

          Prepared Statement of Hon. George Miller, Chairman,
                    Committee on Education and Labor

    Good morning.
    Today, the Education and Labor Committee meets to examine critical 
issues surrounding the health and safety of workers on the oil rig to 
the shoreline.
    Sixty-five days ago, during the final stages of drilling an 
exploratory well 52 miles off the coast of Louisiana, a blowout and 
subsequent fire on the Deepwater Horizon killed eleven workers and 
injured fifteen others.
    This devastating event set into motion the worst environmental 
disaster in our nation's history. Even more striking, there seems to be 
no end in sight.
    We're told it will take months or even years to fully calculate the 
human, economic and environmental damage.
    As clean-up and response activities continue, we must not forget 
the men who lost their lives and were injured at Deepwater. We must 
take every step available to protect against something like this 
happening again.
    For the 25,000 workers participating in clean-up work in the Gulf, 
we must ensure that everything possible is done to protect the health 
and safety of the workers cleaning up BP's mess.
    At the core of this tragedy is a multinational corporation with a 
dismal safety record in this country.
    This same company cut corners that resulted in 15 deaths at its 
Texas City refinery.
    This same company ignored warnings about corroded pipes that 
resulted in 200,000 gallons of crude spilled in Alaska's North Slope.
    BP's Deepwater Horizon tragedy didn't happen by chance, nor was it 
the result of a ``perfect storm'' of events. It was predictable and 
could happen again.
    This is why the work of our nation's health and safety agencies is 
so important. They are tasked by Congress to protect workers when a 
company carelessly puts its employees in harm's way.
    The 130 crew operation of the Deepwater Horizon was a complex one, 
with a twenty story-high oil derrick at her center, spanning the size 
of a city block.
    The oversight and regulation of Deepwater and similar operations is 
a jurisdictional mishmash between three federal agencies and 
international shipping laws.
    The Occupational Safety and Health Act is our nation's premiere law 
governing workplace health and safety. Since the agency's creation 40 
year ago, workplace injuries and fatalities have dropped as workers' 
have had access to on-the-job protections.
    However, OSHA does not have any authority for enforcing safety 
rules beyond three miles of the coastline. Outside of three miles, the 
United States Coast Guard has the authority to issue worker safety 
regulations.
    The Minerals Management Service also gets into the game by covering 
safety for drilling equipment and industrial systems. Additionally, the 
Coast Guard has ceded responsibility for enforcing Coast Guard 
regulations to MMS for fixed oil platforms.
    And, the Deepwater Horizon is a sea-going vessel flagged under the 
Marshall Islands and not subject to more rigorous U.S. licensing 
requirements.
    In light of the current tragedy in Gulf, I hope we can answer 
whether there is a better way to oversee and protect the health and 
safety of oil rig workers. The Deepwater disaster clearly demonstrates 
that the status quo is not good enough.
    We must do better.
    When something does go wrong, it is just as important that there is 
clear guidance and a swift and coordinated response.
    There are thousands of square miles of Gulf of Mexico and hundreds 
of miles of shoreline currently impacted by the spill.
    The scale of the cleanup operation is massive and will likely 
continue to involve thousands of workers over several years. It is 
vital that everything is done to prevent adding to the human toll of 
this disaster.
    The cleanup activity from the shoreline to the source of the spill 
presents many risks to workers--such as exposure to dangerous 
conditions and substances that have both short and long-term health 
implications.
    That is why all agencies must coordinate effectively and provide 
the necessary equipment and expertise to protect cleanup workers.
    We will hear testimony today on how cleanup operations are 
proceeding and whether cleanup workers are being adequately protected.
    Starting today, our nation must assess whether there are sufficient 
safety protections on these operations that prevent companies from 
putting profits ahead of safety.
    Our task beginning today is to look more deeply into whether the 
current regulatory framework for worker safety is appropriate and 
effective.
    Has responsibility for worker safety been diffused amongst various 
agencies, with no minimum standard for ensuring worker safety 
protection? If agencies other than OSHA regulate worker safety, should 
their rules be at least as effective as OSHA's where they overlap?
    Do OCS workers covered by MMS and Coast Guard regulations have 
adequate whistleblower protections? Is there a need for independent 
safety regulators, so that an agency that is responsible for leasing 
and revenue collection is not also responsible for worker safety and 
environmental protection?
    Is there a better structure to ensure worker safety protections 
from process safety hazards? Are the agencies in charge of the spill 
response sufficiently coordinating their efforts? Our witnesses today 
will provide valuable insight into these questions. I thank our 
witnesses for joining us today and the committee looks forward to their 
testimony.
                                 ______
                                 
    Mr. Kline. Thank you, Mr. Chairman.
    And welcome, to our witnesses. I want to thank all of our 
witnesses for your service to our country, and particularly to 
the men and women--the people--of the Gulf Coast during this 
horrific time.
    It has been 2 months since an explosion onboard the 
Deepwater Horizon oil rig claimed the lives of 11 workers and 
injured 17 more. Sadly, this catastrophic event 50 miles from 
the shoreline continues to devastate the businesses, 
communities, and families residing along the Gulf Coast. Our 
thoughts are with the victims' families and the people of the 
Gulf Coast as they fight to preserve their way of life.
    BP bears total responsibility, including full financial 
liability of this tragedy, and they must be held accountable 
for the loss of life, the damage inflicted on the local 
economy, and the devastation of the area's vast natural 
resources. I am pleased that an escrow fund managed by an 
independent third party has been created to mitigate the 
terrible ongoing impact being felt by the Gulf states and an 
untold number of American citizens.
    While not squarely within this committee's jurisdiction, 
every member of Congress has an obligation to ensure BP 
provides every individual who has a legitimate claim with the 
just and timely compensation they and their families deserve. 
This committee does, however, have oversight responsibilities 
concerning workplace safety.
    Today we are here to discuss the safety of oil rig workers 
as well as the workers sent to the scene to clean up this 
environmental disaster. As of June 14th there was estimated 
between 40 million and 115 million gallons of oil have spilled 
into the Gulf of Mexico.
    And unlike some other oil in the Gulf, the oil that 
continues gushing 5,000 feet below sea level is heavy, crude, 
and easily emulsified, giving the cleanup crews a monumental 
task. As Ed Overton, an environmental scientist with the the 
Louisiana State University, has stated, ``If I had to pick a 
bad oil I would put this right up there.''
    As we learned from recent events, including the aftermath 
of Hurricane Katrina, too often the hazards to worker safety 
are not fully understood at the time of the crisis. We must 
take every precaution and nothing for granted in the BP oil 
spill, recognizing that in an unprecedented disaster such as 
this one we are learning as we go.
    Response workers must have every resource necessary to move 
quickly and in a manner that does not compromise the workers' 
own health and safety. Numerous federal agencies, each 
operating with their own mission and array of officials' rules 
and regulations have descended on the Gulf to assist in the 
cleanup and investigate the cause of this disaster.
    Yet, we know from experience that poorly organized federal 
bureaucracies can be clumsy, delay response time, and even 
impede efforts underway at the state and local levels. There 
are a number of federal agencies sharing regulatory 
responsibility, involving the both safety of crews working on 
the rigs and the teams cleaning up the beaches.
    State officials and individual citizens have expressed 
frustration as they attempt to navigate the federal response 
process. It is my hope today's hearing will help sort this all 
out and provide a clear picture of how industry, states, and 
the federal government are ensuring workplace safety on oil 
rigs and in the event of an oil spill.
    We will also look for answers to a number of important 
questions, such as whether federal regulators are properly 
balancing worker safety and the need for a fast response effort 
and whether or not BP is doing everything in its power to 
ensure the safety of workers struggling around the clock to 
rescue the Gulf Coast from this unimaginable disaster.
    Mr. Chairman, as a nation we mourn the loss of life and 
livelihood in the Gulf region. Now is the time to ask tough 
questions so we can move forward in a manner that protects all 
workers and restores to the people of the Gulf Coast their 
cherished way of life.
    Thank you, Mr. Chairman, for holding this hearing. And I 
yield back.
    [The statement of Mr. Kline follows:]

    Prepared Statement of Hon. John Kline, Senior Republican Member,
                    Committee on Education and Labor

    Thank you Mr. Chairman. Welcome to our witnesses and thank you all 
for your service to the country and the people of the Gulf Coast during 
this difficult time.
    It has been two months since an explosion onboard the Deepwater 
Horizon oil rig claimed the lives of 11 workers and injured 17 more. 
Sadly, this catastrophic event 50 miles from the shoreline continues to 
devastate the businesses, communities, and families residing along the 
Gulf Coast. Our thoughts are with the victims' families and the people 
of the Gulf Coast as they fight to preserve their way of life.
    BP bears total responsibility, including full financial liability, 
for this tragedy and they must be held accountable for the loss of 
life, the damage inflicted on the local economy, and the devastation of 
the area's vast natural resources. I am pleased an escrow fund, managed 
by an independent third party, has been created to mitigate the 
terrible and growing impact being felt by the Gulf states and an untold 
number of American citizens.
    While not squarely within this committee's jurisdiction, every 
member of Congress has an obligation to ensure BP provides every 
individual who has a legitimate claim with the just and timely 
compensation they and their families deserve.
    This committee does, however, have oversight responsibilities 
concerning workplace safety. Today, we are here to discuss the safety 
of oil rig workers, as well as the workers sent to the scene to clean 
up this environmental disaster. As of June 14, it was estimated between 
40 million and 115 million gallons of oil have spilled into the Gulf of 
Mexico. And unlike some other oil in the Gulf, the oil that continues 
gushing 5,000 feet below sea level is a heavy crude and easily 
emulsified, giving the cleanup crews a monumental task. As Ed Overton, 
an environmental scientist with Louisiana State University has stated, 
``If I had to pick a bad oil, I'd put this right up there.''
    As we learned from recent events, including the aftermath of 
Hurricane Katrina, too often the hazards to workers' safety are not 
fully understood at the time of the crisis. We must take every 
precaution and nothing for granted in the BP oil spill, recognizing 
that in an unprecedented disaster such as this one, we are learning as 
we go. Response workers must have every resource necessary to move 
quickly and in a manner that does not compromise the workers' own 
health and safety.
    Numerous federal agencies, each operating with their own mission 
and array of officials, rules, and regulations, have descended on the 
Gulf to assist in the cleanup and investigate the causes of this 
disaster. Yet we know from experience that poorly organized federal 
bureaucracies can be clumsy, delay response time, and even impede 
efforts underway at the state and local levels. There are a number of 
federal agencies sharing regulatory responsibility, involving both the 
safety of crews working on the rigs and the teams cleaning up the 
beaches. State officials and individual citizens have expressed 
frustration as they attempt to navigate the federal response process.
    It is my hope today's hearing will help sort this all out and 
provide a clearer picture of how industry, states, and the federal 
government are ensuring workplace safety on oil rigs and in the event 
of an oil spill. We will also look for answers to a number of important 
questions, such as whether federal regulators are properly balancing 
worker safety and the need for a fast response effort, and whether or 
not BP is doing everything in its power to ensure the safety of workers 
struggling around the clock to rescue the Gulf Coast from this 
unimaginable disaster.
    Mr. Chairman, as a nation we mourn the loss of life and livelihood 
in the Gulf region. Now is the time to ask tough questions so we can 
move forward in a manner that protects all workers and restores to the 
people of the Gulf Coast their cherished way of life.
    Thank you for holding this hearing, Mr. Chairman, and again, thank 
you to the witnesses for being with us this morning.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    Pursuant to committee rule 7(c) all members may submit an 
opening statement in writing which will be made part of the 
permanent record of this hearing. And I would like now to 
introduce our panel of witnesses.
    First will be Rear Admiral Kevin Cook, who is the director 
of prevention policy for Marine safety, security, and 
stewardship for the U.S. Coast Guard. In his current role Rear 
Admiral Cook develops and maintains policy standards and 
program alignment for the prevention activities of the Coast 
Guard, including navigation safety, Marine casualty 
investigation, and vessel inspection. At the time of his 
selection he was serving as chief of staff to the 13th Coast 
Guard district in Seattle, Washington.
    Next will be Mr. Doug Slitor, who is currently acting chief 
of Office of the Offshore Regulatory Programs for the Bureau of 
Ocean Energy Management, Regulation, and Enforcement, formerly 
Mineral Management Services. Mr. Slitor has been with the 
Department of the Interior since 1981. He has served as chief 
of the OCS information program, worked in the inspection and 
enforcement program, and has also served as the national civil 
penalties coordinator branch chief of safety and enforcement.
    Dr. David Michaels is the assistant secretary of labor for 
occupational safety and health in the Occupational Safety and 
Health Administration. Prior to joining OSHA, Dr. Michaels was 
a professor of environmental and occupational health at George 
Washington University School of Public Health and Health 
Services, where he directed the department's project on 
scientific knowledge and public policy. From 1998 to 2001 Dr. 
Michaels served as assistant secretary for energy--of energy 
for Environment Safety and Health.
    Dr. John Howard is the director of the National Institute 
of Occupational Safety and Health, which is part of the Centers 
for Disease Control and Prevention. He served in this capacity 
from July 2002 to July 2008 and was reappointed in September 
2009.
    Dr. Howard is board-certified in internal medicine, legal 
medicine, and occupational medicine. He has also been admitted 
to the practice of medicine and the law in the state of 
California and the District of Columbia and he is a member of 
the U.S. Supreme Court Bar.
    Before we begin, some of you are familiar with the 
congressional system, but when you begin your testimony, which 
will go 5 minutes, a green light will go on. When there is a 
minute remaining an orange light will go on; we would ask you 
to start thinking about summarizing your testimony. And then a 
red light, at which your time has run out, but we want you to 
make sure that you finish in what you believe is a coherent 
fashion for you in getting your thoughts across.
    Rear Admiral Cook, we will begin with you. Welcome to the 
committee.

  STATEMENT OF REAR ADMIRAL KEVIN COOK, DIRECTOR, PREVENTION 
POLICY FOR MARINE SAFETY, SECURITY, AND STEWARDSHIP, U.S. COAST 
                             GUARD

    RADM Cook. Good morning, Mr. Chairman, and distinguished 
members of the committee. I appreciate the opportunity to 
appear before you to discuss the issues related to mariner 
safety in the oil industry. In my role as the Coast Guard 
director of prevention policy I oversee vessel, offshore 
facility, and mobile offshore drilling unit compliance with 
applicable U.S. and international laws, regulations, and 
treaties.
    I prepared a written statement to support today's testimony 
and would ask to have the included in the record, Mr. Chairman.
    Chairman Miller. Without objection.
    RADM Cook. On the evening of April 20th the mobile offshore 
drilling unit, Deepwater Horizon, reported an explosion. The 
Coast Guard's response began as a search and rescue mission.
    Within a few hours 115 of the 126 crew members were safely 
rescued. Search and rescue continued over the next 3 days, but 
sadly, the remaining 11 crew members were never found.
    Before continuing, I want to express my heartfelt 
condolences to the families and friends of the 11 men who so 
tragically lost their lives.
    The safety of mariners operating in the U.S. waters, 
including the outer continental shelf, or OCS, is paramount 
importance to the Coast Guard. To help ensure mariner safety 
the Coast Guard coordinates with various federal agencies, 
including the Minerals Management Service and the Occupational 
Health and Safety Administration. With mariner safety as a 
primary driver directly after the Deepwater Horizon incident 
the Coast Guard, in partnership with MMS, issued a safety alert 
requiring operators on the OCS to carry out an immediate and 
extensive review of critical safety equipment and emergency 
procedures.
    There are four types of units which operate on the outer 
continental shelf. They can be either U.S. or foreign flagged. 
These units are fixed and floating facilities, mobile offshore 
drilling units--also known as MODUs and rigs--and support 
vessels. Regardless of the flag of registry for the type of 
offshore unit, the Coast Guard assumes an appropriate 
enforcement role.
    In 2004 a memorandum of understanding between the Coast 
Guard and MMS delegated responsibility to MMS for ensuring 
worker safety on fixed outer continental shelf facilities. In 
accordance with Title 33 of the Code of Federal Regulations in 
Subchapter N, prior to turning over the annual examination of 
these facilities to MMS the Coast Guard carries out an initial 
inspection to ensure the facility is in compliance with 
applicable safety regulations.
    Additionally, in accordance with Title 30 of the Code of 
Federal Regulations, the two agencies work closely together to 
review the current regulations and propose revisions as 
necessary to maintain appropriate levels of safety and keep 
pace with evolving offshore technology.
    The Coast Guard carries out safety inspections on U.S.-
flagged floating facilities, MODUs, and vessels operating on 
the outer continental shelf in order to verify safety and issue 
the necessary flag state statutory certificates.
    For foreign flag MODUs, the flag state or a recognized 
organization working on behalf of the flag state carries out 
the inspections required to issue those statutory certificates. 
The Coast Guard then conducts port state control examinations 
on these MODUs in order to verify that they meet equivalent 
domestic and international safety requirements prior to them 
being permitted to commence drilling operations in U.S. waters.
    The U.S. Coast Guard's port state control program exceeds 
current international guidelines, and every annual port state 
control examination we perform on foreign units incorporates 
verification of worker safety requirements. In accordance with 
domestic and international law, all vessels--including self-
propelled MODUs over 500 gross tons, the category which the 
Deepwater Horizon fits into--are required to have the safety 
management system fully implemented. This management system 
provides for safe practices and ship operation and a safe 
working environment for crew members. The Coast Guard verifies 
satisfactory implementation of this safety management system 
upon each examination.
    The outer continental shelf Lands Act grants the Coast 
Guard certain workplace safety authority on the OCS. 
Regulations have been promulgated on many occupational safety 
issues within the realm of the Coast Guard's maritime safety 
expertise--for example, lifesaving, firefighting, and personal 
protective equipment. The Coast Guard standards for workplace 
safety on the outer continental shelf are found in Title 33, 
Code of Federal Regulations, Subchapter N.
    Under a 1979 memorandum of understanding between the Coast 
Guard and OSHA, the agencies set forth procedures intended to 
avoid duplication while still retaining each agency's 
respective responsibilities. The memorandum of understanding 
emphasizes the Coast Guard's role as the principal federal 
agency in matters of safety and occupational health on the OCS.
    In closing, let me emphasize that the Coast Guard places 
the highest priority on the safety and health of all mariners 
operating on the U.S. outer continental shelf. The Coast Guard 
and MMS are conducting a joint investigation of the Deepwater 
Horizon incident. The lessons learned from this investigation 
will be incorporated into revised guidelines to further enhance 
worker safety.
    The Coast Guard looks forward to continuing cooperation 
with MMS and OSHA to maximize safety and health protection of 
mariners working in the offshore oil industry and to avoid 
duplication of effort.
    Thank you again for the opportunity to testify today. I 
will be pleased to answer any questions that you have.
    [The statement of Admiral Cook follows:]

 Prepared Statement of RADM Kevin Cook, Director of Prevention Policy, 
                            U.S. Coast Guard

    Good morning Mr. Chairman and distinguished members of the 
Committee. I appreciate the opportunity to appear before you to discuss 
issues related to the health and safety of all individuals working on 
the outer continental shelf. In my role as Coast Guard Director of 
Prevention Policy, one of my primary responsibilities is to oversee the 
compliance of vessel, offshore facility, and mobile offshore drilling 
units with all applicable U.S. and international laws, regulations, and 
policies.
    On the evening of April 20, 2010, the Transocean-owned, BP-
chartered, Marshall Islands-flagged Mobile Offshore Drilling Unit 
DEEPWATER HORIZON, located approximately 72 miles Southeast of Venice, 
Louisiana, reported an explosion and fire onboard. This began as a 
Search and Rescue mission--within the first few hours, 115 of the 126 
crewmembers were safely recovered; Search and Rescue activities 
continued through April 23, but the remaining 11 crewmembers were never 
found.
    Concurrent with the Search and Rescue mission, efforts to 
extinguish the fire and mitigate the impacts of the approximately 
700,000 gallons of diesel fuel onboard began almost immediately. After 
two days of these efforts, on April 22, the Mobile Offshore Drilling 
Unit sank into approximately 5,000 feet of water. On April 23, remotely 
operated vehicles located the Mobile Offshore Drilling Unit on the 
seafloor, and on April 24, BP found the first two leaks in the riser 
pipe and alerted the federal government. Within 24 hours of leaks being 
detected, the Coast Guard's Federal on Scene Coordinator (FOSC) 
accessed the Oil Spill Liability Trust Fund (OSLTF) to ensure funds 
were available to speed the federal response to the threat of an oil 
spill. Remotely operated vehicles continue to monitor the flow of oil.
    The Federal on-scene Coordinator established the Unified Area 
Command on April 23 in Robert, LA. The Unified Area Command utilized 
the Incident Command System as a proven organizational structure for 
incident management in accordance with the National Response Framework 
and the National Oil and Hazardous Substances Pollution Contingency 
Plan. The function of Incident Command System is to provide a common 
method for developing and implementing tactical plans to efficiently 
and effectively manage a multi-agency response to an emergency, such as 
an oil spill. The Incident Command System organization for this 
response includes Incident Command Posts and Unified Commands at the 
local level, and a Unified Area Command at the regional level. It is 
comprised of representatives from the Coast Guard (the FOSC), other 
federal, state and local agencies, as well as BP as a responsible 
party.
    From the very beginning of this crisis, the federal government has 
been in charge of the largest environmental cleanup effort in our 
nation's history--an effort led by Admiral Thad Allen, who has almost 
forty years of experience responding to disasters. Thousands of ships 
and other vessels have been deployed to the Gulf. There are now nearly 
33,000 personnel who are working across four states to contain and 
clean up the oil. These personnel are assisting in efforts to prevent 
more oil from coming ashore, clean beaches, train response workers, and 
help process claims.
    As a result of our efforts, millions of gallons of oil have already 
been removed from the water through burning, skimming, and other 
removal methods. Over five-and-a-half million feet of boom has been 
laid to block and absorb the approaching oil. We have approved the 
construction of new barrier islands in Louisiana in an effort to stop 
the oil before it reaches the shore, and we are working with Alabama, 
Mississippi, and Florida to implement creative approaches to protect 
their unique coastlines.
Inspection of oil platforms
    The Minerals Management Service (MMS) is responsible for inspecting 
oil platforms on behalf of the Coast Guard, using Coast Guard 
regulations. Because Mobile Offshore Drilling Units are considered 
vessels, however, they also fall under the purview of the Coast Guard's 
inspection regime. Each Mobile Offshore Drilling Unit documented under 
the laws of a foreign nation must obtain a Letter of Compliance (now 
called a Certificate of Compliance) from the Coast Guard prior to 
engaging in outer continental shelf activities. When a foreign flagged 
Mobile Offshore Drilling Unit, such as DEEPWATER HORIZON, enters U.S. 
waters, the owner must contact the Coast Guard and request a 
Certificate of Compliance inspection. A Certificate of Compliance is 
valid for a two-year period in accordance with 33 CFR 143.210.
    In order to issue a Certificate of Compliance, one of three 
conditions must be met:
    <bullet> The Mobile Offshore Drilling Unit is constructed to meet 
design and equipment standards of the I.S. Coast Guard's regulations 
at46 CFR part 108;
    <bullet> The Mobile Offshore Drilling Unit is constructed to meet 
the design and equipment standards of the documenting nation (flag 
state) if the standards provide a level of safety generally equivalent 
to or greater than that provided under 46 CFR part 108; or
    <bullet> The Mobile Offshore Drilling Unit is constructed to meet 
the design and equipment standards for Mobile Offshore Drilling Units 
contained in the International Maritime Organization Code for the 
construction and equipment of Mobile Offshore Drilling Units.
Certificate of compliance/certificate of inspection
    The Coast Guard is responsible for carrying out the inspections, 
tests and surveys required to issue the necessary statutory 
certificates on U.S. Mobile Offshore Drilling Units. For foreign 
vessels, the flag state--or authorized recognized organization (RO) 
working on behalf of the flag state--carries out the inspections, tests 
and surveys required to issue the statutory certificates. The Coast 
Guard performs port state-level examinations on foreign vessels to 
verify that the flag state has met its responsibilities and that the 
Mobile Offshore Drilling Unit meets the appropriate international and 
domestic requirements.
Responsibilities for worker safety
    The Outer Continental Shelf Lands Act, 43 USC 1331 et seq., enacted 
in 1953 and amended in 1978, grants the Coast Guard certain workplace 
safety authority on the outer continental shelf. The Act requires the 
Coast Guard to promulgate regulations or standards applying to 
``unregulated hazardous working conditions related to activities on 
outer continental shelf upon a determination that such regulations or 
standards are necessary'' (43 USC 1347 (c)), and preserves the 
authority of other agencies with respect to outer continental shelf on 
matters related to their respective areas of expertise (43 USC 
1347(d)).
    The Coast Guard has promulgated regulations on many occupational 
safety issues on the outer continental shelf within the realm of its 
maritime safety expertise (e.g. personal protective equipment, 
lifesaving and firefighting). The Coast Guard standards for workplace 
safety on the outer continental shelf may be found in 33 CFR Parts 140-
147.
    Under a Memorandum of Understanding between the Coast Guard and 
OSHA dated Dec. 19, 1979, the agencies set forth procedures intended to 
avoid duplication regarding the issuance of citations for violations, 
while still retaining each agency's respective responsibilities. The 
Memorandum of Understanding emphasizes the Coast Guard's role as the 
``principal Federal agency in matters of occupational safety and health 
on the outer continental shelf,'' and is directed toward 
``minimize[ing] the need for OSHA's routine inspection authority.''
    MMS has also promulgated certain safety and health regulations, 
primarily pertaining to fire and explosion hazards, 30 CFR 250.106 et 
seq.
Conclusion
    In closing, I would like to reiterate that the Coast Guard's role 
as the principal Federal agency in matters of occupational safety and 
health on the outer continental shelf and it's commitment to the safety 
and health of all individuals working on the outer continental shelf. 
The Coast Guard will continue to cooperate with OSHA and MMS to 
maximize the safety and health protection of mariners and streamline 
our efforts.
    Thank you again for the opportunity to testify today. I am happy to 
answer any questions you may have.
                                 ______
                                 
    Chairman Miller. Thank you.
    Mr. Slitor?
    I don't think your----

  STATEMENT OF DOUG SLITOR, ACTING CHIEF, OFFICE OF OFFSHORE 
 REGULATORY PROGRAMS, OFFSHORE ENERGY AND MINERALS MANAGEMENT, 
BUREAU OF OCEAN ENERGY MANAGEMENT, REGULATION, AND ENFORCEMENT 
 (FORMERLY MINERALS MANAGEMENT SERICE), U.S. DEPARTMENT OF THE 
                            INTERIOR

    Mr. Slitor. Okay.
    Thank you, Chairman Miller, Ranking Member Kline, and 
members of the committee, for the opportunity to be here today 
to discuss the Bureau of Ocean Energy Management Regulation and 
Enforcement's regulatory program on the health and safety of 
workers on oil and gas facilities on the outer continental 
shelf. I will refer to our agency as BOE through the balance of 
my testimony.
    The BOE holds paramount the safety of all operations under 
its jurisdiction on the OCS. With over 35,000 people directly 
or indirectly involved in the exploration, development, and 
production of vital energy resources for our nation, every 
action taken by BOE is designed to ensure that risks to 
personnel are eliminated or mitigated to the greatest extent 
possible.
    Following the tragic and unprecedented explosion of the 
Deepwater Horizon drilling rig, Secretary Salazar ordered 
immediate inspections of all deepwater oil and gas drilling 
operations in the Gulf of Mexico, and the department, along 
with the U.S. Coast Guard, issued a safety notice to all rig 
operators reminding them of their responsibilities to follow 
our regulations and to conduct full and thorough tests of their 
equipment.
    As directed by the OCS Lands Act, the Bureau of Ocean 
Energy Management shares jurisdictional authority on offshore 
oil and gas activities with the U.S. Coast Guard. While BOE has 
regulatory requirements that speak to worker health and safety 
in a very general sense, Coast Guard's mandate is more specific 
to offshore personnel safety.
    BOE's primary function is to ensure the operator complies 
with all regulations addressing drilling, production, and 
workover equipment, and process safety management. By 
regulating these activities BOE requirements create a safer 
work area for offshore workers.
    As mentioned, BOE does have general health and safety 
regulations that require the operator to conduct operations in 
a safe and workman-like manner and to provide for the safety of 
all personnel by taking all necessary precautions to correct 
and remove any hazardous oil and gas accumulation or other 
health, safety, or fire hazards. BOE also has requirements for 
the training of personnel regarding their competency level in 
conducting their jobs.
    OCSLA directed the U.S. Coast Guard to oversee personnel 
safety. Coast Guard's requirements address personal protection 
equipment--safety belts and harnesses, personal flotation 
devices, respiratory protection, eyewash equipment, deck 
openings, means of escape, guards, rails, and fences, life-
preservers, first aid kits, fire extinguishers, and emergency 
drills.
    Through a regulatory change in 2002 the Coast Guard 
authorized BOE to conduct safety inspections on their behalf. 
This was done in an effort to optimize the use of government 
resources and improve safety compliance through the application 
of the more frequent BOE inspection regime. Since 2003 the BOE 
has conducted almost 4,000 partial and complete fixed platform 
inspections annually on behalf of the Coast Guard.
    As both BOE and the Coast Guard have been given distinct 
regulatory authorities over OCS activities, these two agencies 
have had to work together closely where these jurisdictions 
intersect. In 2004 a memorandum of understanding was signed by 
both agencies for the purpose of addressing individual areas of 
mutual jurisdiction through a series of topic-specific 
memoranda of agreements.
    The overarching MOU provides the basis by which the two 
agencies clearly articulate lines of authority and address how 
we can work together most efficiently. The MOAs are more 
technical in nature, providing detailed guidance on topics such 
as civil penalties, incident investigations, and floating 
offshore facilities.
    The OCSLA also requires BOE and the Coast Guard to 
investigate and prepare a public report of each incident that 
includes fatalities, major fires, spills over 200 barrels, or 
serious injuries. On March 27th, 2009, BOE and the Coast Guard 
signed a MOA identifying the responsibilities of each 
organization. The MOA delineates these responsibilities by the 
type of facility and the type of system involved in the 
incident, which agency has investigative jurisdiction, and how 
the agencies should coordinate and conduct joint investigations 
when appropriate.
    If operators fail to comply with BOE regulations they are 
subject to incidence of noncompliance with enforcement actions 
ranging from a warning to the shut-in of an entire production 
facility. In cases where a violation has created high potential 
for or resulted in injury to personnel, the violation is 
referred for civil penalty review.
    If BOE determines that a violation contains an element of 
knowing and willful intent then BOE may refer the violation to 
the inspector general for their consideration as a criminal 
penalty. For those operators displaying chronic poor 
performance, BOE has regulations that allow for an operator to 
be placed on probation or disqualify them from operating on the 
OCS or acquiring any new leases or reassignments of existing 
leases.
    Mr. Chairman, this concludes my prepared statement. I would 
be happy to respond to questions you or members of the 
committee have.
    [The statement of Mr. Doug Slitor follows:]

  Prepared Statement of Doug Slitor, Acting Chief, Office of Offshore 
Regulatory Programs, Bureau of Ocean Energy Management, Regulation, and 
                              Enforcement

    Thank you, Chairman Miller, Ranking Member Kline, and Members of 
the Committee for the opportunity to be here today. I appreciate the 
opportunity to discuss the Bureau of Ocean Energy Management, 
Regulation and Enforcement's (BOE) regulatory program on health and 
safety issues of workers on oil and gas drilling rigs and production 
platforms on the Outer Continental Shelf (OCS).
    The tragedy and massive spill in the Gulf illustrates the need to 
improve safety on the OCS. To ensure the independence of the OCS 
inspections and enforcement mission, the Secretary announced the 
reorganization of the MMS, which will establish the Bureau of Ocean 
Energy Management and the Bureau of Safety and Environmental 
Enforcement under the supervision of the Assistant Secretary for Land 
and Minerals Management; and the Office of Natural Resources Revenue 
under the supervision of the Assistant Secretary for Policy, Management 
and Budget. On June 18th, 2010, Secretary Salazar issued Secretarial 
Order number 3302, and renamed the Minerals Management Service the 
Bureau of Ocean Energy Management, Regulation and Enforcement (``Bureau 
of Ocean Energy'' or ``BOE'') as it undergoes this reorganization and 
reform.
    Following the tragic and unprecedented explosion of the Deepwater 
Horizon drilling rig, Secretary Salazar ordered immediate inspections 
of all deepwater oil and gas drilling operations in the Gulf of Mexico, 
and directed the MMS to stop issuing all permits to drill new offshore 
oil and gas wells. The Department along with the U.S. Coast Guard also 
issued a joint safety alert to all rig operators reminding them of 
their responsibilities to follow our regulations and to conduct full 
and thorough tests of their equipment.
    At the President's direction, on May 27th, the Secretary presented 
to the President his recommendations for measures to improve offshore 
drilling safety as part of a 30-day safety review. The purpose of that 
Safety Report was to evaluate oil and gas safety measures that could be 
put in place on an interim basis before the on-going investigations of 
the Deepwater Horizon accident and subsequent BP oil spill disaster 
have been completed. The report recommended a number of specific 
measures that can be taken on both a short and longer term basis to 
improve the safety of offshore oil and gas activities, including 
enhanced operating standards and requirements for offshore drilling 
activities. Key recommendations include: certification of all blowout 
preventers for new floating drilling operations; stronger well control 
practices, blowout prevention and intervention capabilities; more 
comprehensive inspections for drilling operations; and expanded safety 
and training programs for rig workers.
    The President ordered the Department to immediately implement a 
number of actions. Accordingly, the Secretary issued a 6-month 
moratorium on deepwater drilling (for this purpose, defined as water 
depths greater than 500 feet) and a suspension of the issuance of 
permits to drill new deepwater wells. The Department immediately took 
those actions, and laid the groundwork for additional measures in the 
future. On June 8, the Department issued a ``Notice to Lessees'' that 
provides an initial set of new safety requirements that all offshore 
operators must meet.
    The Department holds paramount the safety of all operations under 
its jurisdiction in the OCS. With over 35,000 people directly or 
indirectly involved in the exploration, development, and production of 
important energy resources for our Nation, BOE strives to ensure that 
risks to personnel are eliminated or mitigated to the greatest extent 
possible. This is accomplished through life cycle oversight that is 
driven by primarily prescriptive regulations.
    The BOE derives its authority from the OCS Lands Act that 
established Federal jurisdiction over submerged lands. Through the 
Secretary of the Interior, MMS (now the BOE) was designated as the 
administrative agency responsible for mineral leasing of submerged OCS 
lands and for supervision of offshore operations after lease issuance. 
The OCS Lands Act states that the Secretary ``* * * shall require on 
all new drilling and production operations, and, wherever practicable, 
on existing operations, the use of the best and safest technologies 
which the Secretary determines to be economically feasible * * *''
    Regulations governing offshore operations under BOE jurisdiction 
are unambiguous when it comes to offshore safety. These regulations 
also require the use of Best and Safest Technology (BAST) and that 
operators conduct their business in such a way as to ``prevent injury 
or loss of life''. If operators fail to comply with BOE regulations, 
they are subject to Incidents of Non-Compliance (INCs), with 
enforcement actions ranging from a warning to the shut in of an entire 
production facility. In cases where a violation has created high 
potential for or resulted in injury to personnel, the responsible party 
is referred for civil and criminal penalty review. In the last five-
year period, MMS issued 12,087 INCs for violations of MMS regulations. 
In the same time period MMS pursued and closed 154 civil penalty cases 
that resulted in fines of $8.5 million. For chronic poor performance, 
MMS regulations allow for BOE to place an operator on probation or 
disqualify them from operating on the OCS or acquiring new leases.
    The OCS Lands Act delegated certain responsibilities for safety on 
offshore facilities to the U.S. Coast Guard (USCG). The USCG is 
responsible for the inspection of personal protective equipment, such 
as safety belts and harnesses; life vests; respiratory protection; 
personal flotation devices; deck openings; slipping and tripping 
hazards; lights and fog horns; guards, rails, and fences; 
communications equipment; fire extinguishers; emergency drills; means 
of escape; and lifeboats and escape capsules. Through a regulatory 
change in 2002, the authority to conduct safety inspections on behalf 
of the USCG was delegated to MMS. This was done in an effort to 
optimize the use of government resources and improve safety compliance. 
Since 2003, the MMS conducted almost 4,000 fixed-platform inspections 
on behalf of the USCG.
    As both MMS and the USCG have been given authority through the OCS 
Lands Act to ensure worker safety, these two agencies have necessarily 
had to work together closely where these jurisdictions overlap. In 
2004, a Memorandum of Understanding (MOU) was signed by both agencies 
for the purpose of addressing individual areas of mutual jurisdiction 
through a series of topic-specific Memoranda of Agreements (MOAs). The 
MOU provides the basis by which the two agencies clearly articulate 
lines of authority and address how we can work together most 
efficiently. The MOAs are more technical in nature, providing detailed 
guidance on topics such as civil penalties, incident investigations, 
and floating offshore facilities. The MOAs provide guidance to 
regulators for consistent oversight and enforcement action, and provide 
offshore operators and contractors with clear direction about what is 
expected of them as lease holders or operators.
    The regulations and inspections are designed to eliminate or 
minimize accidents, but as the Deepwater Horizon incident vividly 
illustrates, accidents do still occur. When they do, a series of 
reporting activities are triggered. Reporting requirements for BOE were 
updated with the publication of a new regulation in 2006. Fatalities, 
injuries that require the evacuation of the injured person, losses of 
well control, fires and explosions, and other similar significant 
events must be reported immediately via oral communication to the BOE 
District Manager. Beyond whatever immediate action may be necessary to 
respond to a significant event, a written follow-up report is required 
within 15 calendar days. Oral presentation of information for events 
required to be reported is limited to information that can be 
transferred quickly due to a potentially ongoing emergency. This 
information includes the date and time of occurrence, name and contact 
data, lease and block data, the name of the facility involved, and the 
type of incident and injury or fatality. Written reports, however, 
require submittal of data that has been verified after the response, 
and involve discussion of any corrective actions taken and data on 
monetary damage.
    During the five-year period prior to publication of the 2006 rule, 
MMS received an average of 210 incident reports per year. Following 
rule publication, incident reports increased by an average of 285 
percent, providing the agency with improved reporting mechanisms on the 
types and severity of accidents that were occurring. The increase in 
the number of reports reflected an increase in reportable accidents due 
to changes in the reporting threshold. An analysis of the data 
indicated increasing trends related to crane and lifting incidents. 
This in turn has informed how staff conducts offshore inspections and 
regulatory development. Safety alerts are issued by BOE or jointly with 
USCG to alert operators of incidents that have occurred and provide 
recommendations to operators so they can immediately mitigate through 
improved work process management at their facilities.
    The OCS Lands Act requires BOE and USCG to investigate and prepare 
a public report of each incident that includes fatalities, major fires, 
spills over 200 barrels, or serious injuries. The BOE and the USCG 
conduct investigations for many other incidents as well. Since 2005 the 
MMS has completed 21 major-panel investigations and 378 district 
investigations. The two agencies coordinate incident investigations 
through an MOA signed on March 27, 2009. The MOA identifies the 
responsibilities of both BOE and USCG for incident investigations on 
the OCS. As detailed in the MOA, these responsibilities are delineated 
by the type of facility involved in the incident (fixed, floater, MODU) 
and type of system involved in the incident (i.e. drilling, production, 
unit stability, fire protection, etc). The MOA identifies which agency 
has investigative jurisdiction for various types of equipment, 
processes, and facility systems. It also provides processes for 
determining who will conduct the investigation and for the coordination 
and conduct of joint investigations when appropriate.
    The BOE conducts an initial onsite investigation for many of the 
incidents reported. Formal investigations are then conducted for the 
more serious or significant incidents as determined by the actual and 
potential outcome of the accidents as well as the complexity of the 
circumstances associated with the accident. The BOE District 
investigations are conducted by a team appointed by the District 
Manager of the office responsible for the area where the incident 
occurred. Teams are primarily composed of District office personnel, 
but may involve other BOE or non-BOE personnel. Occasionally, the 
District Manager may appoint an individual to conduct an investigation, 
rather than a team.
    For more serious accidents, Panel Investigations are conducted by a 
team appointed by the BOE Regional Director for the region where the 
incident occurred. A panel leader is designated to direct the work of 
the team. Teams are primarily composed of Regional and District 
personnel, but may involve other BOE or non-BOE personnel. Panel 
investigations are usually conducted when a more in-depth investigation 
is needed and may involve more comprehensive investigation techniques 
such as formal hearings. Such is the case with the on-going Deepwater 
Horizon investigation, in which the BOE and USCG are working together, 
bringing their respective expertise together in an effort to determine 
the root cause of the incident.
    I would like to reiterate that the BOE places a high priority on 
the safety and health of workers on the OCS. Again, the tragic and 
massive oil spill in the Gulf illustrates the need for improved safety 
in this area. We will continue to cooperate with OSHA and the U.S. 
Coast Guard to maximize the safety and health protection of oil rig 
personnel.
    Mr. Chairman, this concludes my prepared statement. I would be 
happy to respond to questions you or Members of the Committee have.
                                 ______
                                 
    Chairman Miller. Thank you.
    Secretary Michaels?

STATEMENT OF DAVID MICHAELS, ASSISTANT SECRETARY, OCCUPATIONAL 
   SAFETY AND HEALTH ADMINISTRATION, U.S. DEPARTMENT OF LABOR

    Mr. Michaels. Good morning, Mr. Chairman, Ranking Member 
Kline, members of the committee. Thank you for inviting me to 
discuss worker health and safety from oil rig to shoreline. 
This issue has been brought to our attention in the most tragic 
way possible, with the deaths of 11 workers and injuries to 17 
others as a result of the explosion on the Deepwater Horizon.
    Secretary of Labor Hilda Solis' vision for the Department 
of Labor is ``good jobs for everyone.'' Good jobs are safe 
jobs, and the Occupational Safety and Health Administration is 
working closely with other federal agencies to prevent 
additional worker injuries, illnesses, and deaths from the oil 
spill cleanup.
    As you are aware, OSHA has no regulatory or enforcement 
authority over oil drilling rigs or production platforms 
located on the outer continental shelf, where the Deepwater 
Horizon was located. Section (4)(b)(1) of the Occupational 
Safety and Health Act preempts OSHA from enforcing its 
regulations if a working condition is regulated by another 
federal agency. I will therefore focus my remarks on OSHA's 
efforts to keep workers safe during oil spill cleanup 
operations.
    Our involvement in the BP oil spill is part of a 
coordinated federal response which includes the Coast Guard, 
the National Institute for Occupational Safety and Health, the 
National Institute for Environmental Health Sciences, and other 
government agencies, as well as BP, to ensure that cleanup 
workers are protected. OSHA personnel were first deployed to 
the Gulf during the week of April 26th and are now present at 
all 17 staging areas.
    Every day, OSHA has over 146 professionals protecting 
workers throughout the Gulf region, 25 of whom are assigned 
solely to the oil response cleanup. We have made more than 
1,100 inspections and taken over 500 environmental samples. 
OSHA is on the beaches and on the boats to make sure BP and its 
contractors are protecting cleanup workers.
    Depending upon their assignments, these workers are at risk 
for injury and illness from heat, falls, drowning, fatigue, 
sharp objects, as well as bites from insects, snakes, and other 
native species. Many of these workers also face exposure to 
crude oil, oil byproducts, dispersants, cleaning products, and 
other chemicals used in the cleanup.
    When OSHA finds a safety problem or learns of one from 
workers we notify BP and expect the specific problem and 
similar concerns elsewhere are promptly addressed across the 
entire response area. We then follow up to determine if the 
problem has been corrected.
    OSHA is also ensuring that BP is providing workings free of 
charge the proper training and proper protective equipments. So 
far, OSHA has found this process to be effective and it has not 
had to issue citations or propose civil penalties to obtain 
compliance. That option remains available, however, and we will 
not hesitate to use it should we determine that it is 
necessary.
    One of the most serious health hazards facing those 
involved in the cleanup effort is heat. Workers are often in 
the hot sun in the Gulf's high humidity wearing chemical-
resistant Tyvek coveralls, boots, and gloves for 12-hour 
shifts. There have already been over 100 incidents of illnesses 
from heat among workers involved in the cleanup, some very 
serious.
    From the outset, OSHA has insisted that BP implement a 
robust program to protect workers from heat stress and heat 
stroke. All work sites now have a heat stress plan that 
includes a matrix setting out specific work-rest requirements 
based on the heat and relative humidity, and if workers are 
wearing protective clothing and equipment, which can exacerbate 
the hazards.
    To determine whether workers are exposed to dangerous 
levels of toxic chemicals, OSHA, along with NIOSH, is reviewing 
BP's monitoring data and has brought in a team of industrial 
hygienists to conduct our own independent air monitoring both 
on the shore and on cleanup vessels. OSHA experts are observing 
and characterizing worker exposures in each job task to 
determine the appropriate level of protection from air 
contaminants.
    We are working closely with NIOSH to investigate reports of 
work-related illnesses and to establish a health surveillance 
program for workers involved in the event. We have also 
distributed to workers close to 50,000 copies of safety fact 
sheets, pocket cards, and pocket guides. Materials are printed 
in Spanish and Vietnamese, as well as English, in recognition 
of the diverse population inhabiting the Gulf Coast region.
    In order to get a firsthand understanding of our challenges 
I first traveled to Louisiana on May 2nd with a team of 
experienced health professionals. I returned with Secretary 
Solis earlier this month.
    OSHA's top priority is to ensure that oil spill responsive 
cleanup operations are done as safely as possible and we are 
working hard to accomplish this. Last week the president 
assured the nation, ``We will fight this spill with everything 
we have got for as long as it takes.'' OSHA will be there for 
that fight doing all we can to protect the safety and health of 
those fighters.
    Thank you very much for the opportunity to testify today. I 
am happy to answer your questions.
    [The statement of Mr. Michaels follows:]

   Prepared Statement of Hon. David Michaels, Ph.D., MPH, Assistant 
    Secretary, Occupational Safety and Health Administration, U.S. 
                          Department of Labor

    Mr. Chairman, Ranking Member Kline and Members of the Committee: 
Thank you for inviting me to join you this morning to discuss worker 
health and safety from oil rig to the shoreline. This issue has been 
brought to our attention in the most tragic way possible--with the 
deaths of eleven workers, and injuries to 17 others as the result of 
the April 20th explosion on the Deepwater Horizon offshore oil drilling 
platform. Now, two months into this disaster, which President Obama 
aptly called an ``assault on our shores and our citizens,'' thousands 
of employees and volunteers are working every day to clean up the mess. 
The Occupational Safety and Health Administration (OSHA) is working 
closely with other Federal agencies to prevent additional worker 
injuries, illnesses and deaths from the oil spill cleanup. I am here 
today to discuss these ongoing efforts.
    As you are aware, OSHA has no regulatory or enforcement authority 
over mobile oil drilling rigs or production platforms located on the 
Outer Continental Shelf (OCS) where the Deepwater Horizon was located. 
Section (4)(b)(1) of the Occupational Safety and Health Act preempts 
OSHA from enforcing its regulations if a working condition is regulated 
by another agency of the Federal government. Thus, even though OSHA has 
some authority over OCS lands, because the Coast Guard has extensive 
regulations that apply to these facilities and coordinates its 
inspection program with the Minerals Management Service (MMS) to ensure 
that the USCG workplace safety requirements are carried out, OSHA has 
no regulatory or enforcement authority on oil drilling rigs or 
production platforms on the Outer Continental Shelf. I will therefore 
focus my remarks today on OSHA's efforts to keep workers safe during 
oil spill cleanup activities.
    Oil spill cleanup workers are on the front lines of the nation's 
response to the Deepwater Horizon disaster. Currently it is estimated 
that there are more than 33,000 people involved in the response, 
including over 13,000 cleanup workers employed by BP or its 
contractors, 1,600 National Guardsmen and women, workers on over 6,000 
boats supporting the response operations, and more than 1,800 Federal 
employees directly involved in the cleanup operations in four states. 
And that number grows every day. Secretary of Labor Hilda Solis' vision 
for the Department is ``Good Jobs for Everyone.'' Good jobs are safe 
jobs and OSHA is extremely involved in making sure workers involved in 
the oil response and cleanup efforts go home safely when their work is 
done.
    OSHA's involvement in the Deepwater Horizon oil spill is part of a 
coordinated Federal response which includes the Coast Guard, HHS's 
National Institute for Occupational Safety and Health (NIOSH) and 
National Institute of Environmental Health Sciences (NIEHS), and other 
government agencies, as well as BP, to ensure that workers are 
protected from hazards associated with cleanup work. OSHA is the lead 
agency responsible for the enforcement of worker safety and health 
standards for onshore cleanup and in the coastal waters (approximately 
3 to 6 nautical miles from shore).
    The Department of Labor, through OSHA, is a member of the National 
Response Team and has been an active participant in the oil spill 
response by providing guidance, assistance, and support to the Coast 
Guard at the National Incident Command, the Unified Area Command and 
Area Commands.
    On June 10th, OSHA signed a Memorandum of Understanding (MOU) with 
the Federal On-Scene Coordinator (FOSC) for the Deepwater Horizon 
response. The MOU solidified a close working relationship between the 
FOSC and OSHA, and established a specific mechanism for coordination. 
OSHA and the FOSC recognize the importance of close cooperation among 
all the agencies that have responsibilities during the oil cleanup 
efforts. The MOU furthers joint efforts to monitor compliance with 
safety and health standards and to protect workers. The FOSC and OSHA 
will share relevant information with each other to promote worksite 
safety in the Deepwater Horizon Response, including information 
provided by workers, local government officials or any other person.
    OSHA has the authority to conduct safety and health inspections of 
cleanup activities involving employees of BP and other private and 
Federal employers--and if necessary to issue citations--to determine if 
safe working conditions are being provided for employees. The MOU 
provides the means for OSHA to notify the FOSC when it intends to take 
enforcement action against BP, BP's contractors, or any other employer 
engaged in response activities.
    OSHA personnel were first deployed to the Gulf during the week of 
April 26th and are now present in all 17 staging areas in Louisiana, 
Mississippi, Alabama and Florida. OSHA's Health Response Team, based in 
Salt Lake City, arrived in Louisiana on May 6th to provide technical 
support to OSHA response site personnel for worker exposure monitoring.
    Every day, OSHA has over 146 professionals protecting workers 
throughout the Gulf Region, 25 of whom are assigned solely to the Oil 
Response Cleanup. We are in the field and on boats to make sure BP and 
its contractors are protecting cleanup workers from health and safety 
hazards. OSHA inspectors ensure that the employer is complying with 
heat precautions, personal protective equipment and training 
requirements, and is properly addressing chemical and electrical 
hazards, decontamination of personnel and equipment, and many other 
hazards, such as being hit by the numerous vehicles dropping off 
supplies. As of June 11th, OSHA staff had made over 1000 site visits, 
both unannounced and coordinated with BP, covering all 17 staging 
areas, and the active worksites on shore or at sea.
    Depending on their assignments, oil spill cleanup workers face 
hazards from heat, falls, drowning, fatigue, loud noises, sharp 
objects, as well as bites from insects, snakes and other wild species 
native to the Gulf Coast region. Many of these workers also face 
exposure to crude oil, oil byproducts, dispersants, cleaning products, 
and other chemicals being used in the cleanup process. OSHA is working 
to ensure that employers protect workers from this vast array of 
hazards.
    When OSHA finds a safety problem or learns of one from workers, we 
notify BP so that the specific problem and similar concerns are 
addressed across the entire response area. OSHA then ensures the 
problem is corrected. When necessary, OSHA raises concerns to the 
Unified Command. OSHA is also ensuring that BP is providing workers 
with both the proper training and proper protective equipment (boots, 
gloves and other necessary protective gear). At this point, OSHA has 
found this process to be effective, and it has not had to issue 
citations or propose civil penalties to obtain compliance. That option 
remains available, however, should we determine that it is necessary.
    All workers involved in the cleanup operation that have contact 
with contaminated material are required to receive training free of 
charge. Emphasis is placed on ensuring workers are trained in a 
language and vocabulary they understand. OSHA has been working with 
NIOSH, NIEHS and BP since the Deepwater Horizon sank to ensure that BP 
is providing the appropriate training, in the appropriate language to 
all workers involved in the clean up. OSHA, along with NIEHS, continues 
to monitor this program. In response to recently received information, 
OSHA is in the process of increasing the training requirement for crews 
on the vessels of opportunity engaged in offshore oil cleanup 
activities. Expanded training will cover chemical hazards and 
exposures, decontamination procedures, sampling results and workers' 
rights.
    One of the most serious health hazards facing those involved in the 
Gulf Oil Spill Response is heat stress. There have already been over 
100 incidents of illnesses from heat among workers involved in the 
cleanup, some very serious. From the outset, OSHA has insisted that BP 
implement a robust program to protect workers from heat stress and heat 
stroke, a potentially life threatening hazard for people working in 
cleanup operations. Many of these people work 12 hours a day, 7 days a 
week, wearing chemical resistant Tyvek coveralls, boots and gloves, in 
the hot and humid weather along the Gulf. BP has now implemented, at 
all work sites, a heat stress plan that includes a matrix setting out 
specific work/rest requirements based on the heat and relative 
humidity, and whether workers are wearing protective clothing and 
equipment--which can exacerbate the hazard.
    Other aspects of the heat stress plan ensure that:
    <bullet> Workers are trained in the hazards of heat and the 
precautions necessary to prevent heat stress.
    <bullet> Work begins early in the day to take advantage of cooler 
temperatures.
    <bullet> Shaded rest areas are provided at all work areas.
    <bullet> Workers drink liquids and take rest breaks throughout 
their work shifts.
    <bullet> Heat stress monitors are on site at all times to ensure 
the work/rest regimen is adhered to, that workers are drinking enough 
to stay fully hydrated and that any workers exhibiting symptoms of heat 
related illness are immediately given fluids, rest and other 
appropriate care.
    OSHA is also concerned about the potential health effects from 
inhaling chemicals in the crude oil, weathered oil, oil dispersants, 
cleaning agents, and other chemicals, which we continue to monitor, in 
order to assess and characterize the hazards the present. Aside from 
those workers on ships directly adjacent to the oil leak who are 
exposed to fresh oil, most of the cleanup workers are exposed to 
weathered or partially weathered oil, where all or most of the toxic 
volatile substances have evaporated.
    To determine whether workers are exposed to dangerous levels of 
toxic chemicals, OSHA, along with NIOSH, is reviewing BP's monitoring 
data and has brought in a team of industrial hygienists to conduct its 
own independent air monitoring both on shore and on the cleanup 
vessels. OSHA is characterizing worker exposures in each job task to 
determine the appropriate level of protection from air contaminants. 
From the exposure characterizations already completed, we have 
developed, in collaboration with our colleagues at NIOSH, a personal 
protective equipment (PPE) matrix which outlines the equipment workers 
should be using for each job duty to protect them from the hazards and 
exposures associated with that job. For example, respirators are 
recommended at the source, whereas evidence does not support use of 
respirators in other locations and job duties. The matrix is posted on 
our website along with our sampling protocols and sampling results. The 
website includes clear information about where the samples were 
collected and what jobs the workers were doing when they were 
monitored. OSHA is also analyzing the ``soup'' of crude oil, oil by-
products, dispersants, and any other material to determine what hazards 
the mixture might present workers as they respond to and cleanup the 
oil spill. We are currently working with NIOSH to develop and issue a 
respirator and general worker health protection policy.
    Finally, OSHA is monitoring other chemical exposures, such as 
exposures to chemical solvents used to clean boats, to determine 
whether workers are being appropriately protected from these exposures.
    We have also distributed thousands of safety fact sheets and the 
OSHA-NIEHS pocket guides to workers involved with the oil spill cleanup 
along the Gulf Coast. The pocket guides and fact sheets are printed in 
Spanish and Vietnamese as well as English, in recognition of the 
diverse population inhabiting the Gulf Coast region.
    In addition, OSHA has a webpage titled, ``Keeping Workers Safe 
During Oil Spill Response and Cleanup Operations.'' This site has an 
abundance of helpful information for cleanup workers and the general 
public on the hazards that workers face, including crude oil, insects, 
snakes, poisonous plants, drowning, oil dispersants, ergonomic 
stresses, fatigue, and slips, trips and falls. It also has extensive 
safety information on subjects such as respiratory protection, boat and 
vessel safety, PPE and hazardous waste operations. The site references 
special oil spill training materials from other governmental agencies 
and provides useful contacts, as well as information on workers' 
rights. It is excellent comprehensive information that I am proud to 
recommend.
    In order to get a first-hand view of health and safety activities 
in the Gulf, I first traveled to Louisiana on May 2nd with a team of 
experienced hazardous material professionals to lead efforts to ensure 
that cleanup operations were performed promptly, effectively and 
safely. At our initial meeting, I was joined by representatives of 
NIOSH, NIEHS and EPA, establishing a close working relationship between 
these public health agencies. I returned with Secretary Solis on June 
9th and 10th to inspect efforts on behalf of the health, safety and 
well-being of cleanup workers affected by the spill. We met with beach 
cleanup workers in Port Fourchon to make sure that they received the 
required training and that they were provided the necessary equipment 
to be protected from job hazards. We also discussed worker safety 
efforts with community organizations representing fishermen and other 
cleanup workers.
    OSHA's Deputy Assistant Secretary (DAS) Jordan Barab participated 
in a multi-agency delegation to the Gulf on June 1st--2nd where, after 
being briefed by the Unified Command leadership, he reviewed the safety 
and health protections in place to prevent worker injuries and 
illnesses. In Port Fourchon, he observed beach cleanup workers skimming 
the sand and collecting oil deposits. He also traveled to Venice, 
Louisiana, which is a major staging area for the Vessels of Opportunity 
Program, designed and implemented to provide local boat operators an 
opportunity to assist with response activities. DAS Barab spoke with 
workers about issues of concern to them which included exposure to 
chemicals, working in extreme heat, fatigue. He also verified that the 
workers had received the required protective health and safety 
training, in a language and at a level that they could understand.
Conclusion
    OSHA's top priority is to ensure that oil spill response and 
cleanup operations are done as safely, effectively and efficiently as 
possible. As the President said in his address to our nation, ``We will 
fight this spill with everything we've got for as long it takes.'' OSHA 
will be there for that fight, doing all that it can to protect the 
safety and health of those fighters.
    Thank you for the opportunity to testify today. I am happy to 
answer your questions.
                                 ______
                                 
    Chairman Miller. Thank you.
    Dr. Howard?

STATEMENT OF DR. JOHN HOWARD, DIRECTOR, NATIONAL INSTITUTE FOR 
OCCUPATIONAL SAFETY AND HEALTH, CENTERS FOR DISEASE CONTROL AND 
    PREVENTION, U.S. DEARTMENT OF HEALTH AND HUMAN SERVICES

    Dr. Howard. Good morning, Mr. Chairman, and Ranking Member 
Kline, and members of the committee.
    Following the fire and explosion on the Deepwater Horizon 
on April 20th, CDC immediately activated its emergency response 
center to coordinate response activities across the agency. 
CDC's National Center for Environmental Health leads the 
incident command and works closely with the National Institute 
for Occupational Safety and Health to respond to potential 
health threats to the public, to workers, and volunteers from 
the disaster.
    As of today, CDC has 269 staff involved in the response, 
including 21 staff deployed to the Gulf Coast states. 
Throughout this response, CDC has been coordinating our efforts 
with other operating divisions of the Department of Health and 
Human Services, with the Coast Guard, with OSHA, with EPA, and 
state and local health departments in the Gulf states.
    As a part of the overall response, NIOSH has undertaken 
three activities: First, NIOSH is rostering workers involved in 
the response by means of a voluntary questionnaire. This roster 
will serve as an accurate record of individuals involved in the 
response, which will be vital for possible future studies to 
determine whether health conditions that may develop in the 
future are associated with occupational exposures during the 
cleanup.
    To date, NIOSH has rostered more than 14,000 workers and we 
continue to work hard to include as many of the responders as 
possible. We are rostering workers as they complete training 
and at the staging areas in order to reach workers already 
trained.
    In the last week NIOSH has also begun rostering some 
response workers online through a secure Web site. NIOSH has 
provided the secure link to multiple federal agencies, to BP, 
and to others, and has asked them to refer workers to the Web 
site to complete the roster electronically. NIOSH is also 
reaching out to state and local health partners to identify 
mechanisms to assist us in rostering all parish, local, state, 
and National Guard workers.
    Second, NIOSH is conducting health surveillance summates 
for worker symptoms, health complaints, injury and illness, or 
job stress, by collecting data from all sources and analyzing 
that data to detect trends in injury and illness reports so 
that we can recommend interventions to prevent injuries and 
illnesses. NIOSH is encouraging workers to report symptoms they 
feel are associated with the response work to both their 
employers, to medical personnel, and to state and local health 
departments.
    NIOSH is also drawing on the surveillance data being 
collected and analyzed by our colleagues in the Centers for 
Disease Control. CDC is collecting data from 60 poison control 
centers through the Gulf region. The majority of those calls 
thus far have been from response workers.
    CDC is also collecting data through the BioSense 
surveillance system, which we used during the H1N1 epidemic, 
from 86 health care facilities. Many of them are community 
clinics funded by the Health Resources and Services 
Administration of HHS, from clinical labs, from hospital 
systems, ambulatory care centers, and from V.A. medical 
treatment facilities, pharmacy chains, et cetera, to prevent 
any--to detect any increase in respiratory or other possible 
oil-related health effects.
    CDC is also analyzing surveillance data being collected by 
state health departments in the Gulf to monitor for potential 
health effects related to the oil spill. CDC has posted results 
of these collaborative surveillance activities on the CDC Web 
site and updates these regularly.
    Third, NIOSH is conducting health hazard evaluations of 
reported illnesses among workers involved in onshore and 
offshore operations, as request by BP on May 28th, June 18th, 
and, most recently, at 8 a.m. this morning, a comprehensive 
request for workers involved in all activities on water and the 
land. We deployed several NIOSH staff members, including 
industrial hygienists and medical officers, to the Gulf to work 
on these evaluations.
    They are evaluating worker exposures to heat stress, 
volatile organic compounds, chemical oil dispersants, diesel 
exhaust from vessels, and other hazards as they are being 
identified. We are also administering health symptom surveys to 
workers involved in various onshore and offshore operations.
    Once the HHE is completed NIOSH will compile the findings 
and recommendations in a report that will be provided to the 
employer and employee representatives, and will be publicly 
available on the NIOSH-CDC Web site. As we learn more, CDC and 
NIOSH will update its recommendations regularly.
    Thank you, Mr. Chairman, for your continued support, and I 
am pleased to answer any questions you may have.
    [The statement of Dr. Howard follows:]

   Prepared Statement of Hon. John Howard, M.D., Director, National 
   Institute for Occupational Safety and Health, Centers for Disease 
  Control and Prevention, U.S. Department of Health and Human Services

    Good morning, Mr. Chairman, Ranking Member Kline, and distinguished 
members of the committee. Thank you for inviting me to testify today. I 
am Dr. John Howard, Director of the National Institute for Occupational 
Safety and Health (NIOSH), which is part of the Centers for Disease 
Control and Prevention (CDC) within the U.S. Department of Health and 
Human Services (HHS). I am here today to provide an update on NIOSH's 
response to the recent Gulf of Mexico oil spill and our ongoing efforts 
to anticipate, monitor and respond to the potential health threats to 
workers.
CDC's Coordinated Response
    On April 20, 2010, after the fire and explosion on the Deepwater 
Horizon leading to the oil spill, CDC immediately began monitoring the 
situation. On April 22, CDC staff participated in the National Response 
Team's activation meeting and then formed an oil spill task force to 
monitor and respond to any potential public health hazards associated 
with the oil spill. CDC quickly publicized information describing the 
potential health risks associated with the oil spill and steps 
individuals can take to protect their health and safety. On May 10, 
CDC's Emergency Operations Center (EOC) officially activated and began 
coordinating CDC's response, which includes staff from NIOSH and the 
National Center for Environmental Health, which is leading the EOC 
incident command and response activities. As of June 17, 204 CDC staff 
were involved in the agency's response to the oil spill, and many of 
these staff are from NIOSH.
    Throughout the response to the oil spill, CDC has closely 
coordinated our efforts with other components of HHS--including the 
Assistant Secretary for Preparedness and Response, the Food and Drug 
Administration (FDA), the National Institutes of Health (NIH), and the 
Substance Abuse and Mental Health Services Administration; other 
federal partners like the U.S. Coast Guard (USCG), the Department of 
Labor's Occupational Safety and Health Administration (OSHA), and the 
Environmental Protection Agency (EPA); and the Gulf coast states.
NIOSH's Response Activities
    As part of CDC's overall response, NIOSH involvement in the oil 
spill response began very early. NIOSH was with OSHA and NIH's National 
Institute of Environmental Health Sciences (NIEHS) in the initial HHS 
response visit to the Gulf during the week of May 3. Since then, NIOSH 
has been providing information to BP, OSHA, the Coast Guard, and other 
federal and state partners about protecting response workers and 
volunteers from potential occupational safety and health hazards. I 
would now like to provide an update on the work that NIOSH has been 
doing to protect the response workers and volunteers, which includes:
    Rostering responders;
    Collecting and evaluating health surveillance and injury and 
illness data;
    Conducting a health hazard evaluation of workers;
    Developing recommendations for response workers and volunteers; and
    Providing guidance on traumatic incident stress.
Rostering Responders
    NIOSH is administering surveys to thousands of clean-up workers in 
an effort to compile a roster that will serve as an accurate record of 
many individuals involved in the response. The information collected in 
this roster would be vital for possible future studies to determine 
whether health conditions that may develop in the future are associated 
with occupational exposures during the cleanup. A roster is an 
important tool to capture site-specific information, such as a worker's 
job task, time on task, available exposure information, use of personal 
protective equipment (PPE), and other related factors. Participation in 
the survey is voluntary, and once the information is collected, NIOSH 
will protect individuals' personally identifiable information as 
confidential to the extent allowed by the law.
    We are rostering workers as they complete safety training required 
for all responders and at the staging areas in order to reach workers 
already trained. It has been challenging to enroll workers due to the 
different locations staging areas and training sites. To date we have 
visited many of the staging areas in Louisiana to roster workers. We 
are currently enrolling workers in Mississippi, Alabama, and Florida 
and returning to LA's newly added staging areas. New staging areas are 
continuously being added in locations across the Gulf region. Through 
our rostering efforts, we have already captured information from more 
than 14,000 workers responding to this event. In an attempt to reach 
all cleanup workers, the survey is being administered in English, 
Spanish, and Vietnamese. This is an unprecedented effort, and NIOSH is 
working hard to ensure that our roster will include information for as 
many of the responders to this event as possible.
    In the last week, NIOSH also began rostering response workers 
online through a secure Website. NIOSH has provided the secure link to 
multiple federal agencies and BP, and has asked them to refer workers 
to the Website to complete the rostering form electronically. NIOSH is 
also reaching out to state and local partners to identify mechanisms to 
assist us in rostering all parish, local, state, and National Guard 
workers. NIOSH has created a database, which includes information from 
the paper surveys that is entered manually as well as information 
uploaded electronically from the Web-based surveys. Data from the 
electronic survey will be analyzed in the same manner as those 
completed on paper. A copy of the survey is included as Exhibit 1.
Collecting and Evaluating Health Surveillance and Injury and Illness 
        Data
    CDC is conducting surveillance across the Gulf States for health 
effects possibly related to the oil spill using national and state-
based surveillance systems. NIOSH is analyzing injury and illness data 
collected at the BP medical sites. NIOSH is using all of this data to 
monitor reports of worker illness and injury and to work with the 
States, OSHA, and BP to identify trends and potential health effects. 
CDC's National Center for Environmental Health (NCEH) contacted the 
American Association of Poison Control Centers to request that local 
poison control centers code any calls related to the oil spill so that 
CDC can track them. The majority of the calls we have received so far 
have been from response workers. NIOSH is also using CDC's BioSense 
surveillance system--which analyzes diagnostic and pre-diagnostic 
health data from clinical laboratories, hospital systems, ambulatory 
care sites, health plans, U.S. Department of Defense and Veterans 
Administration medical treatment facilities, and pharmacy chains--to 
enhance surveillance for respiratory health effects in states along the 
Gulf of Mexico coast. CDC is receiving surveillance data collected by 
Alabama, Florida, Louisiana and Mississippi and is working closely with 
the respective state epidemiologists to look for any health effects 
that may be related to the oil spill. CDC posted results from these 
collaborative surveillance activities on the CDC Website on June 10. 
NIOSH is also encouraging workers to report symptoms they feel are 
associated with response work to employers, medical personnel, or state 
and local health departments.
Conducting Health Hazard Evaluation of Workers
    NIOSH has a unique opportunity to assess these occupational safety 
and health hazards that may arise as we conduct Health Hazard 
Evaluations (HHEs) of reported illnesses among workers involved in 
onshore and offshore cleanup operations. Several NIOSH staff members 
have been deployed to the Gulf coast to work on the HHEs, including 
industrial hygienists--who are assessing exposures through observation, 
industrial hygiene assessments, and evaluation of work practices and 
use of PPE--and medical officers--who are evaluating illnesses and 
injuries among groups of onshore and offshore workers. Industrial 
hygienists are evaluating exposures to volatile organic compounds such 
as carbon monoxide, hydrogen sulfide, benzene, diesel exhaust, and 
propylene glycol (a component of the dispersant). The medical teams are 
administering health symptom surveys to workers involved in various 
onshore and offshore operations. The Louisiana Department of Health and 
Hospitals has agreed to provide medical reports of seven previously 
hospitalized fishermen for NIOSH physicians to review. Additional 
reports of the incident from the Coast Guard, OSHA, and BP are being 
reviewed as well. Once the HHE is completed, NIOSH will compile the 
findings and recommendations in a report that will be provided to 
employer and employee representatives, and it will be publicly 
available on the NIOSH Website.
    The additional HHE request received on June 18 will assist NIOSH in 
addressing activities associated with exposures that may occur during 
all types of operations related to this event. Since knowledge about 
potential inhalational exposures to the mixed exposure of crude oil, 
dispersant and combustion products associated with the Deepwater 
Horizon response work is incomplete and still evolving, NIOSH believes 
it is prudent to reduce the potential for adverse health effects by the 
responsible use of engineering controls, administrative controls and 
PPE, including respirators when appropriate. The following is a 
description of each of the categories of worker exposure.
    Source Control Activities: The source control vessels conduct 
activities closest to the area where crude oil appears on the surface, 
including drilling relief wells, conducting underwater operations at 
the source such as subsurface dispersant application, and providing 
support and supplies.
    Vessels involved in Burning Crude Oil: Vessels involved in crude 
oil burning are exposed to crude oil/dispersant that is less aged and 
may emit more VOCs than crude/dispersant closer to shore that may have 
undergone more weathering.
    Vessels not involved in Source Control or Burning: Some vessels 
operating off-shore engage in deployment of containment and sorbent 
booms and skimming operations to remove oil from the water. These 
vessels are not involved in burning nor are they located in close 
proximity to in-situ burning. Generally, these vessels have contact 
with oil that has weathered, and, as such, does not emit significant 
amounts of VOCs
    Shoreline Activities: The types of activities associated with 
shoreline cleaning include manual removal of ``tarballs'' or 
``tarpatties,'' shovel removal of oiled-contaminated sand, low pressure 
flushing, manual sorbent application, and manual cutting of vegetation.
    Decontamination Activities: Vessels, PPE and other equipment may 
become contaminated with weathered oil. Workers and volunteers may also 
be involved in cleaning and caring for birds, turtles and other 
wildlife
    Waste Stream Management Activities: Response and remediation 
workers are engaged in the disposal and recycling of hazardous solid 
and liquid wastes during collection, storage, transport and final 
disposal.
Health Studies of Tanker Oil Spills
    It is important to note that in recent years several studies of 
previous oil spill response efforts have reported acute health effects 
in response workers. These studies may underestimate the health effects 
associated with oil response work since the magnitude and duration of 
the Deepwater Horizon response is unprecedented. At this time, there 
has been no comprehensive assessment of all response worksites in the 
Gulf, and as a result, we have an incomplete understanding of the human 
health toxicity associated with exposure to large amounts of 
dispersants and the toxicity associated with mixed exposure to large 
amounts of crude oil and dispersants together. This means that 
knowledge about potential human health effects to the mixed exposure of 
crude oil and dispersant associated with the Deepwater Horizon response 
work is still evolving. Therefore, NIOSH believes it is prudent to 
reduce the potential for such adverse health effects by the responsible 
use of administrative controls and PPE.
Developing Recommendations for Response Workers and Volunteers
    To ensure a comprehensive approach to worker safety and health, 
NIOSH has been working closely with OSHA to develop Interim Guidance 
which focuses on issues specific to the Deepwater Horizon response. The 
recommendations in the Interim Guidance include:
    Conducting exposure assessment: Exposures to toxic chemical and 
physical agents should be comprehensively and routinely assessed during 
work activities under varying conditions.
    Pre-Placement Evaluation: NIOSH currently is working with OSHA to 
develop recommendations for pre-placement evaluations for workers 
involved in the Deepwater Horizon response to ensure that each worker 
receives appropriate advice about his or her health status and the 
potential demands of the work before they begin.
    Medical Care and Symptom, Near-Miss, Injury and Illness Reporting 
and Recording: All health symptoms, illnesses, injuries or near-misses 
related to work activities should be reported by workers and 
volunteers, should be recorded by employers, contractors and volunteer 
organizations, and should be evaluated by safety and health or licensed 
health care professionals with action taken to protect workers
    Heat stress prevention: Excessive exposure to hot environments can 
cause a variety of heat-related problems, including heat stroke, heat 
exhaustion, heat cramps, and fainting. Heat can also increase the risk 
of injuries in workers from sweaty palms, fogged-up safety eyewear, and 
dizziness. Protective clothing and other PPE will increase the risk of 
heat-related problems. PPE should be selected to minimize heat stress 
on the wearer.
    Fatigue Prevention: Disaster response workers often work longer 
shifts and more consecutive shifts than the typical 40-hour work week. 
Working longer hours may increase the risk of work injuries and 
accidents and can contribute to poor health. Therefore, disaster 
response organizations should have management plans in place to 
minimize fatigue risks, recognize hazards, and provide regular 
opportunities for worker rest and recovery.
    Use of PPE: A variety of PPE will be needed by Deepwater Horizon 
response workers and volunteers. Administrative controls and 
engineering controls should be utilized first to minimize the need for 
PPE in any particular job. Where such controls will not effectively 
minimize the exposures, then PPE will be necessary.
    Guidance on Selection of Protective Clothing: Choosing the proper 
chemical and flame resistant protective garments is an exercise in the 
selection of fabric, seam and design. The selection must be based on 
expected exposure and verified by field audits and changed if the 
selected PPE does not perform adequately. The potential for 
contribution to heat stress must also be considered in the selection of 
protective clothing, in addition to the potential exposure to fire, 
water, oil and tar, and other chemicals.
    Reuse of Personal Protective Equipment: Consult the manufacturer's 
instructions on whether personal protective equipment should be 
disposed of or cleaned after use. Many manufacturers of PPE, in 
particular manufacturers of gloves, will provide information on 
breakthrough times from various chemicals (time it takes for the 
chemical to pass through the protective material). Given the warm and 
humid conditions existing during the Deepwater Horizon Response, 
disposable filtering facepiece respirators will likely need to be 
discarded after several hours of use, in part because they will become 
moist with perspiration.
    Use of Respiratory Protection: A decision to use respiratory 
protection should be based on the best available qualitative 
information using the expert opinion method and on the best available 
comprehensive quantitative information about the type and level of 
exposure to toxic chemical and physical agents by the inhalational 
route. The use of effective engineering and administrative controls, 
and other personal protective [sic]
    Resources for Use of Respiratory Protection: Information about 
which respirators are approved by NIOSH, how to get them and how to use 
them, can be found at the NIOSH Respirator Trusted-Source Information 
Page at: http://www.cdc.gov/niosh/npptl/topics/respirators/disp--part/
RespSource.html#sect1.
    Voluntary Use of Respirators: Respiratory protection may be worn by 
employees voluntarily as permitted by the OSHA Respiratory Protection 
Standard (29 CFR Section 1910.134). An employer may provide respirators 
at employees' requests or permit employees to use their own respirators 
if the employer determines that use, in itself, will not create a 
hazard (29 CFR Section 1910.134(c)(2)(i)).
    Recommendations contained in the Interim Guidance will be updated 
as more information about exposures is collected and assessed in 
relationship to the incidence and prevalence of symptoms, illnesses and 
injuries.
Providing Guidance on Traumatic Incident Stress
    Deepwater Horizon response workers and volunteers are at risk of 
feeling uncomfortable levels of stress from what mental health 
professionals refer to as a traumatic incident. NIOSH is developing 
guidance that describes the range of ordinary reactions to stress--such 
as complaints of physical ailments, trouble thinking clearly, emotional 
concerns, and behavioral changes--which responders may experience 
during their work or in the weeks or months that follow. NIOSH guidance 
recommends that responders take care of themselves and monitor their 
own emotional and physical health both during the response and after 
the event ends. Specifically, responders should: control the pace of 
their rescue and recovery efforts and be mindful of potential hazards; 
maintain adequate nutrition, hydration and rest; and monitor their own 
mental and emotional health. Additionally, the Substance Abuse and 
Mental Health Services Administration (SAMHSA) supports Mental Health 
First Aid training and other psychological health programs for dealing 
with trauma and stress for first responders, behavioral health workers, 
and persons who are experiencing the aftermath of traumatic situations. 
NIOSH and SAMHSA are collaborating to assure that the guidance provided 
is aligned with the tools and services available to individuals to 
address their reaction to this traumatic incident.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Conclusion
    CDC continues to work diligently to anticipate, monitor and respond 
to potential health threats to protect the health and safety of 
workers, volunteers and residents along the Gulf coast. This oil spill 
underscores the importance of CDC's work and the need for further 
health and safety research. It is important to protect response 
workers, volunteers and Gulf coast residents against potential health 
hazards now so that we can prevent future chronic health effects 
associated with this spill. As this event evolves and we learn more 
about potential health hazards, CDC will update our recommendations. I 
appreciate the opportunity to describe the steps NIOSH is taking to 
protect response workers and volunteers along the Gulf coast. Thank you 
for your continued support. I am pleased to answer any questions you 
may have.
                                 ______
                                 
    Chairman Miller. Thank you.
    Thank you to all of the witnesses for your testimony, and 
again, for your expertise.
    Dr. Howard, just quickly, I appreciate your remarks on the 
rostering. Obviously we learned a terrible lesson after 9/11 
and after Katrina for people who volunteer or were hired to 
work in what turned out to be seriously toxic waste sites. And 
I know this was raised in the Energy and Commerce Committee 
last week also, but I really appreciate you getting very 
aggressive about getting these people rostered so that if we 
have something similar happen we know who and what their status 
was and the rest of that when they came here. So thank you very 
much for that.
    As I understand the situation, we have--back in 19-maybe-
53, or 1979, ocean responsibilities were delegated to the Coast 
Guard under the outer continental shelf legislation of that 
time, and that has continued forward with the rewrites--some of 
the rewrites that took place after Exxon Valdez. And then the 
Coast Guard has delegated the actual responsibility for onsite 
inspections to MMS. Is that a fair statement here of kind of 
the situation we are in?
    Dr. Howard. Yes.
    RADM Cook. Mr. Chairman, the part about--that you discussed 
initially with the Outer Continental Lands Act giving the Coast 
Guard the authority to go and regulate the safety health was 
true. The part about then Coast Guard transferring to MMS is 
just a subset of six platforms which are on the outer 
continental shelf for which the Coast Guard does the initial 
safety and health inspection and then MMS does the annual 
inspection, because many of them are unmanned----
    Chairman Miller. Right.
    RADM Cook [continuing]. Some of them are simply well heads. 
So the bigger units are mobile offshore drilling units still--
--
    Chairman Miller. And the authority for the worker safety 
inspections there is showed how on the mobiles?
    RADM Cook. Well, the Coast Guard has primacy and we have a 
detailed MOA which goes section by section of the mobile 
offshore drilling unit on which part the Coast Guard or MMS 
will look at in detail, but the Coast Guard has primacy.
    Chairman Miller. But who is doing the onsite inspections?
    RADM Cook. The Coast Guard is.
    Chairman Miller. The Coast Guard is?
    RADM Cook. And MMS also has inspection functions for which 
we have split out in an MOA----
    Chairman Miller. So you are both doing onsite inspections--
--
    RADM Cook. Correct.
    Chairman Miller [continuing]. According to that memorandum 
of understanding.
    RADM Cook. That is correct. It is delineated, though; it is 
not both doing the same thing.
    Chairman Miller. I hope not. Okay.
    Just for the information of the committee members, I should 
have said that under previous agreement the chair and the 
senior Republican will have 10 minutes each opening.
    And then that is--you review MMS's work in their portion 
that you have delegated to them? Do you have an annual review? 
Do you have a 5-year review of how that is going?
    RADM Cook. We have quarterly meetings with MMS and review 
all the different aspects of our relationship, and that is at 
the, kind of the D.C. oversight regulatory level, and that has 
been out of our standards shop. And then on the coastline or, 
you know, primarily the Gulf area where we interact on an 
operational basis, we share in each other's joint training 
activities.
    Chairman Miller. So for this purpose on worker safety the 
Coast Guard's the lead agency?
    RADM Cook. That is correct, sir.
    Chairman Miller. Okay. Thank you.
    After this tragic accident and those people were being 
interviewed, and we have gone back and forth in a number of 
different areas, there has been substantial evidence that 
workers--whether they are online workers, whether they are 
supervisorial individuals, whether they were from a contractor, 
or subcontractor, or whatever their situation was on this rig--
that there were serious concerns about the process that was--as 
it was going forward to close in this well. Where are workers' 
whistleblowing rights protected in this act?
    RADM Cook. Sir, I am going to answer that in an operational 
way, because I am not--I don't have the legal standard at hand. 
But all of our inspectors and investigators are trained from 
the variety of different types of vessels that we interact 
with, including the mobile offshore drilling units. Wherever we 
get a complaint we protect the anonymity of the person making 
the complaint and we follow up immediately.
    But as far as direct whistleblower statute, I will have to 
get back to you on the record for that.
    Chairman Miller. So you don't know whether you have 
whistleblower protection.
    Secretary Michaels, in OSHA there is specific whistleblower 
protection, is there not? Am I correct?
    Mr. Michaels. Yes, sir.
    Chairman Miller. And in theory people cannot be retaliated 
against or punished for exercising that right?
    Mr. Michaels. That is the theory, correct.
    Chairman Miller. Mr. Slitor, where do your people go for 
whistleblower protection, and how do they enforce this?
    Mr. Slitor. I am not sure of the legislation how it speaks 
to whistleblower. I don't believe that it is listed as part of 
the requirements.
    However, we have issued an NTL regarding whistleblower----
    Chairman Miller. What is that? What is an NTL?
    Mr. Slitor. I am sorry. A notice to lessee. And it has 
emanated from a GAO study conducted on MMS and production 
verification. So we wanted to ensure that there was an avenue 
for people to----
    Chairman Miller. That was related to whether or not people 
were keeping two sets of books or honestly reporting----
    Mr. Slitor. Correct.
    Chairman Miller [continuing]. Production to the federal 
government.
    Mr. Slitor. And it directed them to the inspector general's 
office, and other than----
    Chairman Miller. But right now you can't sit here either--
and tell me that those individuals that might have wanted to 
not proceed further with this process because they felt it was 
unsafe, either in terms of the rig, or the personnel, or the 
environment--however--there is no place where their rights or 
posted on these rigs with respect the that.
    Mr. Slitor. Not directly related to that type of activity--
--
    Chairman Miller. Some employers have told me and they have 
shown me posters that they have posted as a company policy, but 
again, in many instances they have a contractor running these 
rigs; the oil company itself is not doing that. Is that 
correct?
    Mr. Slitor. I believe that can be the case.
    Chairman Miller. Well, we will follow up with you, but this 
is obviously--you have an inherently dangerous workplace, and 
the question of whether or not a worker will have the ability 
and the protection to say, ``Stop,'' in the face of danger is a 
very serious problem if that doesn't exist by right in the law.
    We have just went through a horrible mine accident in West 
Virginia, and it became very clear that even with whistleblower 
protections miners were seriously intimidated, miners were 
threatened because they wanted to--the owners wanted to produce 
coal.
    Here, we have had a great deal of attention to the cost of 
these rigs, to the cost of operating them, decisions that were 
apparently made because they didn't want to delay any longer, 
any more hours, to getting this rig offsite so it could go off 
and be released to somebody else. This is an environment that 
is a disaster for workers to work if those concerns aren't 
explicit in the law. So I will stop there on that point and 
maybe come back to it later.
    Dr. Michaels, let me ask you this--you are starting to look 
at the issue of process safety management--MMS and you. Is that 
correct? Regulations with respect to process safety management?
    Mr. Michaels. You are speaking to----
    Chairman Miller. Mr. Slitor, Mr.--or, well, I don't know 
which one of you takes responsibility because you are----
    Mr. Slitor. We have a rule that is under review in the 
department and they are moving forward on safety and 
environmental management systems, which speaks to safety 
organization and management----
    Chairman Miller. Where did you get the expertise to develop 
this rule?
    Mr. Slitor. This rule is--we participated with American 
Petroleum Institute in developing----
    Chairman Miller. That is an organization of the oil 
companies?
    Mr. Slitor. Yes--developing a recommended practice. It has 
been in use for approximately 15 years. We have kind of 
monitored the----
    Chairman Miller. Been in use on the rigs for 15 years?
    Mr. Slitor. It is a voluntary program since it is a 
recommended practice. We are moving forward at this time to 
make it a requirement.
    Chairman Miller. Have you discussed this with OSHA?
    Mr. Slitor. Yes, actually, we have.
    Chairman Miller. When?
    Mr. Slitor. It was after the Deepwater Horizon event. OSHA 
contacted us to gain a better understanding of our regulations 
and--with respect to worker safety, and that came up in the 
conversation.
    Chairman Miller. Well, my time has run out, but I would be 
very concerned on how this is being developed. This safety 
process management rules are absolutely critical in these work 
environments. It is stunning that we don't have one in place 
for this--for these rigs.
    We have obviously been through it as a committee in a 
number of chemical and refinery tragic accidents that have 
taken place. My district, I represent five or six refineries, 
and these rules are critical to the processes. And when you 
start to move through a refinery you are going to change 
processes, you are going to change operation, you are going to 
go to a shutdown, you are going to go to a restart. These are 
the things that really give you some of the best protection for 
workers.
    OSHA has been in this field for 35 years, and I just find 
that when you are taking advice from the oil industry you 
wouldn't bounce that off against the very--that they regulate 
the oil industry where we have had these tragedies in 
refineries in Washington, in the Midwest, in Texas, in my 
district, where people have lost their lives, that we wouldn't 
have some kind of discussion before this goes to final rule, 
that it wouldn't just come out of the oil industry's 
recommendations. We have been through that on this committee. I 
am not sure that is what the public is looking for at this 
moment, so I would hope that there would be a little timeout 
here to rethink whether this is really the system that will 
offer the protection.
    Mr. Kline?
    Mr. Kline. Thank you, Mr. Chairman. Listening, as I always 
do, Mr. Chairman, carefully to your questions, and clearly, as 
you were going through you can see that there is confusion--
perhaps on your part, perhaps on their part, but I think on 
everybody's part--about who is in charge. Who is in charge?
    And so we have wonderful public servants sitting down here 
representing government agencies and in listening to you, I 
understand that there are MOUs and MOAs and discussions, but it 
is not entirely clear to me that we know who is in charge here. 
So I am going to continue to explore that with you and I expect 
that many of my colleagues will as we go forward.
    Dr. Michaels, at a hearing last week a question was asked 
about the possibility of OSHA taking over rig worker safety and 
the response Deputy Assistant Secretary Jordan Barab stated, 
``Nobody has offered it to us and we certainly haven't asked.'' 
Are you better able today to speak to the agency's view?
    Mr. Michaels. The administration has no position on this 
issue. Right now we are working very closely to help each other 
and to learn from each other in terms of protecting the workers 
and on the shore, and I think this experience has driven these 
agencies to work much more closely together.
    Mr. Kline. Well, that is a heck of a way to have to be 
driven to work more closely together. We have seen this before; 
we certainly saw it in the intelligence and defense communities 
after the terrible tragedy of 9/11 and the subsequent military 
reaction, they were driven together, but it is a heck of a way 
to do it. It would be so much better if we could work this out 
in advance.
    Just supposing--continuing with you, Dr. Michaels--that you 
allow for the possibility that OSHA actually takes over the 
responsibility, or maybe we take--following up on the 
chairman's question about where this was designated--could you 
do it? Do you have the resources? Do you have the people?
    Mr. Michaels. We certainly don't have the resources. I 
mean, the requirement of inspecting--there are two different 
issues, really. One is the resources of inspecting offshore 
rigs that require vessels to get to them and a great deal of 
additional staff.
    OSHA currently has a very limited staff to look at process 
safety management issues; I know this committee has looked at 
that before. And unfortunately, we have even taken people from 
the Texas-Louisiana area who are inspecting oil refineries now 
to help with the cleanup effort.
    The other issue, though, is really to think about the OSHA 
regulatory regime and the approach we take, and this is a good 
opportunity to relook at that. Because right now, you know, for 
example, in oil refineries they have a lot of the same risks as 
oil drilling operations. We have a system where we inspect on 
some regular basis, but certainly not frequently, and we would 
need a great deal more staff to be in the refineries at all 
times.
    And we find ourselves going to refineries that are very 
complex that take a huge amount of time to investigate, and the 
Contra Costa County, where the chairman is from, has a very 
extensive staff in their county to look at just the refineries 
in that region. We don't have that level of--we don't have that 
level of resources.
    But what we find is that when we go into an oil refinery 
the limited OSHA fines have not a big effect. I mean, the 
maximum fine for a serious penalty is $7,000. When we are 
talking about a company whose profits are in the billions of 
dollars a year the--I think they look at the costs of OSHA 
fines as just really part of the cost of doing business.
    So if we were to take on this issue we would have to 
rethink the way we do inspections and the way we issue fines--
--
    Mr. Kline. Okay. But you don't have--you simply don't have 
the people or the expertise right now, and it would take some 
time, I would presume, before you could get that.
    Following up--I am staying with you just a little bit 
longer here, and actually this is going to go over to Admiral 
Cook--on May 25th you issued a memorandum to Admiral Allen 
stating many things--it is a copy here--but part of it was, you 
are quoted as saying, ``OSHA has witnessed numerous 
deficiencies at several work sites and staging areas through 
the Gulf Coast region.''
    Can you describe some of those?
    And then to you, Admiral Cook, what has been your response 
here as we are trying to coordinate the multiple agencies here 
and figure out who is in charge?
    Mr. Michaels. You know, OSHA went to all these staging 
areas as they were being put together and we saw a number of 
different problems at different levels. We saw site security 
issues just when those sites were opening up and hundreds of 
workers were being brought in. We thought the security and 
essentially logistics of the site weren't adequate to protect 
worker safety. We were concerned about heat.
    But we had two sort of more pressing, more larger concerns. 
One was that it wasn't clear what the line of authority was 
within BP. When we would raise this issue with the local or our 
contact within BP we didn't see the problem getting abated 
immediately, and we insisted the problem was abated 
immediately.
    And we didn't see the resources there to deal with these 
problems as BP and its contractors geared up for much larger 
operations. So we thought it was important to raise that issue 
immediately, which we did with BP and we did with Admiral 
Allen. And Admiral Allen responded very quickly, communicated 
to BP the importance of this, and their response since then has 
been very good. So we are very pleased with the response to 
that memo.
    Mr. Kline. Admiral Cook, can you address the Coast Guard's 
response to the memo?
    RADM Cook. Congressman, one of the things that--you know, 
not in a bureaucratic sense but in a way to formalize it, we 
went back and put in writing again, with, between--our 
relationship between OSHA and the Coast Guard at the federal 
on-scene coordinator level, the unified commander that was down 
there representing the Coast Guard in New Orleans--so the OSHA 
and Coast Guard responsibilities were clear and reinforced, and 
what we did is continue to build on OSHA presence in all the 
different staging areas, and OSHA has now expanded and 
sometimes rides the vessels that are--that BP has hired to do 
some of the booming strategies or some of the skimming 
strategies.
    So what we have done is integrated OSHA to the maximum 
extent possible so that we can leverage their expertise as part 
of the overall safety net. But clearly the federal on-scene 
coordinator has overall responsibility for site safety as 
regarding the response.
    Mr. Kline. Okay. Thank you.
    Let's talk about overall on-scene responsibility. There 
have been news reports of late that there were a number of 
vessels--skimmers and boats--ready to go to work here in 
helping to clean up and mitigate the damage, and the reports we 
have seen were that they were stopped--they were prevented from 
doing this because of the lack of inspection by the Coast 
Guard, or perhaps there was an inspection by somebody and there 
weren't enough life preservers, and so forth.
    And this goes to the point--couple of points here about who 
is in charge and the balance between cleaning up and mitigating 
the disaster and being responsive to the people who live on the 
Gulf Coast and checking blocks. And I fully understand that 
checking blocks can be very important when safety is at stake, 
but I am wondering about the balance and the urgency--and I am 
looking at you, Admiral Cook, because I take your point that 
you are in charge, and the on-scene commander, and these are 
floating vessels, although Dr. Michaels said that OSHA was ``on 
the beaches and on the boats,'' so I am not sure what--again, 
what OSHA is doing on the boats.
    It is sort of that question about who is in charge, but I 
would like you to address that question of how you are 
balancing the response to the disaster on the coast and 
responding to the demands of the people living on the Gulf 
Coast and protecting the environment down there, and safety of 
the workers. And then maybe one or both of you can address 
that--who is doing what to whom on the boats?
    RADM Cook. Mr. Congressman, first off, I want to convey 
that there is a sense of urgency, so the balance is clearly we 
want to do the right thing for the environment; we certainly 
don't want to put anybody in harm's way in doing that.
    I would like to just characterize one example which 
recently got a lot of play in the media. There were some barges 
who had some vacuum sucking equipment installed on top of them 
that were being used in the Louisiana area, and they were going 
to be used in a variety of locations--coastal, but on out what 
we call the boundary line, or kind of the--if there was a clear 
opening to a river it would be where the river went into the 
sea, but in New Orleans--I mean, in Louisiana it is sometimes a 
little bit tough to tell.
    But some of the barges were going to be used beyond the 
boundary line, and there were stability issues that they 
wouldn't have to take into account if they were used closer in, 
but the last thing we wanted to do was have those barges go out 
and flip over. Well, the work that went on was stability 
calculations, you know, back in our engineering center, so it 
wasn't real visible within the media what was going on, and as 
soon as that work was complete those barges were allowed to go 
back into service.
    So I would say there are a number of cases where we are out 
there. Another one is--another situation we--I just want to 
describe that side of the balance where we have to look at more 
than check-the-box--vessels that are hired that weren't 
intended for oil spill cleanup service. We want to make sure 
they have fire extinguishers, life preservers, the right 
navigational lights in case they are used at night.
    So we do those things and every once in a while one of 
those gets more public attention than the case rightly 
deserved----
    Mr. Kline. Let me let Mr. Michaels--my time is--it is 
turning red here. But I guess what I am getting at is that 
considering the magnitude of this tragedy and the need to 
respond quickly because the oil moves inexorably into these 
marshes, it seems to me that we would make sure that there is 
somebody in the organization--somebodies, many of them in the 
Coast Guard, or in OSHA, or in MMS, or OBE, or whatever we 
change the name to--that you would be working 24/7, and if it 
took--you needed more inspectors that you would be pulling 
people from Antarctica or someplace to make sure that they were 
there and getting this done in a timely fashion.
    And I guess my time is up, but I am hoping at some point we 
will understand the relationship of what OSHA is doing on the 
boats along with the Coast Guard.
    I am sorry, Mr. Chairman. I see that my 10 minutes----
    Chairman Miller. If I might add to this question, we ran 
into this problem in the oil spill in San Francisco Bay a 
couple of years ago. I think what we really need along areas 
like the Gulf Coast or harbors--we need a precertification of 
private boats fishing because you lose a huge amount of time 
while you are trying to decide whether the fishermen can be 
helpful or not and whether they comply. And I think we need a 
program of annual certification of those people who would want 
to participate.
    In San Francisco we lost two tide cycles. Well, in two tide 
cycles a relatively small spill by any--was all of a sudden out 
the Golden Gate and into the ocean and onto the beaches. So we 
can't do this after the oil is in the water; it all has to be 
done on a constant basis, I think, so that we know that those 
people one, they can be effective, two, they have the capacity 
to--they have the safety equipment and they are ready to go. 
Because we lose just too much time going through this after the 
accident.
    Congresswoman Woolsey?
    Ms. Woolsey. Thank you very much, Mr. Chairman. Good lead-
in on the San Francisco Bay spill.
    From that very moment I have had this question, and Ranking 
Member Kline said it too: Who is in charge? It just really--and 
it was so much smaller for us but we thought it was 
devastating.
    It was so clear to me that we have so many elements to 
these spills: Who is in charge of prevention? Who is in charge 
of certification? Who is in charge of cleanup? Who is in charge 
of safety and health? Research and development has to be at the 
forefront so we can know better how to treat all of this and 
how to prevent it all.
    I am thinking we need an umbrella agency. I don't know who 
that agency is. And I am also thinking that maybe over each of 
the major sections there will be a lead agency, such as, for 
today we are talking about safety and health, OSHA for safety 
and health. I am just throwing that out there as an idea.
    What I would like to know, Rear Admiral Cook and Mr. 
Slitor--tell me, before this incident in the Gulf how many 
times did each of your agencies inspect that particular site 
and did you come up with anything that was suspicious? And what 
did you do about it? Just tell me about your inspections, 
starting with you, Admiral.
    RADM Cook. Yes, Congresswoman. First off, the Coast Guard 
has been inspecting the Deepwater Horizon every year since 
2001, when it came in--first came into U.S. service, and we do 
the--an inspection for which we take the information that is 
provided by the flag state, their certification with 
international standards, and then we validate it.
    Over the 9 years that we have been inspecting it they have 
only had two deficiencies, but really, we are looking at the 
navigation, lifesaving, and some of the firefighting aspects 
that go along with accommodations, almost as if it was a ship--
because it is a, you know, it is a vessel until it is attached 
to the seabed.
    So we are looking at all those type of activities that we 
would normally associate with a ship, and then MMS or BOE comes 
in and takes care of the--more of the production aspects that 
associate it with drilling.
    So the two discrepancies were just a placarding issue, and 
in one case a gauge that wasn't calibrated correctly, which 
they fixed on scene. So they have had a good safety record with 
us.
    Ms. Woolsey. So, Mr. Slitor?
    Mr. Slitor. Our experience has been, actually, similar. I 
don't have the actual number of total inspections that we have 
conducted since 2001, but we--it is our policy to visit and 
inspect drilling facilities every 30 days, or as close to that 
as we possibly can. Weather plays a big factor, at times.
    Over the--I believe it is the last two or three inspections 
that we conducted on the Deepwater Horizon they did not have 
any incidents of noncompliance.
    Ms. Woolsey. So then, Dr. Michaels, you are OSHA and you 
are going in there to inspect, first of all, would you hope 
they had a safety committee of some sort that you would be 
hearing from, but would you tell us what you think you would be 
looking for?
    Mr. Michaels. You have raised a very interesting question--
what OSHA would do and what I think should be done really are 
two different questions. OSHA has the same sort of approach 
that we go and we look for compliance with certain rules, and 
that is important.
    But the two traditional ways that OSHA and other agencies 
look at safety and health in these process safety and 
management situations are inadequate, in my view, because 
really these are what we call low probability, high consequence 
events that often occur because of a combination of conditions 
and decisions that are made--often decisions that are made to 
save money or to move quickly, and that is the history of the 
BP Texas City disaster, and likely the history of this, though 
the history has not yet been totally written.
    So when an employer tells us, for example, ``This facility 
is safe because of very few injuries notices,'' we say, ``Well, 
that is not really relevant.'' But we see that in press 
conferences all the time. You know, the night before the 
Deepwater--the night that the Deepwater Horizon exploded, BP 
executives were on the ship giving a--on the vessel giving a 
plaque to the workers for 7 years of no lost-time injuries.
    Ms. Woolsey. Oh, wow.
    Mr. Michaels. So one measure that we use, which is injury 
rates, is not useful. The other thing is when we look at 
compliance with certain rules, at any point in time they could 
be being complied with and we can't be there all the time, so 
we have to look at how they make decisions, how they 
investigate near misses--the instance that could have predicted 
what goes on. And that is a very different regulatory approach.
    And frankly, OSHA doesn't do well either. But that is the 
approach that I would have taken and would like to take not 
just on the Deepwater Horizon site, but across oil refineries 
and chemical plants as well.
    Ms. Woolsey. So, Mr. Chairman, if I could just say 1 more 
minute--not a minute even.
    Had some of the employees--the workers--on the vessel been 
able to speak out they would have been able to point out areas 
of danger?
    Mr. Michaels. Absolutely.
    Ms. Woolsey. Thank you.
    Chairman Miller. Thank you.
    Mr. Castle--Congressman Castle?
    Mr. Castle. Thank you, Mr. Chairman. Like everybody else 
here, you know, we are concerned about the health issues, the 
environmental issues that have arisen from this. But obviously 
the deaths of the people who were working there is a matter of 
great concern, and my questions in the limited time I have will 
be in the whole area of prevention and future prevention.
    And, you know, it is a little confusing as to exactly who 
is in charge or to what is going on here, but I have at least 
read or heard--and if I don't state this correctly please 
straighten me out--that there was a shut-off device or a 
breaker system of some kind or another that apparently may have 
actually come up with--parts of it may have come up with the 
oil and gas that was being retrieved, so there was some 
knowledge that perhaps it was not working. Who had knowledge of 
that or whether that is an accurate statement I don't know, 
but, Admiral Cook and Mr. Slitor, can you comment on that?
    Mr. Slitor. I notice similar things from what I have read 
in the newspaper, but we need to wait until we get the results 
of the accident investigation before we can even comment on 
what is in the newspaper, so I really can't speak to that 
directly.
    Mr. Castle. Well, if there is a shut-off device and it is 
in place how would a worker or anyone else inspecting that rig 
know that it is either functioning or not functioning?
    Mr. Slitor. We require the operator to conduct regular 
tests of the BOP--the blowout preventer--system, and they are 
pressure tests to see if they can hold the pressure--the 
formation pressure.
    Mr. Castle. Okay. Can you tell us now when that last test 
was performed in that particular blowout preventer system on 
this rig?
    Mr. Slitor. When the last test--I don't know the particular 
date of that, but I believe the requirement is that they test 
BOPs every 14 days.
    Mr. Castle. And that is a self-test which they do 
themselves. Is that the idea?
    Mr. Slitor. Correct.
    Mr. Castle. Okay.
    And you had no report--none of you had any report that it 
was not functioning correctly, or anything of that nature?
    Mr. Slitor. No. When we do inspections we test all of the 
operator's--or inspect all of the operator's testing record to 
ensure that they have done all tests for the various devices 
onboard, whether drilling or production, and these have 
frequencies of, you know, weekly, biweekly, monthly, every 6 
weeks, depending on what the particular device is.
    Mr. Castle. Based on what you know now with the history of 
the last couple months of all this, would you--either of you--
change the inspection frequency or systems that were in place 
then to prevent future problems with rigs such as this--
frequency of inspections or anything else that perhaps could be 
done?
    Mr. Slitor. In the 30-day report to the president Secretary 
Salazar has come out with a number of recommendations, some of 
which speak to our inspection frequency and augmenting the 
inspection workforce, and to witness tests--some of the testing 
that is done on critical devices such as the blowout 
preventers. That can happen at any time during a 24-hour 
period, so we are looking at ways to provide more oversight on 
those tests.
    Mr. Castle. Can you tell us whether there was any 
correspondence, in terms of communications, with BP or anyone 
else dealing with the Horizon drilling rig before this 
happened, in, say, the 30 days before, with respect to either 
the blowout prevention system or anything else that might have 
been some sort of a lead that there was a possible potential 
problem that could explode as it did?
    Mr. Slitor. No. I am not aware of any type of documentation 
or information transfer that would have indicated that there 
was any kind of problem, but I can get back to you on that and 
see if there is something, but I am not aware of any.
    Mr. Castle. Okay. I realize you are the acting chief in 
this case, Mr. Slitor, but are you satisfied that the people at 
MMS are sufficient, in terms of both numbers out there in the 
Gulf and numbers in terms of what you have to do at home in 
Washington or wherever it may be, to continue the kind of work 
that MMS should be doing with respect to prevention of 
something such as this?
    Mr. Slitor. No, I don't believe we do have sufficient 
resources. We have 56 inspectors in the Gulf of Mexico, and 
about a handful of those are more supervisory and 
administrative and have significant office functions, so it is 
actually less folks that actually get out there to do these 
inspections. And as you know, there are over 3,500 facilities 
offshore, so it is a challenge to meet our statutory 
requirement of inspecting every facility annually. So to that 
end we have put in budget requests to augment the inspection 
workforce.
    Mr. Castle. I know my time is up, but my notes had 
indicated that you try to inspect every 30 days, I thought, and 
you just said annually.
    Mr. Slitor. There are two types of facilities out there. 
There are drilling rigs that are mobile, and there are 
production platforms. We try to inspect drilling rigs every 30 
days because they are mobile, they do move around from place--
location to location, and frequently they are on a location for 
3 months or so, but can be as much as a year, depending upon 
the target they are after and a number of other factors. So for 
drilling rigs we do go out every 30 days or as close to that as 
we possibly can.
    Mr. Castle. Thank you.
    I yield back, Mr. Chairman.
    Chairman Miller. Mr. Kildee?
    Mr. Kildee. I thank you, Mr. Chairman.
    As a corollary to the governor's question, a certain 
culture exists in various agencies. We have two agencies that 
have a key role here: the MMS and the Coast Guard.
    I would like to address this to the two physicians, Dr. 
Michaels and Dr. Howard: Was there a proper focus among those 
two agencies, or within those two agencies? Was there a proper 
understanding of their mission?
    Were both adequately performing based upon the need with 
the various factors out there in the Gulf? Was one doing a 
better job than the other? And what could one or the other be 
doing better to fulfill their mission?
    Mr. Michaels. Mr. Kildee, I am not sure I can comment on 
the particular work on offshore drilling regulations by these 
two agencies, but I can look very carefully at--we work very 
closely with the Coast Guard on a number of different 
activities and we are very pleased with their work and our 
relationship with them, and we have relatively little contact 
with MMS, or with BOE, so I can't really comment on their 
particular work.
    Mr. Kildee. Doctor?
    Dr. Howard. Yes, sir. Previous to this episode, the 
National Institute for Occupational Safety and Health or CDC 
has not had any knowledge of these offshore activities.
    Mr. Kildee. There are four of you here representing. All of 
you are concerned about the safety of those people who are 
working in that area and about the environment, but all the 
factors. Would it not be helpful if you bring your area of 
concern and your area of expertise into the other two agencies 
to discuss some overlapping interests that one may not have 
thought of?
    Admiral, could you suggest how you could coordinate better 
between the various agencies that have at least a level of 
responsibility?
    RADM Cook. Yes, Congressman. You know, one thing I just, 
you know, want to point out is that OSHA has a maritime safety 
advisory committee--a federal advisory committee. The Coast 
Guard has a seat on there. I mean, that is just one area where 
we try and be part of the maritime fabric of what OSHA is 
concerned about.
    But I think the best way is to continue the meetings that 
we have with MMS and I said to our standards organization where 
we develop regulations--the advisory committee activity. And I 
think what we can do is add more of that type of activity where 
there is information-sharing.
    Currently, I would say it is more at the headquarters level 
with OSHA. In the field we have a lot of interaction with MMS 
because the activity is primarily in the Gulf of Mexico, 
although certainly not exclusively. Everyone knows that.
    So I think in the future what we have to do is aim to 
formalize some of that interaction and look to where we can 
build more, because I think one of the underlying pinnings of 
this program where we look at safety and health on the outer 
continental shelf is that the Coast Guard has vessels to get 
out there, we have a combined contract for aviation to get out 
there. So there are some logistical things that the agency who 
is going out there needs to be able to carry the ball 
effectively.
    Mr. Kildee. Mr. Slitor?
    Mr. Slitor. I would agree with Admiral Cook. We would 
embrace the idea of bringing OSHA in and coordinating among the 
three agencies to ensure that we all know the breadth of our 
regulations and how we oversee those regulations. So I think it 
is a positive suggestion.
    Mr. Kildee. Well, might that avoid some contradictory 
regulations or those that aren't compatible?
    Mr. Slitor. I am sorry; I did not hear.
    Mr. Kildee. Might that avoid some contradicting regulations 
or regulations that might not be compatible?
    Mr. Slitor. Yes, I do believe that would. That is a big 
part of our coordination with the Coast Guard, working on not 
only our quarterly meeting that we hold in Washington here, but 
we do fairly frequent training with our inspectors and Coast 
Guard personnel in the various regions to understand better 
concerns of their statutes and regulation, since we are out 
there as their eyes and ears.
    Mr. Kildee. Thank you, Mr. Chairman.
    Chairman Miller. Mr. Thompson?
    Mr. Thompson. Thank you, Mr. Chairman, Mr. Ranking Member. 
I would kind of like to continue a little bit with the sort of 
the questions that Mr. Kildee has raised regarding integration 
and coordination, which is obviously always important.
    After the World Trade Center and Hurricane Katrina national 
disasters RAND conducted research projects with respect to 
lessons learned related to public health and worker safety and 
health. The studies made several recommendations to prepare for 
future events, and the studies suggested specifically an 
integrated approach to safety management events. The studies 
suggested that, you know, for example, assessing the health 
hazards associated with cleanup was subject to debate, as it is 
in this incident.
    To these lessons that need to be internalized by the 
federal agencies to avoid the stakes being repeated, what are 
the specific actions that have been taken to implement an 
integrated approach to safety management?
    RADM Cook. Congressman, thank you for that question, 
because it gives me the opportunity also to mention, we have 
had this undercurrent of who is in charge, and now let me just 
talk--this is about the response. You know, under the National 
Contingency Plan the Coast Guard is the federal on-scene 
coordinator for coastal spills. EPA is the federal on-scene 
coordinator for inland spills.
    So with that goes a host of requirements, and it actually 
requires an incident command system to bring together the 
variety of agencies as well as the responsible party so that we 
end up with an integrated response. And I think that speaks to 
some who say, ``Why was OSHA on the boats?'' It wasn't that 
OSHA was in charge of safety on the boats; OSHA was helping as 
part of the unified command to address safety issues in an 
integrated fashion.
    So that dates back really to the Exxon Valdez, and at that 
time they also envisioned what we have termed our national 
incident commander, which Admiral Allen fills that role now. 
This is the very first event where we have ever had a national 
incident commander under the National Contingency Plan. We have 
exercised it every 3 years in accordance with the regulations 
for spills of national significance--exercises where we draw in 
agencies and we get industry to step up and be responsible 
parties for those exercises so that we get a realistic approach 
to integrating.
    But I would say the scale of this response, you know, is 
beyond anything that we have ever exercised, for sure--the 
largest response--you know, I think Admiral Allen has 
characterized it as a siege. We have some 35,000 people 
involved in the response right now, and in terms of vessels and 
being prepared and all that, there is 2,700 vessels of 
opportunity, so to speak--fishing vessels or other ones that 
are being used that weren't really intended for that purpose.
    So I think it is integrated to the extent it can. This 
response, though, is of very large magnitude.
    Mr. Thompson. Any other panelists have any thoughts or 
comments on the integration?
    Mr. Michaels. Just to add that within the, you know, the 
structure it has been fill-up, it is very clear where expertise 
and responsibilities lie. So OSHA, for example, is on those 
boats because we are measuring exposure to chemicals, we are 
observing the work that is done, where the Coast Guard is 
concerned about the seaworthiness of the vessels and various 
sea-related activities. But in fact, the work that we are 
looking at is not particular to the boat, but it is worker 
exposure.
    So it actually works pretty well in terms of the--that 
safety and health are integrated very well between the four or 
five agencies that are actively involved in the cleanup 
operation.
    Mr. Thompson. Admiral, you talked about how this is, you 
know, beyond the scope and size of what you anticipated the 
first time to implement this incident command system. I am 
assuming that there are ongoing lessons being learned and being 
documented in terms of how to refine and improve this process 
for future application.
    RADM Cook. Yes, Congressman. I am not really prepared to 
enumerate those right now, but yes, we are thinking that, you 
know, possibly there will be some legislation, you know, which 
will help to point the way forward from beyond what was done 
with the Exxon Valdez from OPA 90. Because certainly the 
framework is there, but in order to scale up to a spill which 
we can't really quantify the extent--in this case, something 
that keeps coming from the well--I think we need to rethink 
some of the aspects of coordination.
    Mr. Thompson. Thank you, Chairman.
    Chairman Miller. Thank you.
    Mr. Andrews?
    Mr. Andrews. Thank you, Mr. Chairman. I appreciate you 
calling this hearing so we can focus, you know, beyond the 
obvious tragedy of the loss of the way of life for people in 
the Gulf and the tragedy to the environment is the tragedy of 
11 people not coming home to their families anymore. And I 
think that is something we really ought to be focusing on in 
addition to the rest of the very sad news here.
    My understanding is that long before any of you got here 
Mr. Michaels' agency, in 1979, signed an agreement with Admiral 
Cook's agency that said that worker safety would be the 
responsibility of the Coast Guard. Then, in 2003 Admiral Cook's 
agency signed--or delegated to Mr. Slitor's agency the 
responsibility of actually doing the inspections that are 
incumbent in that duty. Am I right about that?
    RADM Cook. Congressman, the essence is correct. The part 
about the delegating--Coast Guard delegating to Minerals 
Management Service, or BOE, is not entirely correct. That is 
just for annual visits to fix facilities----
    Mr. Andrews. Okay.
    RADM Cook [continuing]. Which some of them are unmanned, 
and----
    Mr. Andrews. Okay. Thank you.
    And I have heard testimony this morning that, with respect 
to the rigs, that their practice is to inspect at least every 
30 days. Is that right, Mr. Slitor?
    Mr. Slitor. Yes, that is correct.
    Mr. Andrews. How many people go on those inspection visits?
    Mr. Slitor. It certainly depends on the size of the 
facility----
    Mr. Andrews. How many went to this facility?
    Mr. Slitor. I believe at the last inspection there was two 
inspectors that went to that----
    Mr. Andrews. How long do they--how much time do they spend 
on the inspection?
    Mr. Slitor. I would have to get back to you on the precise 
time, but it was probably on the order of a full day.
    Mr. Andrews. I thought I heard you testify, too, that 
there--are there 58 people that you have doing the business of 
these inspections--is that right?
    Mr. Slitor. Sixty-two total, across all regions, 56 of 
which are in the Gulf of Mexico.
    Mr. Andrews. And of those 56 people, how many actually go 
out to the rigs and do the inspections?
    Mr. Slitor. The way that our inspection workforce is set 
up, that all inspectors have responsibility or are trained to 
do both drilling and production inspections, but----
    Mr. Andrews. So these are field personnel, not desk 
personnel?
    Mr. Slitor. Well, nearly.
    Mr. Andrews. Okay.
    Mr. Slitor. About five are so supervisory inspectors that 
their duties keep them in----
    Mr. Andrews. How many rigs are there that need to be 
inspected in that category of inspections? How many are there 
in the Gulf?
    Mr. Slitor. Well, it fluctuates quite a bit, of course, 
depending upon the price of oil, but it can range anywhere from 
40 to 100.
    Mr. Andrews. So let's say the midrange of that would be 70. 
There would be 840 inspections a year, right--70 times 12?
    Mr. Slitor. Yes.
    Mr. Andrews. So you have 56 people doing 840 inspections a 
year?
    Mr. Slitor. Once a month, yes.
    Mr. Andrews. Yes. Once a month. So how many inspections 
does the typical inspector do per week?
    Mr. Slitor. Again, that number is quite varied because of 
the nature of the facilities can be--as Rear Admiral Cook 
pointed out--can be literally a single well--that has very 
little equipment to extremely large production facilities. So 
to come up with an average number, I am not sure what that 
might be, because some--it can take a day to do many of the 
inspections, or it can take a few hours to do some of these 
very small things.
    Mr. Andrews. But the Deepwater Horizon fell into the day-
long type category because it was more complex and larger?
    Mr. Slitor. More complex, and the distance to shore is a 
big concern, or a big factor in what you can accomplish.
    Mr. Andrews. I think your testimony indicated that in the 
last 5 years you issued 12,087 incidents of noncompliance and 
proceeded and closed 154 civil penalty cases. Do you know how 
that stacks up with previous 5-year periods? Is it more? Was it 
less?
    Mr. Slitor. No, I do not know. I will----
    Mr. Andrews. Could you get that for us for the record?
    Let me just say, Mr. Chairman, in closing, one concern that 
I have is that any time someone gets sort of too far away from 
their core business it raises some concerns. I mean no 
disrespect to any of the agencies here, but one of the things 
that struck me about the testimony this morning is that we have 
a federal agency whose core business is worker safety, which is 
OSHA.
    And in 1979 OSHA decided, in conjunction with the Coast 
Guard, that it would sort of get out of that business and the 
Coast Guard would get into it. And there there is some 
arrangement, although I didn't quite precisely state it, where 
in 2003 the Coast Guard decided that it will at least share 
that responsibility with Mr. Slitor's agency.
    One of the things we ought to take a look at is whether, 
you know, the core business of the two agencies doing these 
inspections is really close enough to the job they have been 
given to do.
    Chairman Miller. Well, I think the gentleman--if the 
gentleman would yield just quickly--raises a very important 
point. In 1979 this industry, for the most part, did not exist. 
We were still operating off technology from the 1950s and 1960s 
on the outer continental shelf very close in, for the most 
part.
    I have had oil company CEOs tell me that when you make this 
decision you are betting the company; you are betting the 
company to go into this deep water, whether you go in Brazil, 
or you go in Nigeria, or you go in the Gulf of Mexico. And 
there is a huge amount of pressure on the oil executives, on 
the workers, on the safety organizations, and others.
    But that primary mission, I think you are right, has to 
somehow--it has to be walled off because they have an 
obligation to workers who are put in very difficult situations. 
I have been in these worksites as a worker and as a member of 
Congress. This is a tough place to do work. These are 
remarkable people who can do it on a constant basis, and I 
think you raised some important issues.
    Mr. Cassidy?
    Mr. Cassidy. Thank you, Mr. Chairman.
    Dr. Michaels, the--I am looking here at a CRS report--
Congressional Research Service--speaking about oil and gas 
industry safety statistics, and as I gather, as it turns out, 
the chairman characterized it as inherently dangerous, and I 
suppose any such industry is, but I will point out that the oil 
and gas extraction industry has an injury rate that is 
significantly lower than other industries, and yet you use the 
term, which I really like, concept of low incident but high 
impact. And I think you also put that in context that if it is 
low incidence, high impact, oftentimes that it is a confluence 
of--did you say human error, mechanical error, or how did you 
put that?
    Mr. Michaels. Well, it is a combination of factors. There 
are existing conditions--physical conditions and then, you 
know, individual decisions that are made--that lead to these 
disasters.
    Mr. Cassidy. So, I am a physician, so my mind kind of, of 
course, will come from whence it comes, and I have noticed that 
in health care no matter how many systems you have, if you have 
somebody that makes a series of bad decisions, that oftentimes 
a terrible incident will occur despite good systems, despite 
everybody else behaving with proper concern. And I gather that 
by analogy that is almost what happens in these low frequency, 
high impact sort of conditions, or can be part of it?
    Mr. Michaels. I don't know if we can generalize across the 
board, but when we look back, for example, at BP Texas City, 
which was a disaster which has been well researched, we saw 
that there were a number of systems that were not put into 
place that would have--or a number of decisions that were made 
over the course of several years that, had they been made 
differently, would have avoided the death toll there. And then 
there was operator error that--and conditions, essentially, the 
malfunctioning of machinery that measured the operator error, 
so the operators didn't know that they had made the mistake.
    So those combination of things led to this event. And so 
from a safety point of view----
    Mr. Cassidy. Let me interrupt you, just--of time. So one of 
the things that is very, kind of, weird here is that BP is on 
the rig to give a safety award.
    Mr. Michaels. Right.
    Mr. Cassidy. Steven Newman, who is testifying in Energy and 
Commerce, has had a time-out rule, that anybody on trans-ocean 
rigs could call time-out if they thought there was a safety 
issue. And yet, our concern is that there was an absence of 
attention to safety.
    And is there a way to reconcile the two, where there is a 
rig with great safety records, and an operator with the time-
out rule, and an industry standard which has fewer injuries 
relative to other industries, and yet, here--boom, this 
happens. Now, how would you interpret that?
    Mr. Michaels. It is obviously complex. First, it is 
important to separate out personal safety issue, which is the 
injury and illnesses, versus process safety. And that is now 
fairly well understood by safety experts, though people still 
often conflate the two.
    Within that, though, we know from looking at some of these 
events that you have to have multiple levels of safety, or 
multiple protections in place. And apparently in the Deepwater 
Horizon a number of the things that should have stopped the 
blowout from occurring didn't work, and obviously we are still 
trying to figure out exactly what that was.
    But then, even if you have a situation where workers 
understand they can, you know, call a time-out or things like 
that--and I don't know if that was true or not--but if they can 
do that, there are still decisions made--production decisions 
that are made--you know, how long should we let this cement 
harden, for example----
    Mr. Cassidy. So both systems failures and personal 
failures.
    Mr. Michaels. Exactly.
    Mr. Cassidy. Now, one of the concerns is that there is an 
absence of regulation, but I am struck, Mr. Slitor, that your 
agency, in 2002, issued new rules and within the year of 
issuing the new rules you had a 285 percent increase in what, 
INCs, or something--2006 incident reports per year.
    Mr. Slitor. Right.
    Mr. Cassidy. So it appears that both you have the 
regulations and that you were doing the job if you were 
suddenly reporting roughly 500 incidents per year. Is that a 
fair statement?
    Mr. Slitor. It needs to be qualified. That 285 percent 
increase was the result of redefining the reporting threshold. 
So it----
    Mr. Cassidy. So you lowered the threshold, therefore that 
which was previously acceptable now no longer was.
    Mr. Slitor. Correct. We wanted to know more of what was 
going on out there and we----
    Mr. Cassidy. So, and this is under 2006. I think one of the 
concerns is that the previous administration relaxed rules, but 
in terms--it actually seems as if they actually lowered the 
threshold by which violation would take place.
    Mr. Slitor. No, not by which violation would take place. We 
are talking about the requirement upon the operator to report 
incidents.
    Mr. Cassidy. Okay.
    Now, and, Admiral, again, one of the concerns that I think 
my colleague raised a good point: Should we take your safety 
inspections and give it OSHA, which has kind of a dedicated 
responsibility for worker safety, and yet here are you all and 
I see that it is part 142 of Title 33 includes regulations 
relating to workplace safety and health on the OCS.
    Do you think you do a good job? I will just say, again, it 
looks like the industry is actually safer than other 
industries, which, if your end point is safety I would say you 
would, but I would just like your take on that.
    RADM Cook. Congressman, I would say we could always 
improve, but I think the Coast Guard is the right agency to be 
looking at safety of vessels. We understand the maritime 
context better than any other agency within the government, so 
that when we inspect a mobile offshore drilling unit inside a 
fire cell that is navigationally, structurally, firefighting, 
lifesaving--all that stuff is right and is safe, and then they 
move into the drilling or production phase, you know, that is a 
little bit of a different world. But as far as determining 
safety and health in a maritime context for ships of all types, 
including mobile offshore drilling units, I think the Coast 
Guard is the right agency.
    Mr. Cassidy. Mr. Chairman, thank you for the indulgence. I 
yield back.
    Chairman Miller. Thank you.
    Mr. Hare?
    Mr. Hare. Thank you, Mr. Chairman.
    Dr. Howard, I have a question for you here. I have been a 
longstanding supporter of the work that NIOSH does to enhance 
worker safety across the board, and first of all, let me thank 
you for the work that your organization does to ensure that 
workers on the ground are protected.
    I wonder if you could tell me in what way that your 
education resource centers have been called upon to assist in 
this disaster. For example, I know the students of the 
University of Illinois at Chicago have recently been trained in 
hazardous waste cleanup, which is directly applicable to 
current efforts in the Gulf, and is there more that can be done 
to leverage their expertise, research ability, and training 
capacity to perhaps increase their role for future disasters 
such as the Deepwater Horizon?
    Dr. Howard. Yes, sir. We have, as you know, 17--we fund 17 
education and research centers throughout the United States, 
and I think that the expertise within those centers should be 
tapped. In this situation we have tapped some of that expertise 
informally.
    One of the issues that the National Institutes of Health 
director announced on the 15th was money available to look at 
human health effects. I hope that that money is made available 
through requests for applications for these institutions that 
not only we fund but superior academic institutions in the Gulf 
region so that they are able to participate in the research 
that needs to be done following this incident on human health 
effects.
    Mr. Hare. As the chairman mentioned, I am glad that you are 
having this list because we have already seen reports of people 
going to the hospital who are complaining of all kinds of 
problems that they have had, and I am concerned with some of 
the dispersants that are being used in terms of how toxic are 
they, you know, people getting sick down the road from this. I 
mean, this is going to be a very, very long process of cleaning 
up and--you know, probably years.
    And I think the important thing, as the chairman mentioned, 
is being able to, you know, have a list of people so that if 
there is a problem--a health problem--we can address it. I 
mean, it would seem to me that if we didn't do that that would 
just, you know--it is beyond belief to me.
    Mr. Slitor, it is my understanding and the committee's 
understanding that the inspector that went on the Deepwater 
Horizon had only been on as an inspector for 4 months. Is that 
correct--he had 4 months experience?
    Mr. Slitor. Are you speaking of the last inspection?
    Mr. Hare. Correct.
    Mr. Slitor. That is not my understanding.
    Mr. Hare. Okay.
    Mr. Slitor. My understanding is the inspector that was on 
there the last time has been a long-term employee of MMS.
    Mr. Hare. All right. If you could just double check that 
for me, I would be interested to see.
    Mr. Slitor. Sure.
    Mr. Hare. The other thing--and I just want to make sure I 
heard you correctly--you said when you are putting together 
this inspection thing that the oil producers help develop the 
inspection process. Is there anybody else that you think ought 
to be brought into the mix besides the people on it?
    Because I guess the one thing that concerns me is we have 
heard, again, reports about inspection reports being done in 
pencil and then being written over in ink. So if these folks 
are writing their own inspection reports and then somebody is 
tracing over them, you know, I don't know whether that is 
factual or not, but I am just saying that is very disturbing to 
me and I think to a lot of people.
    So, you know, it is sort of these guys are helping to write 
their own inspection things for you guys to go in and inspect. 
You know, I mean----
    Mr. Slitor. Well, I would understand your concern and we 
would share that, certainly, if we found that to be the case. 
But we are talking about two different things going on here.
    The industry standards groups that write recommended 
practices--these are highly vetted and rigorous procedures for 
doing this. Their sole goal is to develop practices for all of 
industry that speak to safety of either devices, equipment, 
methods, and we review--we sit on a number of these, not as a--
member, but they are interested in our contribution as a 
regulator. So we are involved and we tell them of our concerns 
along the way as these are developed.
    Mr. Hare. I just have one final question. I know I am 
running out of time.
    If you or Admiral--if you folks are inspecting any one of 
these and your inspectors see something that, in their 
professional opinion, could be very, very troublesome here--in 
other words, have some serious consequences--do you have the 
authority to shut that well down?
    Mr. Slitor. Without a doubt, sir. Without a doubt.
    RADM Cook. Same for the Coast Guard, sir.
    Mr. Hare. Okay. Well, I am glad to hear that. Thank you so 
much.
    Thank you, Mr. Chairman.
    Chairman Miller. Thank you.
    Mr. Guthrie?
    Mr. Guthrie. Thank you, Mr. Chairman.
    And thank you. What Congressman Hare brought up is 
important. And I think that what the chairman and the ranking 
member said earlier about precertifying being ready--
Congressman Hare brought up dispersants, and one of the 
frustrating things amongst several things that people I have 
talked to have with the response from the administration's side 
of it is we put dispersants into the water, we are all hoping 
it is going to disperse the oil and be successful, and then we 
find out it is got human or other environmental impacts of its 
own.
    And I guess my question is, did we know those threats were 
there but it was viewed--a decision was made to use a 
dispersant knowing the environmental impact it would be 
better--the worse impact would be to not use the dispersant, or 
did we just use something and then figure out there is a 
problem later--we were just completely unprepared for this kind 
of oil spill we are using dispersants?
    RADM Cook. Congressman, I will go ahead and answer your 
question not on a true, technical, scientific basis, but the 
procedures in the National Contingency Plan require that the 
regional response team, which is Interior, EPA--Coast Guard and 
EPA co-chair it--and each region of the--federal region of the 
country--they have to authorize the use of dispersants before 
they can even be applied.
    In this case, the Gulf Coast plans already had preapproved 
use of the dispersants and the actual dispersant that was used, 
the Corexit. And that was done with the full knowledge and 
basis of testing that had to support its approval done in 
advance, so it was thought at the advance approval time that 
the impact of the dispersants would be less than the hazards 
presented by the oil making its way to the surface and reaching 
the beaches.
    Mr. Guthrie. But in reality it has been different, or are 
we still studying that?
    RADM Cook. Well, the authorization, even though it was 
preapproved, comes with a lot of testing that has to be done, 
and EPA is overseeing the continuous work on testing.
    Mr. Guthrie. Okay.
    I have a question for Mr. Slitor. In MMS the I.G.'s report 
was not flattering at all of the activities that MMS--that who 
has been regulating this industry--and so now I think you laid 
out in your testimony the process about MMS's investigation. Is 
there a conflict, or do you see a conflict, or how do you avoid 
a conflict of your agency and doing this investigation, which 
will look at the way your agency regulated the industry which 
has been brought into question, your performance by the I.G. 
report?
    Mr. Slitor. No, Congressman. I don't believe there is a 
conflict in this regard. The I.G. report, I believe, has found 
unethical behavior, without a doubt, and that is not--does not 
characterize our inspection workforce nor the intent of the 
people that do work in MMS.
    The people that are conducting the accident investigation 
are truly dedicated to finding out what is going on; they are 
very familiar with the processes, the equipment, and it is 
just--I know those folks, and it is their nature to get after 
the truth and how things went wrong.
    Mr. Guthrie. Good. I am glad you have confidence, because 
that is important that we do that. I appreciate that.
    And then one more for Dr. Howard: You did a--in your 
testimony--a speech--or your written testimony--in New Orleans 
based on registering and trying to--ensuring that we have a 
good documentation of workers who are exposed. And just, could 
you give a--I guess I have probably a couple of minutes left--
just an overview of what you were talking about, and are we 
registering--are we doing this correctly? And is there anything 
preliminary that you have seen in your studies already?
    Dr. Howard. The rostering effort thus far has resulted in 
nearly 15,000 workers being rostered. One question that we 
have, of course, is what is the real denominator?
    We have asked and been given BP's list of badged 
individuals. We are going through that list now to figure out 
what is the true denominator so we can have some idea whether 
we are 50 percent successful, 25 percent successful, or nearly 
100 percent successful.
    Some of the government agencies have asked for their 
individuals to be rostered. We are doing through electronic Web 
site for them.
    As everyone has noted this morning, one of the lessons of 
9/11 is that we did not have such a roster. It made any 
immediate or long-term follow-up of human health extremely 
difficult. So this is a primary mission of ours to get everyone 
rostered.
    Mr. Guthrie. Well, I am glad that all of you are taking our 
workers' safety very important as you move forward, and we 
appreciate that. That is very important we do so, and thanks.
    I yield back.
    Chairman Miller. Dr. Howard, why would this continue to be 
voluntary? Why would we allow a worker to go into the area 
without being rostered?
    Dr. Howard. Well, we don't have the legal authority to 
involuntarily ask individuals to roster, but we certainly----
    Chairman Miller. Well, don't hire the person, with all do 
respect.
    Dr. Howard. I am sorry?
    Chairman Miller. Don't hire the person.
    Dr. Howard. Well, the employer certainly has that ability.
    Chairman Miller. I mean, if we have learned something from 
9/11 it was these gaps turned out to be very costly for 
victims, for the government, for mitigators. Okay.
    Mr. Courtney?
    Mr. Courtney. Thank you, Mr. Chairman.
    First of all, I just wanted to say that for some people who 
have been critics of the government's response, I think Admiral 
Cook's opening remarks about the fact that 115 lives were saved 
because of the search and rescue response that the Coast Guard 
mounted immediately is something that shouldn't be forgotten, 
and I want to just again publicly thank the Coast Guard for 
their efforts at that time.
    One of the chairman's comments when he opened this hearing 
was the fact that in addition to sort of the cross-
jurisdictional issues that we are trying to figure out here 
today within the U.S. government there are also international 
maritime issues that add another layer of complexity to try and 
just sort out the rules here. This is a rig which was built in 
South Korea, operated by a Swiss company, under contract to a 
British firm, BP, flagged by the Marshall Islands, who 
contracts out its inspections to a private company.
    And, Admiral Cook, in your opening remarks--or your written 
remarks--you indicated that when the Coast Guard is doing its 
statutory certification for foreign vessels the flag state or 
authorized recognized organization working on behalf of the 
flag state carries out the inspections, tests, and surveys 
required to issue the statutory certificates, which I assume 
were submitted to the Coast Guard in the form of reports.
    Again, just in terms of who is doing the inspections, the 
initial certificates with a foreign-flagged rig, how is that 
working? How is that different than if it was a U.S.-flagged 
rig?
    RADM Cook. Mr. Congressman, and first let me just say thank 
you for acknowledging the lives saved there, and I think that 
is somewhat of a statement of the fact that the types of 
requirements the Coast Guard has for lifesaving equipment, and 
our inspection techniques, and things like that, validate that 
those were useful and helped save lives at the time.
    So I will try and drive down--and it is a little--it is a 
complex web, but in some terms it is called a safety net 
because we do have a flag state that has responsibilities, we 
have a recognized organization which, in this case, was the 
American Bureau of Shipping, which is an agency which 
specializes in maritime--almost like a maritime surveyor--and 
there are several of those throughout the world.
    There are very few of them, but they have a lot of 
expertise, and that is who has done the--they have been 
recognized by the Marshall Islands to carry out the 
certification inspections in their behalf.
    We, as the Coast Guard, represent the U.S. to the 
International Maritime Organization, where the foundational 
codes are developed, and we invest our best engineers and 
operational people to try and make those codes that are 
enforced throughout the world up to the standards of the U.S. 
So they have met the international mobile offshore drilling 
unit code, they were issued the right certificates, and then 
they presented themselves for inspection to the Coast Guard.
    We go on, we know what we need to look for to validate that 
the rig is up to standards, and if we have anything that we see 
out of the ordinary--you know, any kind of navigation thing, 
safety thing, firefighting, on and on--we are able to then dig 
further and we do what is called an expanded exam, and there is 
no limits to an expanded exam. You know, we could spend a week 
there if we needed to, but typically that is not necessary. So 
we make sure that they back up, proof is in the pudding, verify 
what has been presented to us.
    Mr. Courtney. Well, clearly the countries that a lot of 
these companies gravitate towards in terms of getting flagged, 
whether it is Liberia, Marshall Islands, Panama--I mean, they 
are going there sometimes for tax reasons, sometimes for other 
reasons, but flags of convenience, as they are referred to. I 
mean, there is certainly a concern that people have that the 
rules are not the same standards that the U.S. would apply.
    And one quick example, and maybe you can respond to it 
because it has been reported in the press, which is that the 
Marshall Islands permitted a dual command structure so that the 
sea captain on the rig was not the person solely in charge of 
decision at the time of the explosion, that there was a 
offshore installation manager who had, basically, concurrent 
authority with the sea captain.
    Again, press reports have suggested that that would never 
happen on a U.S.-flagged rig, and again, I just wonder if you 
could comment on that because, you know, that obviously would 
appear to be something that we have to accept under the rules 
of international maritime.
    RADM Cook. That split in responsibility between the vessel 
master and the offshore installation manager is allowable 
underneath the International Safety of Life at Sea Convention. 
So they did meet international standards. We at the U.S. signed 
up for that convention.
    In our own regulations we have continued to require that 
the master and the officer--the offshore installation manager 
be the same person, so his license is a master with an OIM 
endorsement. And I think that is one of the areas that we do 
need to explore further and, you know, consider all the aspects 
of having that split. The split does not take place until the 
drilling connection to the bottom takes place, but still, we 
need to know clearly who is in charge.
    Chairman Miller. Thank you.
    Mr. Loebsack?
    Mr. Loebsack. Thank you, Mr. Chair.
    This has really been pretty enlightening, I have to say. A 
little stressing, obviously, the lack of coordination that does 
exist at the federal level. I know everyone is trying their 
best to do what they can now after the disaster. I just see 
this truly as a national disaster, not just a regional or a 
local disaster, for a variety of reasons, but I appreciate all 
the work that you folks are doing.
    I would just like to focus a little bit again on sort of 
the post-disaster response. NIOSH and OSHA are working 
together, you said, Dr. Howard--is that correct--to develop an 
interim guidance. Is that what it is called--an interim 
guidance? Can you talk about that a little bit?
    Dr. Howard. Yes, sir. Both OSHA and NIOSH have been looking 
at all of the hazard profile in all of the exposure groups of 
workers involved with the response and then have been 
developing a comprehensive interim guidance for protecting 
workers and volunteers in the Deepwater Horizon response.
    Mr. Loebsack. Can you give us some specifics as to what 
that is, what that means, what are the different things that 
you are looking at?
    Dr. Howard. Well, there are a number of very important 
issues. Dr. Michaels mentioned the issue of heat stress. 
Fatigue, long hours is another important issue.
    The issue of personal protective clothing is an important 
issue. Clothing can exacerbate heat stress. The issue of 
respiratory protection is an important issue.
    So all of those issues we are trying to put together into a 
guidance that both agencies can stand behind, would be able to 
inform the Coast Guard, BP, all of the contractors, and others 
involved in the response.
    Mr. Loebsack. And what about psychological and mental 
stress?
    Dr. Howard. Clearly that would be in our guidance, too. 
First of all, long hours and fatigue add to stress, and the 
work itself can be very stressful--response work itself can be 
stressful.
    Mr. Loebsack. When might we have data--I assume you are 
collecting some kind of data at this point as far as the 
effects not only of the dispersants but the oil, and the fires, 
all the rest. When we will have data?
    Dr. Howard. We are not yet focused directly on the effects. 
Right now we are focusing on prevention, and so we have a 
tremendous amount of data about the exposures, and that is what 
we are focusing on.
    In addition, though, every report of a potential work-
related illness is followed up on by the medical detectives at 
NIOSH. Yesterday the Institute of Medicine convened a large 
meeting in New Orleans that both Dr. Howard and I participated 
in to think about how to collect data on effects into the 
future, both physiologic and psychological effects, and that 
process is just beginning.
    To this point there aren't too many effects other than 
mental health-related. We believe that the physical effects we 
know a great deal about what is going on right now, and 
fortunately they are still limited, but we need to follow up on 
that.
    Mr. Loebsack. Do you know how many workers have reported 
illnesses that may have resulted from the cleanup work? Do we 
have specific numbers on that?
    Dr. Howard. Dr. Michaels mentioned several hundred workers 
had reported symptoms. I believe that was one of the issues. A 
lot of workers report symptoms of odors--hydrocarbon odors--a 
lot of workers report heat-related illnesses and have sought 
medical attention. The department has a mobile unit--medical 
unit--in Venice, Louisiana, and we have had over 178 visits to 
that both from workers as well as residents in the area.
    Mr. Loebsack. And I guess sort of going back to the 
whistleblower issue but something broader than that, and that 
is workers feeling free to report when they are injured or when 
they are suffering illnesses. How are we doing on that post-
disaster, at this point?
    Dr. Howard. That is a very important issue. We have gotten 
one formal whistleblower complaint so far, which we are 
following up on. We have been very clear to the public, to 
workers, and to BP that workers should feel free to call us.
    BP has said workers are free to call, but I think this is a 
message that we have to repeat over and over because we aren't 
everywhere all the time, and I think people already are feeling 
very stressed and very concerned about their future, their 
employment, their income, their families. And I think this is 
an issue we will have to deal with, you know, as long as the 
cleanup goes on, and we have to play a proactive role in 
encouraging people to call us.
    Mr. Loebsack. And making sure that they are free and that 
they--or they won't be fired, or whatever the case may be.
    Dr. Howard. And if we find an example of that to make a 
public shaming of the company involved. And we have had 
examples so far where subcontractors have done things that are 
clearly against our regulations--for example, charging roofers 
for protective equipment which should be free.
    And together with BP we have made it very clear to that 
company that is wrong; those companies have publicly said, ``We 
are wrong,'' and reimbursed the workers, and done it in a way 
that they won't do it again. And so we have to be on the case 
on this. This is a real concern.
    Mr. Loebsack. Thank you.
    Thank you all.
    Thank you, Mr. Chair.
    Chairman Miller. Thank you.
    We currently have votes on the floor. My intent is before 
we go to the vote to recognize Ms. Chu, Mr. Polis, and Ms. 
Hirono. So we are going to try to do that now, and I think that 
means we will not be coming back unless somebody lets the chair 
know.
    Congresswoman Chu?
    Ms. Chu. Thank you, Mr. Chair.
    I wanted to ask questions about heat illness. I authored a 
heat illness bill for farm workers in California, and as far as 
I know it is the only state with worker protections against 
heat illness. In California it is mainly a dry heat, but I can 
imagine how much it is aggravated on the Gulf Coast and what it 
must be like now in June,. and what it will be like in the 
upcoming months of July and August.
    Now, I understand that the workers in the Gulf are working 
20 minutes and then resting 40 minutes. Is this true, and did 
OSHA set up this schedule? Or how was this schedule determined 
and how is OSHA enforcing this rest break, Dr. Michaels?
    Mr. Michaels. First, Congresswoman, I want to thank you for 
your work on heat in California. You led the nation and I hope 
we and other states will be able to follow you as well.
    Heat is a very important issue. Every year between 20 and 
40 workers lose their lives to heat in the country. Far more 
people are made ill, as well, and as we said before, that is a 
very significant issue on the coast. We have had well over 100 
reports of heat illness with some people being sick at some 
medical facilities as well.
    There is a matrix that has been put together by BP and the 
Interstate Command which goes through the working conditions 
based on temperature, relative humidity, and the clothes that 
people are wearing. If people are wearing chemical-resistant 
clothes--you know, boots, gloves, and Tyvek outfits--it is--in 
hot weather--it is very difficult to work.
    And so in those requirements workers work 20 minutes on and 
then 40 minutes in the shade being rehydrated. If it is a lower 
temperature or they are not wearing certain equipment it can be 
30-30 or it could be 40-20. And so it depends.
    We insist that--OSHA is enforcing that to our--not through 
issuing citations, but saying, ``This is what we insist on,'' 
and there is no disagreement across the entire operation that 
that is the way it must be, because we really are afraid of 
people being seriously made ill or killed by this, because it 
is a really hazard. I know some people don't take it as 
seriously as we do.
    In addition, there are now medics at every one of the 
staging areas to take pulses, to look at workers, to tell them 
to get out of the sun when they think that there is a problem, 
to talk to people about symptoms, to ensure that they are 
protected. So this is actually the example of sort of the way 
we are working right now. We don't have a heat standard, and it 
would be difficult for us to enforce a heat standard using 
citations.
    On the other hand, because of the nature of where we are 
working we say, ``This is what must be done,'' and everybody 
does it. So I think that is actually working pretty well.
    Ms. Chu. In my bill we also had requirements for water, 
access to shade, and training for employees to learn how to 
prevent heat illness. Do you have any of those elements in 
there?
    Mr. Michaels. All of those things about heat is in the 
training now, shade--in fact, when I was down there recently 
there were complaints that the shade areas were not closely 
enough--situated closely together and so that was then changed; 
they were put at much more close intervals on the beach so 
workers could get to those more quickly. And lots of hydration 
is available and people are really regularly reminded they must 
drink a lot.
    Ms. Chu. Very good.
    Just to switch to a different topic, I have a concern about 
the Vietnamese-American fishermen that are down there. About 
one-third of the fishermen are Vietnamese, and many of them are 
linguistically isolated--that is, they speak primarily 
Vietnamese.
    We know that there are very difficult emotions they are 
feeling now--hopelessness, and depression, and even suicidal 
thoughts. So, Dr. Howard, what is the availability of 
Vietnamese-speaking mental health professionals and literature, 
and what is being done to address the mental health effects of 
the Vietnamese fishermen population and on their families, too?
    Dr. Howard. Certainly that issue is extremely important for 
all workers, and clearly what we are doing in terms of 
education is getting our materials in English, Spanish, and 
Vietnamese. The part of HHS that does behavioral health 
support, SAMHSA, is very much involved in the Gulf, and we are 
working with state and local health departments on that issue 
to make sure that none of the linguistically challenged folks 
are unaware of the issues related to stress as well as heat and 
other hazards.
    Ms. Chu. And is there any monitoring to determine whether 
there are enough mental health professionals that speak the 
language?
    Dr. Howard. We are doing that now actively with state 
health departments to make sure that there is enough personnel 
available. I don't have an answer for you today, but I would 
say that we can follow up with you about that.
    Ms. Chu. I would appreciate that.
    Chairman Miller. Mr. Polis?
    Mr. Polis. Thank you, Mr. Chairman.
    I want to talk--some questions for Dr. Michaels and Rear 
Admiral Cook. First, you know, a little history: Valdez Crud 
was the nickname that was given to the sickness experienced by 
cleanup workers, which Exxon attributed to a cold or flu. I 
have to say that I found it incredibly troubling that during 
the Exxon Valdez spill Exxon argued that their cleanup workers 
simply had a nasty flu that was spreading throughout their camp 
accounting for symptoms that just happened to be more closely 
aligned with high chemical and crude oil exposure.
    Now, unfortunately, that so-called flu, for many Exxon 
Valdez cleanup workers, lasted over 20 years. That is a long 
flu. And I think it is time that we realized that cleanup crews 
are being exposed to unhealthy chemicals and toxins that can 
have debilitating long-term health effects.
    Now, here we are today, 20 years later, but most troubling 
of all, we are watching history repeat itself and we seem to be 
learning too little from the past disasters. Just weeks ago we 
saw BP taking the strategy page right out of Exxon's book by 
saying they are the same common symptoms with the result of 
food poisoning.
    BP's Tony Hayward said: I am sure they were genuinely ill, 
but whether it had anything to do with dispersants in oil, 
whether it was food poisoning or some other reason,'' et 
cetera. Exxon said of this disaster that the illnesses were a 
flu-like upper respiratory illness that spread because of 
crowded living conditions.
    I would like to ask why you think a company in Exxon or 
BP's position would want to link common symptoms of crude oil 
and chemical exposure to a virus or food poisoning no matter 
how obvious the linkage to toxic exposure the symptoms could 
be.
    Mr. Michaels. You know, I can't speak to BP's motivation, 
but we see over and over again situations where workers--even 
where workers are injured, fairly the worker is blamed. I mean, 
at BP Texas City the initial response of BP was to fire the 
workers involved, and only after there was an investigation 
that was done it was shown they weren't--you know, they did 
make mistakes, but they weren't at fault at all because of the 
way the system works, and they were actually rehired again with 
apologies made.
    The issue, though, of figuring out what illnesses are 
associated with the exposure is a very tough one. You know, we 
have long-term OSHA rules on what is recordable, but what is 
going on in the Gulf now is any time a worker reports a 
condition that they believe to be work-related--either reports 
it to us, reports it to NIOSH, to BP, or through one of the 
health surveillance systems that Dr. Howard works on, that goes 
into the system and the medical detectives from NIOSH actually 
investigate it, because we have learned from Exxon Valdez. We 
need to run down every one of these cases.
    Mr. Polis. Now, a follow-up question there: It is my 
understanding that there is a clause that specifically states 
that under OSHA cold and flu will not be considered work-
related, so is there any concern that throwing into question 
these symptoms' linkage to toxic exposure could limit your 
ability to investigate?
    Mr. Michaels. I don't think so. I mean, officially it is 
not recordable because the way we--what is useful--you know, we 
take recordable conditions consist. But in this situation we 
are running down every report of an illness, and this may lead 
to changes in the way we record injuries, but certainly I think 
in this case we are not construing these as any less valid than 
any other reports.
    Mr. Polis. Admiral Cook?
    RADM Cook. Just briefly, Congressman, you know, I am 
sitting here wearing the uniform trying to represent all 
aspects of the Coast Guard. We receive our medical support from 
the public health service, so we have an admiral on staff in 
the public health service who is our chief medical officer, and 
he has just spent the better part of the last week in the Gulf 
in the same meetings as our two doctors here, and--because we 
are so interested, too. So I think there has been some learning 
that has gone on over the years as far as getting in there and 
trying to assess the impact of workers quickly.
    Mr. Polis. Well, I want to encourage you all to look at the 
lessons that we have learned in the last 20 years from the 
Exxon Valdez incidents. We really can't let history repeat 
itself, and we need your agencies to be very vigilant in that 
cause.
    And I yield back.
    Chairman Miller. Ms. Hirono?
    Ms. Hirono. I would appreciate short answers because we are 
running out of time.
    Dr. Michaels, in October Secretary Solis suggested imposing 
a fine of $87 million on BP. Has BP paid that fine?
    Mr. Michaels. No. We are still in settlement negotiations 
with them.
    Ms. Hirono. But you intend to pursue that to the----
    Mr. Michaels. We are pursuing it.
    Ms. Hirono [continuing]. Ultimate degree?
    Mr. Michaels. But more importantly than the fine, we want 
the hazards abated, and that is----
    Ms. Hirono. Sure, they need to make the changes at--I take 
it at the Texas refinery?
    Okay.
    Mr. Slitor, you said in your testimony that after larger 
disasters, which this is, there is a panel investigation done. 
Was a panel investigation done after the Texas disaster where 
15 people died and 170 people were injured?
    Mr. Slitor. None that we were involved in. That isn't 
within our jurisdiction. We have from three miles out--you are 
speaking of the Texas refinery?
    Ms. Hirono. Yes.
    Mr. Slitor. No. We do not have jurisdiction----
    Ms. Hirono. So who does the investigation on that, and 
shouldn't there be some lessons learned because they were 
talking about the same company?
    Mr. Michaels. OSHA investigated and the Chemical Safety 
Board did a very extensive investigation. We have--and the 
Baker Commission--we have lots of lessons learned; the problem 
is applying them.
    Ms. Hirono. You said that could have been applicable--that 
applies?
    Mr. Michaels. I think there are several, yes.
    Ms. Hirono. Apparently the MMS people didn't get it, right? 
So this, again, speaks to the need for coordination, and I 
would think that after the Texas disaster that maybe that would 
have led to some cooperation and coordination, and if it 
didn't--and I know that you are all sitting here saying that 
you are going to be collaborative and all that--how can we be 
assured, because after a huge disaster that happened with BP in 
their Texas refinery if this didn't happen how can we be 
reassured that you are, in fact, going to coordinate response 
and do all the things that we would like you to do?
    Mr. Slitor, would you like to respond to that?
    Mr. Slitor. I can respond to part of that. We have no 
authority over the refinery activity, but I would imagine that 
the lessons learned from that among our three bureaus will be 
shared on the applicable points to this particular disaster.
    Ms. Hirono. Especially as I am seeing even with the same 
company that seems to have had a lengthy record of safety 
violations and all that, which leads me, Mr. Slitor, to my last 
question. I do have more, but we are out of time. You mentioned 
in your testimony there are over 12,000 INCs for violations of 
your requirements, regulations. How many of those involve BP?
    Mr. Slitor. I would have to get back to you. I don't know 
how many involve----
    Ms. Hirono. So before this testimony, knowing that we were 
going to be focused on BP, you didn't happen to look to see how 
many of these citations involve BP?
    Mr. Slitor. No.
    Ms. Hirono. You will get that to us?
    Mr. Slitor. I can get that to you.
    Ms. Hirono. Thank you.
    Chairman Miller. Thank you very much. I would just say, I 
know this sounds like a lot of lack of coordination, what have 
you. As one who was present on-site at the Exxon Valdez for a 
considerable period of time, this is a different world. Workers 
there who would face down in the oil were told to get up and go 
to work or get fired, and this went on over, and over, and 
over, and over again, and with little discussion that is now 
taking place.
    You know, this accident happened in one of the most 
sensitive environments, complex environments in the entire--
obviously in the entire United States, with the Gulf and the 
Delta regions of that area. We all understand the magnitude of 
this spill and the rest of that, but the fact of the matter is 
that we are now, in real time, talking to workers, and workers 
have a place to report, I think, it is really a testimony to 
how far we have come from 9/11, Katrina, Exxon Valdez, to 
today, and I want to appreciate that coordination.
    We are trying to figure out--it is not just a question of 
coordination, but we really have--we remove the barriers to the 
expertise being applied where it should, and that is not a 
process of second guessing. This is an opportunity to learn, as 
we have said. We are referring back to laws from 1953, 1979, 
1983.
    It is a different world out there today in disaster 
response, in worker safety, in the complexity of these work 
sites. Today, here, what is the human safety problem can become 
an environmental problem rapidly because when something goes 
wrong on one of these rigs that ordinarily it would injure 
somebody, it would be confined--like in my hometown, the 
refineries, it can get out of hand rather rapidly. And so these 
crossovers here are difficult, jurisdictionally, to deal with.
    We never thought we would ever use this much dispersant at 
one time. That decision is far different than the initial one, 
while it may be helpful in the short run.
    Anyway, I really appreciate your cooperation with the 
committee. We are going to come back to you. I am very, very 
concerned about the process management rule being expedited. I 
know there is some pressure to get it done. I think we had 
better pause a moment here and see if this is really the rule 
that we want in place and that will work, given the magnitude 
of this tragedy.
    So with that, all members will have 14 days to submit 
additional materials and questions for the hearing record. And 
again, thanking the witnesses for your time and your expertise 
and your experience, the hearing will stand adjourned.
    [The statement of Mr. Payne follows:]

    Prepared Statement of Hon. Donald M. Payne, a Representative in 
                 Congress From the State of New Jersey

    Thank you Mr. Chairman.
    The BP Deepwater Horizon tragedy has been labeled as one of the 
worst environmental disasters in the nation's history. On April 20, 
2010, the lives of 11 workers were lost and fifteen others were injured 
as a result of neglect from BP.
    The BP Deepwater Horizon has had a devastating impact on fisheries, 
wildlife, and tourism in the Gulf Coast, among other things. Included 
in the many concerns is the health and safety of workers employed to 
clean this disaster.
    There have been roughly 25,000 workers engaged in the Gulf Coast 
oil spill cleaning effort, which is expected to extend into the coming 
months and years. As the focus on ending and cleaning the spill 
continues, we must not neglect the health and safety of workers.
    According to the Centers for Disease Control and Prevention, long 
term exposure to dispersants can cause central nervous system problems, 
or do damage to blood, kidneys or livers. In the sixty-five days since 
the Deepwater incident, there have been reports of flu-like symptoms 
and respiratory problems from workers. Emergency room doctors and other 
physicians in the Gulf Coast continue to see a pattern of symptoms 
among patients who work closely with the cleaning efforts. This has led 
to the investigation of the long term impact of this spill on workers.
    BP is ultimately being held responsible for all things related to 
this disaster; however, our current catastrophe is a result of a breach 
in responsibility on BP's part. Today, we will examine the 
responsibility of federal agencies to worker safety and health in this 
oil spill clean up.
    The Occupational Safety and Health Administration (OSHA), United 
States Coast Guard and the Minerals Management Service (MMS) all hold a 
portion of responsibility in ensuring worker safety. I look forward to 
examining how these agencies are currently fulfilling their 
responsibilities to health and safety for workers tasked with cleaning 
the BP Deepwater Horizon disaster. Additionally, I hope we can explore 
how the assignment of personnel to the Gulf is affecting enforcement 
activities elsewhere.
    Thank you.
                                 ______
                                 
    [Additional submissions of Mr. Miller follow:]

                   U.S. Department of the Interior,
       Bureau of Ocean Energy, Management, Regulation, and 
                                               Enforcement,
                                  Washington, DC, October 01, 2010.
Hon. George Miller, Chairman,
Committee on Education and Labor, House of Representatives, Washington, 
        DC 20515.
    Dear Mr. Chairman: Thank you for your letter dated June 25, 2010, 
to the Interior Secretary Salazar, cosigned by Chairman, Committee on 
Natural Resources, Nick J. Rahall, II, requesting that the Bureau of 
Ocean Energy Management, Regulation and Enforcement (BOEMRE) work 
closely with the Occupational Safety and Health Administration (OSHA) 
in the development of new Safety and Environmental Management System 
(SEMS) regulation. As Director of BOEMRE, I have been asked to respond 
on the Secretary's behalf. A similar response is being sent to Chairman 
Rahall.
    I have meet with OSHA Assistant Secretary David Michaels on two 
separate occasions on issues of mutual interest, including rulemaking, 
and our staffs have engaged in a productive dialogue. We have developed 
the SEMS regulation and expect to publish it in the near future. During 
the process, we received valuable input from OSHA that we have 
considered in developing the rule.
    We anticipate the need for future rulemaking as the SEMS program 
evolves and will continue to work closely with OSHA. If you have 
further questions, please contact me at (202) 208-3500 or Ms. Lyn 
Herdt, Chief, BOEMRE, Office of Congressional Affairs, at (202) 208-
3502.
            Sincerely,
                                       Michael R. Bromwich,
                                                           Director
                                 ______
                                 
                                   [Via Facsimile],
                             Congress of the United States,
                                     Washington, DC, June 25, 2010.
Hon. Hilda Solis, Secretary,
U.S. Department of Labor, 200 Constitution Ave., NW, Washington, DC 
        20210.
Hon. Ken Salazar, Secretary,
U.S. Department of the Interior, 1849 C Street, NW, Washington, DC 
        20240.
    Dear Secretary Salazar and Secretary Solis: During our respective 
tenures as Chairman of the Natural Resources Committee, we have long 
advocated more rigorous oversight of the Minerals Management Service 
(MMS) (now renamed the Bureau of Ocean Energy Management, Regulation, 
and Enforcement (BOE)). This interest as only increased as a 
consequence of the Deepwater Horizon incident.
    Building on the series of hearings the Committee on Natural 
Resources has held this spring, the Committee on Education and Labor 
held a hearing on June 23, 2010, entitled ``Worker Health and Safety 
from the Oil Rig to the Shoreline'' that examined the frame work for 
worker health and safety oversight following the explosion and fire on 
the Deepwater Horizon in the Gulf of Mexico which killed 11 worker and 
injured 17. At this hearing, witnesses indicated that there had been 
only limited interaction between the Occupational Safety and Health 
Administration (OSHA) and MMS/BOE in the reviewing and proposed 
``Safety and Environmental Management Systems'' regulation, which 
covers worker safety on the Outer Continental Shelf (OCS). This rule is 
absolutely critical because it sets forth a systems approach to 
managing explosive and flammable materials throughout every function 
and decision involved in offshore oil and gas drilling and production 
processes.
    We are writing to urge the Department of the Interior to actively 
engage OSHA to seek that agency's expertise and experience on process 
safety management prior to issuing any final ``Safety and Environmental 
Management Systems'' regulation. In parallel, we urge OSHA to review 
proposed MMS regulation in light of its own experience in enforcing a 
similar safety management regulation, and to incorporate lessons 
learned from major oil rig disasters such as Piper Alpha rig explosion 
off the coast of the United Kingdom. OSHA's process safety management 
rule, which it finalized in 1992, served as the basis for an $87 
million proposed fine against BP at its Texas City refinery. The MMS 
proposed regulation and OSHA's rule share a common feature: both are 
focused on management systems to ensure hydrocarbons stay inside pipes 
in complex industrial processes such as oil rigs and refineries.
    While the purpose of the proposed MMS rule is laudable--to improve 
environmental and worker health and safety on the Outer Continental 
Shelf--we have some concerns that the rule is not comprehensive enough. 
It is based on the American Petroleum Institute's Recommended Practice 
75 (API RP 75), yet only includes 4 of the 12 provisions of that RP. 
However, following the Deepwater Horizon disaster, it is unclear 
whether the API's approach is sufficiently robust for developing the 
Interior Department's proposed rule, and it is imperative to assess 
whether the API Recommended Practice is sufficient. Furthermore, the 
proposed rule appears to exclude a number of the mandatory elements 
contained in OSHA's process safety management regulations, such as 
assessing hazards during startup and shutdown, incidents 
investigations, training for process safety management, and assessing 
the consequences of deviation from operating procedures. Notably, the 
proposed rule excludes any formal role for employee participation, 
whereas OSHA has expressed requirements for participation in process 
hazard analysis and access to information. While the proposed rule does 
not foreclose operators from adopting a more comprehensive approach on 
a voluntary basis, we want to be sure that there are no gaps in the 
regulatory safety net.
    We urge both of your agencies to complete this review and 
assessment as quickly as possible so as not to delay issuance of this 
regulation, which is already overdue. We also respectfully request that 
both agencies brief us once the BOE-OSHA review has been completed.
    Moving forward, the health and safety of OCS workers depends on 
maximizing interagency cooperation and expertise. Thanks you for your 
immediate attention to this critical matter.
            Sincerely,
                                   George Miller, Chairman,
                                  Committee on Education and Labor,
                                     Nick Rahall, Chairman,
                                    Committee on Natural Resources.
                                 ______
                                 
                 Executive Office of the President,
                           Office of Management and Budget,
                                     Washington, DC, July 29, 2010.

                             (House Rules)

                   Statement of Administration Policy

H.R. 5851--Offshore Oil and Gas Worker Whistleblower Protection Act of 
                                  2010
      (Rep. Miller, D-California and Rep. Markey, D-Massachusetts)

    The Administration strongly supports House passage of H.R. 5851, 
the ``Offshore Oil and Gas Worker Whistleblower Protection Act of 
2010,'' because it would provide important whistleblower protections to 
workers on the Outer Continental Shelf.
    All workers should be able to protect their health and safety by 
reporting violations of the law or workplace hazards without fear of 
retaliation from their employers. These protections are particularly 
important for workers whose lives depend on their employers' assurances 
of their safety. Congressional hearings have revealed that workers on 
the Deepwater Horizon offshore oil drilling platform had significant 
safety concerns, but feared they would lose their jobs if they spoke 
out. Whistleblower protections must be meaningful so that workers feel 
secure enough to speak up when they see hazards going unaddressed.
    There is currently no Federal law adequately protecting offshore 
workers who blow the whistle on worker health and safety hazards. While 
there are some protections for workers who blow the whistle on 
environmental or pipeline safety violations, these are not uniform. 
H.R. 5851 would extend strong whistleblower protections to workers on 
the Outer Continental Shelf, including workers who are part of a 
drilling or spill clean-up operation. The bill would accomplish this by 
prohibiting retaliation against workers who, among other things, report 
violations relating to the Outer Continental Shelf Lands Act or refuse 
to perform their duties based on the good faith belief that the work 
could result in injury or illness, or could cause public harm, such as 
an oil spill. H.R. 5851 also would provide that any covered worker who 
is a victim of retaliation be made whole by reinstatement, back pay, 
and compensatory and punitive damages.
    For these reasons, the Administration strongly supports H.R. 5851, 
and urges its swift passage.
                                 ______
                                 
    [Questions submitted for the record follow:]

                                      [Via E-mail],
                                             U.S. Congress,
                                     Washington, DC, June 25, 2010.
RADM Kevin Cook, Director,
Prevention Policy for Marine Safety, Security, and Stewardship, U.S. 
        Coast Guard, 2100 Second Street, SW, Washington, DC 20593.
    Dear Rear Admiral Cook: Thank you for testifying at the Wednesday, 
June 23, 2010, Committee on Education and Labor hearing on ``Worker 
Health and Safety from the Oil Rig to the Shoreline'' in Washington, 
DC.
    I have additional questions for which I would like written 
responses from you for the hearing record:
    1. What specific whistleblower protections are provided to private 
sector workers who are employed between the in-shore areas where OSHA 
has jurisdiction (shoreline to 3 miles out) and the Outer Continental 
Shelf, and are working on vessels, platforms, drilling rigs, MODUs, and 
support equipment that is covered under USCG worker safety and health 
regulations?
    2. What employees are covered, if any?
    3. Which employees are excluded, if any?
    4. Please name the specific statute or statutes and regulations 
that cover such employees for protected activity.
    5. What activity or actions are protected under such whistleblower 
statutes, and which is excluded?
    6. What agency adjudicates those claims?
    7. Is there an expressed right to refuse unsafe work and if so, 
where is that provided and to the extent that it is, what happens is 
there is retaliation?
    Please send your written response to Meredith Regine of the 
Committee on Education and Labor staff at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bad7dfc8dfded3ced294c8dfddd3d4dffad7dbd3d694d2d5cfc9df94ddd5cc">[email&#160;protected]</a> by COB on Wednesday, July 5, 2010--the 
date on which the hearing record will close. If you have any questions, 
please contact Ms. Regine at 202-225-3725. Again, we greatly appreciate 
your testimony at this hearing.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 
                                      [Via E-mail],
                                             U.S. Congress,
                                     Washington, DC, June 25, 2010.
Mr. Doug Slitor, Acting Chief,
Office of Offshore Regulatory Programs, Offshore Energy and Minerals 
        Management, Bureau of Ocean Energy, Management, Regulation, and 
        Enforcement, 1849 C Street, NW, Washington, DC 20240.
    Dear Mr. Slitor: Thank you for testifying at the Wednesday, June 
23, 2010, Committee on Education and Labor hearing on ``Worker Health 
and Safety from the Oil Rig to the Shoreline'' in Washington, DC.
    I have additional questions for which I would like written 
responses from you for the hearing record:
    1. What whistleblower protections are provided to private sector 
workers employed on the Outer Continental Shelf drilling rigs, 
platforms or related equipment who are covered under BOE safety and 
health regulations?
    2. What employees are covered, if any?
    3. Which employees are excluded, if any?
    4. Please name the specific statute or statutes and regulations 
that cover such employees for protected activity.
    5. What activity or actions are protected under such whistleblower 
statutes, and which is excluded?
    6. What agency adjudicates those claims?
    7. Is there an expressed right to refuse unsafe work and if so, 
where is that provided and to the extent that it is, what happens is 
there is retaliation?
    Please send your written response to Meredith Regine of the 
Committee on Education and Labor staff at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="94f9f1e6f1f0fde0fcbae6f1f3fdfaf1d4f9f5fdf8bafcfbe1e7f1baf3fbe2">[email&#160;protected]</a> by COB on Wednesday, July 5, 2010--the 
date on which the hearing record will close. If you have any questions, 
please contact Ms. Regine at 202-225-3725. Again, we greatly appreciate 
your testimony at this hearing.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 
                                      [Via E-mail],
                                             U.S. Congress,
                                     Washington, DC, June 25, 2010.
Dr. David Michaels, Assistant Secretary,
Occupational Safety and Health Administration, U.S. Department of 
        Labor, 200 Constitution Avenue, NW, Washington, DC 20210.
    Dear Assistant Secretary Michaels: Thank you for testifying at the 
Wednesday, June 23, 2010, Committee on Education and Labor hearing on 
``Worker Health and Safety from the Oil Rig to the Shoreline.''
    One of the Committee Members had an additional question for which 
he would like a written response from you for the hearing record.
    Congressman Dennis J. Kucinich (D-OH) asks the following question:
    I am gravely concerned about the immediate and long-term health 
effects of the spill and the clean-up operations on workers. The 
cleanup workers of the 1989 Exxon Valdez spill continue to suffer from 
their exposure to the crude oil and the dispersants used during the 
cleanup. The same is true of the 2002 Prestige spill in Spain. And we 
are all too familiar with the plight of the 9-11 workers
    I'd like to think that we have learned our lesson from these 
disasters and that the workers will not suffer from chronic diseases 
for the rest of their lives. Unfortunately, early indications are not 
promising. We are hearing reports of little or no personal protective 
equipment availability, exposure to volatile organic compounds, many of 
which are carcinogenic, exposure to dispersants--the composition of 
which we still don't know, and exposure to acidic gases and acutely 
toxic gases like hydrogen sulfide.
    Workers are considered to be the canary in the coal mine because 
what happens to them may also happen to other exposed to the same 
hazards. Dr. Michaels, you have an admirable history of advocacy for 
the public's health so I'd like to ask you this question;
    If we can't fully protect the workers, despite your efforts, how 
can we possibly protect all the potentially affected communities? I 
have in mind the coastal communities that will be exposed to airborne 
compounds at levels that are toxic but aren't detectable by normal 
smell; the oil droplets that get aerosolized into particles so small 
they go deep into the lungs where they can do major damage; the massive 
infusion of metals like lead and cadmium and polycyclic aromatic 
hydrocarbons into the marine ecosystem and therefore into the national 
food chain through bioaccumulation.
    Please send your written response to Meredith Regine of the 
Committee on Education and Labor staff at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fc91998e9998958894d28e999b959299bc919d9590d29493898f99d29b938a">[email&#160;protected]</a> by COB on Wednesday, July 5, 2010--the 
date on which the hearing record will close. If you have any questions, 
please contact Ms. Regine at 202-225-3725. Again, we greatly appreciate 
your testimony at this hearing.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 
                                      [Via E-mail],
                                             U.S. Congress,
                                     Washington, DC, June 25, 2010.
Mr. Doug Slitor, Acting Chief,
Office of Offshore Regulatory Programs, Offshore Energy and Minerals 
        Management, Bureau of Ocean Energy Management, Regulation, and 
        Enforcement, 1849 C Street, NW, Washington, DC 20240.
    Dear Mr. Slitor: Thank you for testifying at the Wednesday, June 
23, 2010, Committee on Education and Labor hearing on ``Worker Health 
and Safety from the Oil Rig to the Shoreline.''
    One of the Committee Members had additional questions for which she 
would like written responses from you for the hearing record.
    Congresswoman Dina Titus (D-NV) asks the following questions:
    Thank you to all the witnesses for being here today. While deep sea 
drilling is not a big issue in my state of Nevada, worker safety 
certainly is an important issue, and workers in Nevada have paid the 
price for lax safety oversight. It is important we keep workers safe 
during the oil spill clean-up, but I also want to focus on how we can 
prevent a situation like this from occurring to begin with and keep the 
workers on oil rigs safe at all times.
    1. You said earlier at this hearing that the number of MMS 
inspectors--especially those without ``substantial office 
responsibilities''--is not adequate to conduct all of the inspections 
MMS is responsible for.
    a. With this in mind, could you please give us a little history of 
your agency since the Memorandum of Agreement with the Coast Guard was 
signed?
    b. Specifically, has your agency grown appropriately to meet 
expanding need, has the budget increased correspondingly, and have 
personnel and resources been enhanced as requested by the agency?
    c. If not, why not?
    2. It seems that several government agencies have been coordinating 
and working well together on worker safety issues in the response to 
the oil spill.
    a. What has the role been of other entities, such as the Department 
of Homeland Security and state and local governments, in ensuring the 
safety of clean-up workers and the general public?
    b. What plans or efforts are being put in place now for the future 
role these groups will assume as more and more of the oil hits our 
shores?
    Please send your written response to Meredith Regine of the 
Committee on Education and Labor staff at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9bf6fee9fefff2eff3b5e9fefcf2f5fedbf6faf2f7b5f3f4eee8feb5fcf4ed">[email&#160;protected]</a> by COB on Wednesday, July 5, 2010--the 
date on which the hearing record will close. If you have any questions, 
please contact Ms. Regine at 202-225-3725. Again, we greatly appreciate 
your testimony at this hearing.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 
                                      [Via E-mail],
                                             U.S. Congress,
                                     Washington, DC, June 25, 2010.
Mr. John Howard, M.D., M.P.H., J.D., LL.M., Director,
National Institute for Occupational Safety and Health, Center for 
        Disease Control and Prevention, U.S. Department of Health and 
        Human Services, Suite 9200, 395 E Street, SW, Washington, DC 
        20201.
    Dear Director Howard: Thank you for testifying at the Wednesday, 
June 23, 2010, Committee on Education and Labor hearing on ``Worker 
Health and Safety from the Oil Rig to the Shoreline.''
    One of the Committee Members had additional questions for which she 
would like written responses from you for the hearing record.
    Congresswoman Dina Titus (D-NV) asks the following questions:
    Thank you to all the witnesses for being here today. While deep sea 
drilling is not a big issue in my state of Nevada, worker safety 
certainly is an important issue, and workers in Nevada have paid the 
price for lax safety oversight. It is important we keep workers safe 
during the oil spill clean-up, but I also want to focus on how we can 
prevent a situation like this from occurring to begin with and keep the 
workers on oil rigs safe at all times.
    1. It seems that several government agencies have been coordinating 
and working well together on worker safety issues in the response to 
the oil spill.
    a. What has the role been of other entities, such as the Department 
of Homeland Security and state and local governments, in ensuring the 
safety of clean-up workers and the general public?
    b. What plans or efforts are being put in place now for the future 
role these groups will assume as more and more of the oil hits our 
shores?
    Please send your written response to Meredith Regine of the 
Committee on Education and Labor staff at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="234e465146474a574b0d5146444a4d46634e424a4f0d4b4c5650460d444c55">[email&#160;protected]</a> by COB on Wednesday, July 5, 2010--the 
date on which the hearing record will close. If you have any questions, 
please contact Ms. Regine at 202-225-3725. Again, we greatly appreciate 
your testimony at this hearing.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 
                                      [Via E-mail],
                                             U.S. Congress,
                                     Washington, DC, June 25, 2010.
Dr. David Michaels, Assistant Secretary,
Occupational Safety and Health Administration, U.S. Department of 
        Labor, 200 Constitution Avenue, NW, Washington, DC 20210.
    Dear Assistant Secretary Michaels: Thank you for testifying at the 
Wednesday, June 23, 2010, Committee on Education and Labor hearing on 
``Worker Health and Safety from the Oil Rig to the Shoreline.''
    One of the Committee Members had additional questions for which she 
would like written responses from you for the hearing record.
    Congresswoman Dina Titus (D-NV) asks the following questions:
    Thank you to all the witnesses for being here today. While deep sea 
drilling is not a big issue in my state of Nevada, worker safety 
certainly is an important issue, and workers in Nevada have paid the 
price for lax safety oversight. It is important we keep workers safe 
during the oil spill clean-up, but I also want to focus on how we can 
prevent a situation like this from occurring to begin with and keep the 
workers on oil rigs safe at all times.
    1. You spoke of how the Deepwater Horizon incident was a ``low 
frequency, high consequence'' event. We have been dealing for decades 
with events that fit that description, including Three Mile Island. You 
also have pointed out that our current ways of measuring or predicting 
these events are inadequate. Is OSHA working on models of safety to 
prevent, and/or deal with such events?
    2. It seems that several government agencies have been coordinating 
and working well together on worker safety issues in the response to 
the oil spill.
    a. What has the role been of other entities, such as the Department 
of Homeland Security and state and local governments, in ensuring the 
safety of clean-up workers and the general public?
    b. What plans or efforts are being put in place now for the future 
role these groups will assume as more and more of the oil hits our 
shores?
    Please send your written response to Meredith Regine of the 
Committee on Education and Labor staff at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="432e263126272a372b6d3126242a2d26032e222a2f6d2b2c3630266d242c35">[email&#160;protected]</a> by COB on Wednesday, July 5, 2010--the 
date on which the hearing record will close. If you have any questions, 
please contact Ms. Regine at 202-225-3725. Again, we greatly appreciate 
your testimony at this hearing.
                                 ______
                                 
                                      [Via E-mail],
                                             U.S. Congress,
                                     Washington, DC, June 25, 2010.
RADM Kevin Cook, Director,
Prevention Policy for Marine Safety, Security, and Stewardship, U.S. 
        Coast Guard, 2100 Second Street, SW, Washington, DC 20593.
    Dear Rear Admiral Cook: Thank you for testifying at the Wednesday, 
June 23, 2010, Committee on Education and Labor hearing on ``Worker 
Health and Safety from the Oil Rig to the Shoreline.''
    One of the Committee Members had additional questions for which she 
would like written responses from you for the hearing record.
    Congresswoman Dina Titus (D-NV) asks the following questions:
    Thank you to all the witnesses for being here today. While deep sea 
drilling is not a big issue in my state of Nevada, worker safety 
certainly is an important issue, and workers in Nevada have paid the 
price for lax safety oversight. It is important we keep workers safe 
during the oil spill clean-up, but I also want to focus on how we can 
prevent a situation like this from occurring to begin with and keep the 
workers on oil rigs safe at all times.
    1. It seems that several government agencies have been coordinating 
and working well together on worker safety issues in the response to 
the oil spill.
    a. What has the role been of other entities, such as the Department 
of Homeland Security and state and local governments, in ensuring the 
safety of clean-up workers and the general public?
    b. What plans or efforts are being put in place now for the future 
role these groups will assume as more and more of the oil hits our 
shores?
    Please send your written response to Meredith Regine of the 
Committee on Education and Labor staff at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e18c84938485889589cf938486888f84a18c80888dcf898e949284cf868e97">[email&#160;protected]</a> by COB on Wednesday, July 5, 2010--the 
date on which the hearing record will close. If you have any questions, 
please contact Ms. Regine at 202-225-3725. Again, we greatly appreciate 
your testimony at this hearing.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 
    [Responses to questions submitted follow:]

      RADM Cook's Responses to Questions Submitted for the Record

    Question: What specific whistleblower protections are provided to 
private sector workers who are employed between the in-shore areas 
where OSHA has jurisdiction (shore to 3 miles out) and the Outer 
Continental Shelf, and are working on vessels, platforms, drilling 
rigs, MODUs, and support equipment that is covered under USCG worker 
safety and health regulations?
    What employees are covered, if any?
    Which employees are excluded, if any?
    Please name the specific statute or statutes and regulations that 
cover such employees for protection activity.

    Response: Coast Guard Workplace Safety and Health Regulations for 
Outer Continental Shelf Activities establish protections for any person 
making a report of an alleged violation of the OCS regulations, at 33 
CFR 142.7(c). This regulation makes clear, in relevant part, that as a 
safeguard the identity of any person making a report of violation of 
the Workplace Safety and Health regulations will not be made available 
to persons other than those tasked with investigating the report, 
unless the person making the report consents to being identified.
    Another general whistleblower protection for seamen is found at 46 
USC 2114(a)(1)(A). The statute states that ``[a] person may not 
discharge or in any manner discriminate against a seamen because--the 
seamen in good faith has reported or is about to report to the Coast 
Guard or other appropriate Federal agency * * * that the seamen 
believes that a violation of maritime safety law or regulation * * * 
has occurred. Enforcement of this provision is available in federal 
court. In addition, 46 USC 3115(a) prohibits any official of the Coast 
Guard from disclosing the identity of any individual that provides 
information on vessel defects, imperfections, and overall safety of an 
inspected vessel on which he or she is serving. This includes 
information on watch keeping and work hours.
    In addition, other general whistleblower protection clauses that 
may apply to private sector workers employed where OSHA has 
jurisdiction (shore to 3 miles out) and on the Outer Continental Shelf 
are found within federal environmental protection laws: the Clean Air 
Act, the Comprehensive Environmental Response, Compensation and 
Liability Act, the Federal Water Pollution Control Act, the Toxic 
Substances Control Act, and the Solid Waste Disposal Act. Lastly, the 
Pipeline Safety Improvement Act may also apply to such employees. The 
Clean Air Act (CAA), 42 USC 7622, provides protections for employees 
who report potential violations regarding air emissions from area, 
stationary and mobile sources into the air. The Comprehensive 
Environmental Response, Compensation and Liability Act (CERCLA), 42 USC 
9610 provides protections for employees who report potential violations 
regarding clean-up or uncontrolled or abandoned hazardous waste sites 
as well as accidents, spills, and other emergency releases of 
pollutants and contaminants into the environment. The Federal Water 
Pollution Control Act (FWPCA), 33 USC 1367, provides protections for 
employees who report potential violations regarding discharges of 
pollutants into the navigable waters of the United States or in 
connection with activities under the Outer Continental Shelf Lands Act, 
43 USC 1331 et seq. The Toxic Substances Control Act (TSCA), 15 USC 
2622, provides protections for employees who report potential 
violations regarding the testing and use of certain chemical substances 
and the mixture of chemical substances over which the Environmental 
Protection Act has authority. The Solid Waste Disposal Act (SWDA), 42 
USC 6971, provides protections for employees who report potential 
violations regarding the generation, transportation, treatment, 
storage, and disposal of all solid wastes, including those wastes 
determined to be hazardous wastes. (The materials used in the clean-up 
of the Deepwater Horizon oil spill are being treated as solid waste.) 
The Pipeline Safety Improvement Act (PSIA), 49 USC 60129, provides 
protections for employees who report potential violations regarding 
pipeline safety. Based on the definitions in the PSIA, it appears that 
rigs, such as the Deepwater Horizon, are pipeline facilities and, 
therefore, are subject to the PSIA. The implementing regulations for 
the whistleblower provisions in these environmental protection statutes 
are found at 29 CFR Part 24. The implementing regulations for the PSIA 
are found at 29 CFR Part 1981.
    If an employer is covered under one of the environmental protection 
statutes, it may not discharge or in any way retaliate against any 
employee because he or she reported potential violations of 
environmental laws and regulations or the PSIA and its regulations to 
either the employer or the government.

    Question: What activity or actions are protected under such 
whistleblower statutes, and which is excluded?
    What agency adjudicates those claims?

    Response: 33 CFR 142.7 covers reports of unsafe working conditions 
relating to outer continental shelf activities. It is based on general 
authorities contained in the Outer Continental Shelf Lands Act. 33 CFR 
142.7 provides as a safeguard that, except as authorized by the 
reporting individual, his identity is protected from everyone other 
than officers within the Department of Homeland Security who have a 
need to know in the performance of their official duties. The report is 
made to the Coast Guard Officer in Charge, Marine Inspection or his 
representative.
    There are two other statutes that are not specific to outer 
continental shelf activities that apply only to seafarers. The first, 
46 U.S.C. Sec.  3315, requires licensed mariners to affirmatively point 
out defects during inspections of vessels by Coast Guard marine 
inspectors. This statute only applies to licensed individuals on 
vessels. The official who receives this report may not disclose the 
identity of the individual to anyone except a person authorized by the 
Secretary of the Department of Homeland Security.
    The second, 46 U.S.C. Sec.  2114, provides protection for seaman 
from discrimination if he reports a violation of a marine safety law or 
regulation. This statute is limited to individuals who are seamen. The 
seaman can also refuse to perform duties ordered by his employer when 
he has a reasonable apprehension of serious injury to himself, other 
seamen or the public, but he must have asked the employer to correct 
the unsafe condition. When a seaman reports a condition to the Coast 
Guard or other federal agency and he is discharged or discriminated 
against as a result of the report he can seek judicial relief in 
Federal district court.
    The environmental whistleblower provisions (CAA, CERCLA, FWPCA, 
TSCA, and SWDA) protect employees who provide information, file 
complaints, and/or participate in a proceeding or other action related 
to the administration or enforcement of the statutes. The Secretary of 
Labor and the courts have consistently taken a broad view of what is 
considered protected under the environmental statutes, including 
internal complaints to management, raising concerns to the media, and 
refusals to perform work.
    Under the PSIA, the whistleblower protection provision protects 
employees who, inter alia, provide information, file complaints, or 
participate in proceedings related to violations of any federal law 
relating to pipeline safety, and employees who refuse to engage in any 
practice made unlawful by any federal law relating to pipeline safety.
    The basic elements of a whistleblower claim are the complainant's 
protected activity under a whistleblower statute, the employer's 
knowledge of the protected activity, an adverse action taken against 
the complainant, and a causal connection between the protected activity 
and the adverse action. A causal connection may be inferred when an 
adverse action occurs shortly after protected activity. Causal 
connections may also be inferred from one or more indicators such as 
animus (exhibited ill will) toward the protected activity, disparate 
treatment of the complainant in comparison to other similarly situated 
employees, a pretextual explanation for the adverse action, false 
testimony or manufactured evidence. If, after investigating and 
reviewing the evidence, OSHA is unable to determine, by a preponderance 
of the evidence, the existence of a prima facie case, then the case 
must be dismissed.
    Under the environmental statutes, complainants have 30 days from 
the day they learned of the adverse action to file a retaliation 
complaint. Under the PSIA, complainants have 180 days. However, 
equitable tolling might operate to extend the filing deadline in 
certain situations.
    The Department of Labor adjudicates claims under the environmental 
statutes and the PSIA. Complainants who file whistleblower complaints 
with OSHA under these statutes may object to the Secretary's 
investigative findings (and order) and request a de novo hearing before 
a Department of Labor administrative law judge. Further right of 
administrative appeal is provided to the Department of Labor's 
Administrative Review Board, which issues final decisions of the 
Secretary. The ARB's decisions may be appealed to federal courts of 
appeal.

    Question: Is there an expressed right to refuse unsafe work and if 
so, where is that provided and to the extent that it is, what happens 
if there is retaliation?

    Response--Oil Rig and Oil Spill Workers: 33 CFR Part 142 is 
applicable to lessees, permittees, persons responsible for actual 
operations, and persons working in OCS activities. These regulations 
address recognized hazards, reporting unsafe working conditions, and 
also specify protective equipment and safe working conditions on OCS 
facilities.
    In making reports of unsafe conditions, the identity of any person 
making the report is not made available, without the permission of the 
reporting person, to anyone other than those officers and employees of 
the Department that would investigate such reports and would have a 
need for the record in the performance of their official duties.
    The 33 CFR Part 142 regulations do not apply to oil spill workers.
    Right to refuse work: Under the environmental protection statutes 
with whistleblower protection clauses, there are no express provisions 
for employees who refuse to work because of alleged environmental 
violations by an employer. Irrespective of this factor, the Secretary 
of Labor--where complaints are made and adjudicated--interprets the 
environmental protection statutes to protect refusals to work when an 
employee has a reasonable belief that his or her working conditions are 
unsafe or unhealthful, and he or she does not receive an adequate 
explanation from a responsible official that the conditions are safe. 
The PSIA, however, expressly protects refusals to engage in any 
practice made unlawful by a federal law relating to pipeline safety, if 
the employee has identified the alleged illegality to the employer. 
Under all of these statutes, any employee who, acting without direction 
from his or her employer (or the employer's agent), deliberately causes 
a violation of any requirement of any of the statutes, is not 
protected.

    Question: It seems that several government agencies have been 
coordinating and working well together on worker safety issues in the 
response to the oil spill.
    What has the role been of other entities, such as the Department of 
Homeland Security and state and local governments, in ensuring the 
safety of clean-up workers and the general public?
    What plans or efforts are being put in place now for the future 
role these groups will assume as more and more of the oil hits our 
shores?

    Response: The role of all Federal, state and local entities in 
ensuring the safety of clean-up workers responding to the Deepwater 
Horizon incident and the general public has been and continues to be a 
top priority. Strict to all applicable Occupational Safety and Health 
Administration (OSHA) regulations and National Institute of 
Occupational Safety and Health (NIOSH) recommendations are in place. 
Temporary suspension of any applicable regulation or standard is 
reviewed on a case by case basis. For further information see http://
www.osha.gov/oilspills/oilspill-activity-update.html and http://
www.cdc.gov/niosh/topics/oilspillresponse/
    Adherence to these regulations and safety standards are embedded 
with the enduring Incident Action Plans as well as the Deepwater 
Horizon Severe Weather Contingency Plan which guides response actions 
leading to, during, and after a hurricane or tropical storm.
                                 ______
                                 
    Below is the response to your question regarding a HOTLINE that 
workers can call to report health and safety problems on a rig. There 
is one attachment, which includes OSHA's worker safety fact sheet 
(contains BP hotline info).

    QUESTION: Is there a HOTLINE workers can call to report health and 
safety problems on a rig? Who investigates complaints?

    ANSWER: According to a representative from The Bureau of Ocean 
Energy Management, Regulation, and Enforcement (BOEMRE) who 
participates in the NIC's Interagency Solutions Group:
    ``The Bureau of Ocean Energy Management, Regulation, and 
Enforcement (BOEMRE) has not required the rig operator to post a Hot 
Line number to report unsafe working conditions. BOEMRE requires a Hot 
Line number to report violations to the Inspector General related to 
production, such as theft, tampering, and falsifying records. Rig 
workers have contacted BOEMRE District offices to report concerns and 
issues. Although the district offices do not advertise their number at 
a Hot Line, due to the constant communication between the rigs/
platforms and the district offices, the number is readily available. 
Should BOEMRE receive a call or other communication from an offshore 
worker, the BOEMRE District Manager dispatches an inspector to conduct 
an inspection on the platform in question to determine if the complaint 
has merit.''
    OSHA's worker safety Fact Sheet, which contains BP hotline 
information, is attached.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
    Below are two more responses to staff questions relating to the 21 
June hearing.
    Please let me know if you have any questions!

    QUESTION: Deepwater Horizon workers had complaints about safety, 
especially concerns related to drilling. Should CG have followed up 
with these complaints?

    ANSWER: There is no record of complaints regarding safety aboard 
the DEEPWATER HORIZON received by the Coast Guard prior to the 
DEEPWATER HORIZON casualty.
    For complaints the Coast Guard receives related to marine safety, 
security and environmental protection, if the Coast Guard has 
jurisdiction over the complaint, it would be documented in the Coast 
Guard's Marine Information for Safety and Law Enforcement (MISLE) 
database and appropriate measures taken to investigate and resolve the 
complaint.
    If a complaint involves a safety program administered by another 
federal agency (for example, concerns relating to drilling safety are 
administered by the Minerals Management Service), the complaint is 
referred directly to the cognizant agency.
    For complaints not involving safety, the Coast Guard directs the 
complainant to contact the appropriate agency.

    QUESTION: What is the CG's relationship with OSHA? Does CG receive 
OSHA guidance regarding potential workplace occupational safety 
problems? Does CG look at OSHA standards? What does CG do to protect 
worker safety?

    ANSWER: The February 2010 OSHA Directive CPL 02-01-047 provides 
current policy, information and guidance with respect to OSHA authority 
over persons working on vessels and facilities on or adjacent to U.S. 
navigable waters and the Outer Continental Shelf (OCS). [see http://
www.osha.gov/OshDoc/Directive--pdf/CPL--02-01-047.pdf Appendix E for 
details].
    The Coast Guard has a very good working relationship with OSHA and 
has been a longstanding member of OSHA's Federal Advisory Committee on 
Maritime Occupational Safety and Health (MACOSH). MACOSH was 
established on February 8, 1995 to advise the Assistant Secretary for 
Occupational Safety and Health on issues relating to the delivery of 
occupational safety and health programs, policies, and standards in the 
maritime industries of the United States. The committee provides a 
collective expertise not otherwise available to the Secretary to 
address the complex and sensitive issues involved. The committee 
consists of 15 members who represent different interests within the 
maritime industry. The 15 members are divided into 3 equal groups 
representing: 1) government, 2) employers, and 3) employees.
    The 1978 amendments to the Outer Continental Shelf Lands Act 
greatly increased the U.S. Coast Guard's authority to promulgate and 
enforce safety and health regulations on the OCS. The CG has 
promulgated regulations on many occupational safety and health issues 
on the OCS (such as personal protective equipment, housekeeping, 
guarding of deck openings, means of escape, lifesaving appliances, 
firefighting equipment, emergency equipment, work vests, alarm systems, 
emergency evacuation plans, and safety zones (33 CFR 140.1 et seq.)), 
as well as commercial diving, 46 CFR Part 197, Subpart B et seq. (the 
CG diving regulations also cover diving in other locations).
    The 1979 ``Memorandum of Understanding between the U.S. Coast Guard 
and OSHA Concerning Occupational Safety and Health on the Outer 
Continental Shelf (OCS)'' established procedures to increase 
consultation and coordination between the agencies, including: 
development, promulgation and enforcement of standards; investigation 
of accidents; investigation of allegations; and joint training 
programs.
                                 ______
                                 

   Director Howard's Responses to Questions Submitted for the Record

    1. It seems that several government agencies have been coordinating 
and working well together on worker safety issues in the response to 
the oil spill.
    a. What has the role been of other entities, such as the Department 
of Homeland Security and state and local governments, in ensuring the 
safety of clean-up workers and the general public?

    The Department of Health and Human Services (HHS), defers to our 
colleagues at the Department of Homeland Security (DHS) as to the full 
extent of their role in ensuring the safety of clean-up workers and the 
general public. The U.S. Coast Guard (USCG) is the lead agency in the 
Deepwater Horizon Response and is in the best position to provide 
information regarding Coast Guard and/or DHS activities. Additionally, 
the DHS Office of Health Affairs also works with the designated Senior 
Health Official, Admiral Galloway, and his team to provide subject 
matter expertise and to coordinate reporting on public health, worker 
safety, and food safety issues.
    From the time of the announcement of the explosion and fire, the 
HHS Assistant Secretary for Preparedness and Response's Regional 
Emergency Coordinators in Region VI (includes Louisiana and Texas) and 
Region IV (includes Mississippi, Alabama and Florida) were in close 
communication with the States' Emergency Coordinators, the State 
Departments of Health, and the Association of State and Territorial 
Health Officials. On May 31 HHS, in coordination with the Louisiana 
Department of Health and Hospitals, set up a mobile medical unit in 
Venice, Louisiana to provide triage and basic care for responders 
concerned about health effects of the oil spill.
    HHS has a Memorandum of Understanding with the USCG and ASPR 
liaisons serve as Medical Unit Leaders at the Command Centers in Houma, 
LA, and Mobile AL, and has deployed ADM James Galloway of the U.S. 
Public Health Service and his staff to the National Incident Command 
Center in DC. The HHS Assistant Secretary for Health has been 
addressing recovery issues.
    The HHS Centers for Disease Control and Prevention (CDC), in 
coordination with state and local health departments, is conducting 
surveillance across the Gulf States for health effects related to the 
oil spill. Early on, CDC worked with states to help define what to 
watch for in their own surveillance systems and what enhancements to 
make to their surveillance systems to have more effective vigilance of 
health effects related to the oil spill. States now share the results 
with CDC (and with each other) and some of the most useful data are 
coming from the states' own surveillance systems. CDC is also using 
established national surveillance systems: The National Poison Data 
System (NPDS) and BioSense. This health surveillance will capture 
health issues that may arise in the general public. A summary of state 
findings are posted on the CDC website. See http://www.bt.cdc.gov/
gulfoilspill2010/2010gulfoilspill/health--surveillance.asp.
    CDC's Environmental Health Team continues to review EPA 
environmental data with the purpose of determining whether exposure to 
oil, oil constituents, or dispersants might cause short term or long 
term health effects. Data include sampling results for air, water, 
soil/sediment, and material actually reaching the beach or marsh.
    CDC's National Institute for Occupational Safety and Health (NIOSH) 
is working to protect workers and volunteers from potential safety and 
health hazards related to the spill and clean up efforts. NIOSH is 
conducting Health Hazard Evaluations to evaluate potential exposures 
and health effects among response workers. An interim report of the 
finding is available at http://www.cdc.gov/niosh/hhe/pdfs/interim--
report--1.pdf. NIOSH is also helping the Department of Labor's 
Occupational Safety and Health Administration (OSHA) and National 
Institute of Health's National Institute of Environmental Health 
Sciences (NIEHS) with technical assistance for training response 
workers. NIOSH together with OSHA have recently released an Interim 
Guidance for Protecting Deepwater Horizon Response Workers and 
Volunteers to ensure a comprehensive approach to occupational safety 
and health available at http://www.cdc.gov/niosh/topics/
oilspillresponse/protecting/. CDC is also sharing its health 
information with industry, OSHA, the Department of Homeland Security's 
(DHS) U.S. Coast Guard, and other federal and state agencies.
    Additionally, CDC has participated in public availability sessions 
and press conferences for residents of the Gulf Coast. In order to 
maintain open lines of communication, CDC has liaison officers in 
Florida, Louisiana and Texas and at the Public Health Unit in the 
Unified Command Post in Mobile.
    NIEHS administers the Worker Education and Training Program (WETP), 
which for 24 years has provided safety training to emergency responders 
and the hazardous materials workforce. Through this program, NIEHS 
provided nearly immediate assistance to the oil spill response to 
protect the health of oil spill workers and continues working with 
Coast Guard and BP officials as well as local and state officials, 
academic institutions, and other federal agencies to provide worker 
safety training. NIEHS continues to help NIOSH improve worker 
participation in the Gulf Coast worker roster by recommending the 
incorporation of participation in the roster and surveillance forms 
into training curricula being delivered to workers who may perform 
cleanup work.
    In partnership with OSHA and the Unified Command, more than 8,000 
pocket-sized booklets from NIEHS entitled ``Safety and Health Awareness 
for Oil Spill Cleanup Workers'' have been distributed to instructors, 
safety officials, front-line responders participating in the BP Vessels 
of Opportunity Program, and beach workers in the Shoreline Cleanup 
Assessment Team. The booklets also have been printed in English, 
Spanish and Vietnamese. The training is being paid for and administered 
by BP, and is being provided in English, Spanish and Vietnamese. All of 
the NIEHS worker training resources and materials are available online, 
www.niehs.nih.gov/oilspill.

    b. What plans or efforts are being put in place now for the future 
role these groups will assume as more and more of the oil hits our 
shores?

    The long-term human health effects from the oils spill are unknown. 
As a result, HHS has begun planning for future activities that will 
provide opportunities to learn about potential health hazards. HHS' 
current efforts include continued health communications; continued and 
enhanced public health surveillance; continued analysis of 
environmental sampling data from oil contaminated areas (oil, soil, 
water, and sediment); and identifying data gaps to address and evaluate 
potential long-term and short-term health effects. These efforts are 
being planned and carried out in coordination with state, local and 
federal partners.
Communications
    HHS will continue to provide timely, accurate and actionable 
information to the public, Gulf Coast residents, clinicians and clean-
up workers/volunteers to understand and protect themselves from 
potential and evolving health risks associated with the oil spill. HHS 
has posted to its website factsheets for various audiences on what to 
expect from the oil spill and how to protect health: http://
www.hhs.gov/gulfoilspill/index.html. HHS also has over one million 
Twitter followers and uses this social media outlet to send health 
related messages.
Environmental Health Monitoring
    CDC will continue to analyze environmental sampling data and 
conduct toxicological evaluations.
Surveillance
    CDC will continue to coordinate surveillance activities with Gulf 
State health departments for health effects in the general population 
and response workers possibly related to the oil spill, including 
providing technical assistance to enable states to generate mental 
health surveillance data. To do this, CDC will continue to use both 
state-based and national surveillance systems, National Poison Data 
System and BioSense. CDC will continue to analyze 2009 and 2010 
Behavioral Risk Factor Surveillance System (BRFSS) data from affected 
states and will continue to identify changes and trends in mental and 
behavioral health indicators based on questions in BRFSS. CDC is also 
collaborating with HHS' Food and Drug Administration (the lead federal 
agency for food safety) to monitor the safety of the seafood supply.
Research
    HHS is collaborating with a number of internal and external 
partners to create an agenda of oil related research issues, especially 
those that would address possible long-term health effects and 
outcomes. In order to better inform the research efforts needed to 
determine health impacts from the oil spill and dispersants, the HHS 
Office of the Assistant Secretary for Preparedness and Response 
convened a workshop by the Institute of Medicine (IOM) at the end of 
June in New Orleans and will continue to work with the IOM to get 
advice on proposed research studies and to have them monitor research 
efforts on an ongoing basis. CDC is also conducting a pilot study to 
identify gaps in scientific knowledge about the specific dermal and 
respiratory effects of oil and dispersant mixtures and oil burning 
combustion products associated with this discharge.
    NIH will devote $10 million to support research on the potential 
human health effects of the oil spill. NIEHS will recruit clean-up 
workers and Gulf residents and will collect biological samples, health 
histories, as well as information about clean-up work they performed 
and the nature of their exposures. In the near term, NIH will establish 
a baseline of such information and then monitor the oil spill workers 
for respiratory, immunological and neurobehavioral effects. NIEHS will 
work with other HHS agencies, federal partners, as well as local 
communities and universities to both assess and implement its research 
plan.
                                 ______
                                 

          Assistant Secretary Michaels' Responses to Questions
                        Submitted for the Record

Representative George Miller (CA-7th)
    Question 1: What whistleblower protections are provided to private 
sector workers employed on the Outer Continental Shelf drilling rigs, 
platforms or related equipment who are covered under OSHA safety and 
health regulations?

    Response: The familiar gaps and inconsistencies in whistleblower 
protections for workers are exacerbated on the Outer Continental Shelf 
(OCS) by the preemption of OSHA's jurisdiction by the U.S. Coast Guard 
and the Bureau of Ocean Energy, Management, Regulation and Enforcement, 
creating a vacuum in the most basic of whistleblower protections--
protection to blow the whistle on matters relating to worker safety and 
health under Section 11(c) of the OSH Act, 29 USC Sec. 660(c); 29 CFR 
Part 1977. For this reason, OSHA and the Administration strongly 
support enactment of the Offshore Oil and Gas Worker Whistleblower 
Protection Act, H.R. 5851, which would provide clear and certain 
remedies for offshore oil and gas industry workers who engage in safety 
activity.
    Because the Coast Guard has the statutory authority to prescribe 
and enforce standards or regulations affecting the occupational safety 
and health of seamen aboard inspected vessels, OSHA may not enforce the 
OSH Act with respect to those conditions. Although OSHA and the U.S. 
Coast Guard (USCG) agreed in a 1983 memorandum of understanding that 
OSHA would retain its whistleblower authority under the OSH Act, even 
where the USCG had jurisdiction of occupational safety and health, the 
U.S. Court of Appeals for the Fifth Circuit (which covers Louisiana, 
Texas, and Mississippi), held that the whistleblower provision of the 
OSH Act does not apply to workers whose working conditions are 
comprehensively regulated by another agency (in that case, the Coast 
Guard). The Fifth Circuit, whose jurisdiction includes a vast portion 
of the Nation's offshore oil and gas activity, refused to give effect 
to the OSHA/Coast Guard interagency agreement. The intricacies of this 
jurisdictional issue are more fully described in the response to 
Question 2 below, but the reality for workers is virtually no 
protection for blowing the whistle relating to occupational safety or 
health.
    There are other whistleblower protections that apply on the OCS, 
but they are not related to worker safety and health. The whistleblower 
protection provisions of the Clean Air Act; the Federal Water Pollution 
Control Act; the Toxic Substances Control Act; the Solid Waste Disposal 
Act; the Comprehensive Environmental Response, Compensation, and 
Liability Act; and the Pipeline Safety Improvement Act, which are 
administered by OSHA, may also apply, if the protected activity alleged 
to have resulted in or contributed to retaliation is related to 
environmental or pipeline safety. Unfortunately, workplace safety and 
health issues on OCS drilling rigs, platforms or related equipment are 
not related to environmental or pipeline safety, and therefore not 
covered by these laws.

    Question 2: What employees are covered, if any?
    Question 3: Which employees are excluded, if any?

    Response: Section 11(c) of the Occupational Safety and Health Act
    Like other provisions of the OSH Act, geographical coverage under 
section 11(c) is defined by section 4(a), which provides in pertinent 
part: ``This Act shall apply with respect to employment performed in a 
workplace in a State * * * [and] Outer Continental Shelf Lands [OCS] 
defined in the Outer Continental Shelf Lands Act. * * *'' For purposes 
of 11(c), the protected activity and the unsafe or unhealthful 
conditions that are the subject of the protected activity must be in 
the geographic areas specified in section 4(a).
    According to the Outer Continental Shelf Lands Act, the OCS 
includes all subsoil and seabed lying seaward and outside the lands 
beneath the navigable waters within the jurisdiction of a state under 
the Submerged Lands Act (which is typically three miles from shore, but 
approximately nine miles in the Gulf of Mexico) and ``* * * all 
installations and other devices permanently or temporarily attached to 
the seabed, which may be erected thereon for the purpose of exploring 
for, developing, or producing resources therefrom, or any such 
installation or other device (other than a ship or vessel) for the 
purpose of transporting such resources * * *'' 43 U.S.C. Sec.  
1333(a)(1). OCS facilities include platforms permanently attached to 
the seabed or subsoil of the OCS, buoyant OCS facilities securely and 
substantially moored so that they cannot be moved without special 
efforts, and mobile offshore drilling units (MODUs) when in contact 
with the seabed of the OCS for the exploration of subsea resources. 33 
C.F.R. 140.3, 140.10. Thus, while a structure attached to the OCS, such 
as a drilling rig, is potentially within OSHA's geographical coverage, 
vessels on the OCS except MODUs when in contact with the seabed, are 
not.
    Once it is determined that the protected activity and the 
underlying conditions were in areas defined by section 4(a), it must 
then be determined whether OSHA's enforcement authority under section 
11(c) is pre-empted by another federal agency. Section 4(b)(1) provides 
in pertinent part: ``Nothing in this Act shall apply to working 
conditions of employees with respect to which other Federal agencies * 
* * exercise statutory authority to prescribe or enforce standards or 
regulations affecting occupational safety and health.'' The U.S. Court 
of Appeals for the Fifth Circuit, which covers Louisiana, Texas, and 
Mississippi, has held that, because of section 4(b)(1) of the Act, 
section 11(c) does not apply to a seaman aboard a vessel whose working 
conditions are comprehensively regulated by the Coast Guard. The court 
reasoned that when the Congress said that ``[n]othing'' in the OSH Act 
shall apply to conditions regulated by other federal agencies it meant 
that no provision of the Act, including section 11(c), would apply to 
such conditions Donovan v. Texaco, Inc., 720 F.2d 825 (5th Cir. 1983). 
While the Texaco case specifically involved Coast Guard requirements, 
the court's ruling would be equally applicable in cases involving 
regulations issued by other agencies such as the Bureau of Ocean 
Energy, Management, Regulation and Enforcement. At this time it is 
binding on the U.S. District Courts within that Circuit.
    Because of the limitations imposed by the Fifth Circuit's decision 
in Texaco, OSHA' s authority to use Section 11(c) to protect 
whistleblowers on oil or gas drilling platforms or on MODUs on the OCS 
within the range of the Fifth Circuit may be seriously questioned. 
Working conditions on OCS facilities, such as fixed oil and gas 
drilling platforms and mobile offshore drilling units (MODUs), are 
subject to extensive regulations of both the Coast Guard and the Bureau 
of Ocean Energy, Management, Regulation and Enforcement (formerly the 
Minerals Management Service), including regulations dealing with fire 
and explosion hazards and a wide variety of other working conditions.
    For example, 33 CFR Part 142, which is enforced by the Coast Guard, 
is ``intended to promote workplace safety and health by establishing 
requirements relating to personnel, workplace activities and 
conditions, and equipment on the Outer Continental Shelf'' (Sec.  
142.1). It provides at Sec.  142.4(a) that ``[e]ach holder of a lease 
or permit under the Act shall ensure that all places of employment 
within the lease area or within the area covered by the permit on the 
OCS are maintained in compliance with workplace safety and health 
regulations of this part and, in addition, free from recognized 
hazards.'' It further provides, in Sec.  142.7(a), that ``[a]ny person 
may report a possible violation of any regulation in this subchapter or 
any other hazardous or unsafe working condition on any unit engaged in 
OCS activities to an Officer in Charge, Marine Inspection.'' Although 
Sec.  142.7(c) provides that the identity of any such person shall not 
be disclosed without that person's permission, there is no 
whistleblower protection for reporting possible violations or hazardous 
conditions.

    Question 4: Please name the specific statute or statutes and 
regulations that cover such employees for protected activity.

    Response: As mentioned in the response to Question 1, the reality 
for workers on the OCS is that there is virtually no protection for 
blowing the whistle on worker health and safety hazards. That is the 
reason why OSHA and the Administration strongly support H.R. 5851, and 
why its enactment is so critical.

    Question 5: What activity or actions are protected under such 
whistleblower statutes, and which is excluded?

    Response: As mentioned in the response to Question 1, the reality 
for workers on the OCS is that there is virtually no protection for 
blowing the whistle on worker health and safety hazards. Once again, 
that is the reason why OSHA and the Administration strongly support 
H.R. 5851, and why its enactment is so critical.

    Question 6: What agency adjudicates those claims?

    Response: As mentioned in the response to Question 1, the reality 
for workers on the OCS is that there is virtually no protection for 
blowing the whistle on worker health and safety hazards. Once again, 
that is the reason why OSHA and the Administration strongly support 
H.R. 5851, and why its enactment is so critical.

    Question 7: Is there an expressed right to refuse unsafe work and 
if so, where is that provided and to the extent that it is, what 
happens is there is retaliation?

    Response: As mentioned in the response to Question 1, the reality 
for workers on the OCS is that there is virtually no protection for 
blowing the whistle on worker health and safety hazards. Once again, 
that is the reason why OSHA and the Administration strongly support 
H.R. 5851, and why its enactment is so critical.
Representative Dina Titus (NV-3rd)
    Question 1: You spoke of how the Deepwater Horizon incident was a 
``low frequency, high consequence'' event. We have been dealing for 
decades with events that fit that description, including Three Mile 
Island. You also have pointed out that our current ways of measuring or 
predicting these events are inadequate. Is OSHA working on models of 
safety to prevent, and/or deal with such events?

    Response: In 1996, OSHA promulgated its Process Safety Management 
(PSM) standard with the purpose of preventing or minimizing the 
consequences of catastrophic releases of toxic, reactive, flammable, or 
explosive chemicals. Such consequences can include toxic, fire or 
explosion hazards. While the PSM standard covers many hazardous 
operations, such as oil refineries, the standard does not apply to 
operations that preempt OSHA jurisdiction. Such operations can include 
oil and natural gas drilling and nuclear power plants.
    To ensure strong PSM systems, we need to do a better job of 
identifying useful leading indicators. We all know the warning that 
``past performance is no guarantee of future success.'' This is 
particularly true of the low-frequency, high-impact events that process 
safety programs guard against. The oil and gas industry must continue 
to develop and track leading indicators to measure the performance and 
continuously improve process safety management systems. Recent work by 
the Center for Chemical Process Safety and American Petroleum Institute 
(API) is a good start.
    Additionally, it comes down to organizational culture--a set of 
practices that define the organization and influence the individuals 
who make up the organization: organizational safety culture must come 
from the top.
    OSHA is also working to improve its own targeting system. Until 
recently, OSHA has based its refinery targeting system on Days Away, 
Restricted, or Transferred (DART) rates. Specifically, only those 
refineries with elevated rates of injuries and illnesses were selected 
for programmed inspections. Clearly we need to change this. While 
injury and illness numbers are important, they are not the only 
indicator of establishments with major problems. We need to find a 
better way to target problem refineries or other production sites so 
that we can better spend our resources at facilities where potential 
disaster exists.
    And to the extent we continue to factor DART rates into our 
targeting mechanism, we need to make sure that they are accurate. That 
is why we are paying special attention to safety incentive and 
discipline programs that have been shown to discourage workers from 
reporting injuries and illnesses.
    We are also starting to take the safety of the entire refinery 
workforce into account--no matter who the employer is or the industry 
code they fall under--to ensure we do not miss any important 
indicators. Previously, our targeting system was based only on the 
injury and illness rates of employers, not contractors who may make up 
a large part of the workforce and employ workers who do some of the 
most dangerous work in the refineries.
    OSHA is continuing a concerted effort to enlist the cooperation of 
industry, labor, and other stakeholders in developing models and 
systems of safety to prevent and address high-catastrophic events. This 
cooperation is crucial to maximizing our impact because OSHA cannot 
inspect every refinery every year.
    You can also expect to see OSHA collaborating more with the 
National Institute for Occupational Safety and Health (NIOSH), 
Environmental Protection Agency, and other agencies to address the 
worker health and safety problems in the refinery and petrochemical 
industry--and in other industries as well. Together, we can develop a 
more effective system for targeting problem hazards and problem 
worksites, and addressing the problems that we have identified. And, in 
connection with hazards to which workers outside our jurisdiction are 
exposed, OSHA is actively collaborating with other agencies to assist 
in promoting worker safety.

    Question 2: It seems that several government agencies have been 
coordinating and working well together on workers safety issues in the 
response to the oil spill.
    a. What has the role been of other entities, such as the Department 
of Homeland Security and state and local governments, in ensuring the 
safety of clean-up workers and the general public?
    b. What plans or efforts are being put in place now for the future 
role these groups will assume as more and more of the oil hits our 
shores?

    Response: OSHA has joined with agencies in the Department of 
Homeland Security, including the U.S. Coast Guard; the Department of 
Health and Human Services (HHS), including the National Institute for 
Occupational Safety and Health (NIOSH) and the National Institute of 
Environmental Health Sciences (NIEHS); and other federal agencies, in 
ensuring the safety and health of workers involved in the Gulf oil 
spill response and cleanup operations. Examples of collaborative 
efforts with other Federal agencies include the coordination of injury/
illness monitoring with NIOSH; the coordination of safety and health 
training with NIEHS; and the coordination of exposure sampling with 
NIOSH, the Environmental Protection Agency (EPA), the U.S. Coast Guard, 
and the National Oceanic and Atmospheric Administration (NOAA).
    In addition, OSHA attends daily conference calls with local and 
State governments to address and resolve safety and health issues. 
These coordination efforts among Federal agencies and State and local 
governments will continue throughout the response and cleanup efforts.
Representative Dennis Kucinich (OH-10th)
    Question: Workers are considered to be the canary in the coal mine 
because what happens to them may also happen to others exposed to the 
same hazards. Dr. Michaels, you have an admirable history of advocacy 
for the public's health so I'd like to ask you this question:
    If we can't fully protect the workers, despite your efforts, how 
can we possibly protect all the potentially affected communities? I 
have in mind the coastal communities that will be exposed to airborne 
compounds at levels that are toxic but aren't detectable by normal 
smell; the oil droplets that get aerosolized into particles so small 
they go deep into the lungs where they can do major damage; the massive 
infusion of metals like lead and cadmium and polycyclic aromatic 
hydrocarbons into the marine ecosystem and therefore into the national 
food chain through bioaccumulation.

    Response: OSHA's jurisdiction with respect to the Gulf oil spill 
extends only to workers involved in response and cleanup operations. 
OSHA's role is to provide advice and consultation to the federal on-
scene coordinator (in this case the U.S. Coast Guard) regarding hazards 
to persons engaged in response activities. OSHA does not have 
jurisdiction over health risk assessments or exposure monitoring of the 
general public or the surrounding communities. The federal on-scene 
coordinator is responsible for coordinating federal resources for the 
overall response, including public safety. However, OSHA is monitoring 
and responding to potential occupational health concerns.
    We have stationed safety and health professionals throughout the 
Gulf Region who visit worksites every day to protect oil response 
cleanup workers from health and safety hazards. OSHA staff is 
evaluating the safety at worksites around the Gulf, covering the 
vessels of opportunity, beach cleanup, staging areas, decontamination, 
distribution and deployment sites. When OSHA finds problems or learns 
about them from workers, we immediately bring them to the attention of 
BP and ensure that they are corrected. OSHA also raises its concerns 
through the Unified Command so they are addressed across the entire 
response area. OSHA is also ensuring that employers provide, free of 
charge, appropriate personal protective equipment such as boots, gloves 
and other protective equipment.
    To determine whether workers are exposed to dangerous levels of 
toxic chemicals, OSHA is conducting its own independent air monitoring 
both on shore and on the cleanup vessels for crude oil, weathered oil, 
dispersants, and cleaning agents to characterize exposures and 
determine if any chemicals are present at dangerous levels. OSHA is 
also reviewing data from BP, the Environmental Protection Agency (EPA) 
and the National Oceanic and Atmospheric Administration (NOAA). OSHA is 
working with NIOSH to characterize worker exposures in each job 
category so that workers can receive necessary protections from air 
contaminants. This information is available to the public on OSHA's oil 
spill response website at: http://www.osha.gov/oilspills/index.html. At 
this time, OSHA has identified no exposures that exceed any of the most 
up-to-date standards for hazardous chemicals.
                                 ______
                                 
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                ------                                

    [Whereupon, at 12:09 p.m., the committee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
